ANNUAL FINANCIAL STATEMENT 2010
    I am an American Airman.
          I am a Warrior.
 I have answered my nation’s call.


    I am an American Airman.
My mission is to fly, fight, and win.
 I am faithful to a proud heritage,
        a tradition of honor,
       and a legacy of valor.


    I am an American Airman,
 Guardian of freedom and justice,
   My nation’s sword and shield,
      Its sentry and avenger.
 I defend my country with my life.


    I am an American Airman:
    Wingman, Leader, Warrior.
I will never leave an Airman behind.
         I will never falter,


         and I will not fail.
                                                                                       A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0




Table of Contents
MESSAGE FROM THE SECRETARY OF THE AIR FORCE .................................................................................................. II
MESSAGE FROM THE ASSISTANT SECRETARY OF THE AIR FORCE FOR FINANCIAL MANAGEMENT AND COMPTROLLER . III
MANAGEMENT DISCUSSION AND ANALYSIS
      VISION ..........................................................................................................................................................1
      AIR FORCE IN ACTION—FY 2010 ...................................................................................................................1
      AIR FORCE STRUCTURE ....................................................................................................................................2
      AIR FORCE RESOURCES ....................................................................................................................................6
      AIR FORCE FINANCIAL MANAGEMENT ...............................................................................................................7

AIR FORCE GENERAL FUND
       APPROPRIATIONS ..............................................................................................................................................8
       CURRENT AND FUTURE FINANCIAL SYSTEMS - DEFENSE ENTERPRISE ACCOUNTING AND MANAGEMENT SYSTEM ....9

AIR FORCE WORKING CAPITAL FUND
       CONSOLIDATED SUSTAINMENT ACTIVITY GROUP ...............................................................................................10
       CONTRACT DEPOT MAINTENANCE ....................................................................................................................10
       SUPPLY MANAGEMENT ACTIVITY GROUP-RETAIL ............................................................................................10
       AIR FORCE WORKING CAPITAL FUND CUSTOMERS............................................................................................11
       AIR FORCE WORKING CAPITAL FUND FINANCIAL PERFORMANCE MEASURES ......................................................11

FINANCING THE FIGHT ................................................................................................................................................11

FINANCIAL STATEMENTS
       GENERAL FUND
              PRINCIPAL STATEMENTS .....................................................................................................................13
              NOTES TO THE PRINCIPAL STATEMENTS ...............................................................................................19
              REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION .....................................................................71
              REQUIRED SUPPLEMENTARY INFORMATION ..........................................................................................85
              AUDIT OPINION .................................................................................................................................95
       WORKING CAPITAL FUND
              PRINCIPAL STATEMENTS ...................................................................................................................105
              NOTES TO THE PRINCIPAL STATEMENTS .............................................................................................111
              REQUIRED SUPPLEMENTARY INFORMATION ........................................................................................139
              AUDIT OPINION ...............................................................................................................................141




                                                                                                                                                                           I
II
A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0




                                                    III
The mission of the United States Air Force is to

fly, fightt and win...in air, space and cyberspace
                                                              A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0



M ANAGEMENT D ISCUSSION                                                    AND          A NALYSIS
Vision
The United States Air Force will be a trusted and reliable      Our Core Values are:
joint partner with our sister services known for integrity          ➢ Integrity First
in all of our activities, including supporting the joint            ➢ Service Before Self
mission first and foremost. We will provide compelling
air, space, and cyber capabilities for use by the combatant         ➢ Excellence in All That We Do
commanders. We will excel as stewards of all Air Force
resources in service to the American people, while
providing precise and reliable Global Vigilance, Reach and
                                                                Air Force in Action—FY 2010
                                                                During the past year, the Air Force has continued to support
Power for the nation.
                                                                the ongoing conflicts in Afghanistan and Iraq along with
                                                                our Joint and Coalition partners. We have seen a transition
The Air Force has three core competencies: Developing
                                                                from operations in Iraq, to surge operations in Afghanistan.
Airmen, Technology-to-Warfighting and Integrating
                                                                At the end of 2009 we had 9,800 Airmen in Iraq and
Operations. These core competencies make our six
                                                                7,600 in Afghanistan. Today, Iraq is already down to
distinctive capabilities possible:
                                                                7,300 Airmen and continues to lower, while nearly 10,000
                                                                Airmen are on the ground in Afghanistan. Our Airmen
Air and Space Superiority: With it, joint forces can
                                                                continue to proudly serve their nation and consistently
dominate enemy operations in all dimensions -- land, sea,
                                                                exhibit an unwavering commitment to fulfilling the needs
air and space.
                                                                of global Air Force operations. Our Leadership priorities
                                                                relating to organizing, training and equipping Airmen
Global Attack: Because of technological advances,
                                                                to meet the needs of our nation continue to be achieved.
the Air Force can attack anywhere, anytime -- and do so
                                                                These priorities include the following:
quickly and with greater precision than ever before.
                                                                     ➢ Continue to Strengthen the Nuclear Enterprise
Rapid Global Mobility: Being able to respond                        ➢ Partner with the Joint and Coalition Team
quickly and decisively anywhere we’re needed is key to                to Win Today‘s Fight
maintaining rapid global mobility.
                                                                    ➢ Develop and Care for Airmen and Their Families
Precision Engagement: The essence lies in the ability to            ➢ Modernize Air and Space Inventories,
apply selective force against specific targets because the            Organizations and Training
nature and variety of future contingencies demand both
                                                                    ➢ Recapture Acquisition Excellence
precise and reliable use of military power with minimal risk
and collateral damage.                                          Continue to Strengthen the Nuclear Enterprise
                                                                FY 2010 provided opportunities to continue to strengthen
Information Superiority: The ability of joint force             the nuclear enterprise, to be used as a primary deterrent
commanders to keep pace with information and incorporate        to nuclear attack. The Nuclear Triad – the ability to
it into a campaign plan is crucial.                             deliver a nuclear attack by land, by sea, or by air –
                                                                remains a cornerstone of strategic deterrence, and the
Agile Combat Support: Deployment and sustainment                Air Force provides two of the three critical components
are keys to successful operations and cannot be separated.      for the Nation‘s nuclear Triad: nuclear bombers and
Agile combat support applies to all forces, from                intercontinental ballistic missiles (ICBMs). Air Force
those permanently based to contingency buildups to              nuclear bombers, including the B-2A (Spirit) and B-52H
expeditionary forces.                                           (Stratofortress), as well as ICBMs (Minuteman III),
                                                                C2 platforms, dual capable fighter aircraft, and early
                                                                warning systems are all critical components of the nuclear
                                                                enterprise.


                                                                                                                             1
Partner with the Joint and Coalition Team                         This must include not only modernizing military
to Win Today‘s Fight                                              capabilities through the replacement of older systems, but
The Air Force remains committed, first and foremost, to           extending the life of aging systems via refurbishment.
providing the Joint warfighter Global Vigilance, Reach
and Power to win today‘s fight and is prepared to act in          Recapture Acquisition Excellence
both “supporting” and “supported” roles as dictated by            In order to meet the needs of the Air Force during
the objectives of the Joint or combined commanders. In            unprecedented times in which security is at an all time high,
order to strengthen our partnerships around the globe,            special emphasis was placed on recapturing acquisition
Airmen are working to build indigenous self-sustainable           excellence, providing extended operational lifetimes of air
capabilities in Afghanistan and Iraq, playing a critical          and space systems. The two-fold approach of including
role in fighting terrorism and supporting the CENTCOM             acquisition excellence in the current Strategic Plan, and
mission. Nearly 40,000 Airmen (Active, Guard, Reserve             creating the 2009 Acquisition Improvement Plan allowed
and Civilian) are deployed to 263 locations across the            us to:
globe, including 63 locations in the Middle East. At home,             ➢ Rebuild and Shape the Acquisition Workforce/
the Air Force supports 130,000 Airmen who contribute to                    Revitalize the Acquisition Workforce
the efforts in theater through unmanned aerial surveillance,
                                                                        ➢ Continue to Improve Acquisition Processes and
air sovereignty alert, space and intelligence operations and
                                                                          Skills/Improve Requirements Definition Process/
strategic deterrence.
                                                                          Instill Budget and Financial Discipline/Improve
                                                                          Major Systems Source Selection
Develop and Care for Airmen and Their Families
Taking care of Airmen and their families underpins the                  ➢ Enforce Stability in Requirements, CONOPS and
work of all Air Force core functions and is crucial to                    Funding/Establish Clear Lines of Authority and
success. In this the year of the Air Force Family significant             Accountability.
emphasis was placed on the four important areas of concern
for Air Force families: affordable and available family           Air Force Structure
housing, safe schools that challenge and prepare children
                                                                                                   Secretary of the Air Force
for the future, accessible and quality medical care for Air
Force families, and quality childcare. For single Airmen,
                                                                                                 Under Secretary of the Air Force
who make up 40 percent of the force, the Air Force focused                                         (Chief Management Officer)
on their unique requirements for dormitories and (morale,           Assistant Secretary of the                                      Secretariat Functions
welfare and recreation) services that offer fulfilling off-duty             Air Force
activities. The Air Force family is dynamic and diverse,
                                                                                                     Air Force Chief of Staff
made up of active duty, Reserve and Guard component
members; officer and enlisted, civilians, spouses and
                                                                                                  Air Force Vice Chief of Staff
children and that it also extends to parents, friends and
community partners who support Airmen.
                                                                   Air Force Major Commands              Staff Functions                 Air Staff
Modernize Air and Space Inventories, Organizations
and Training
The National Defense Strategy depends on the Air Force            The command line of the Air Force flows from the
to provide a dominant and decisive edge for Joint and             President and the National Command Authority to the
Coalition military operations. Our ability as a nation to         Secretary of Defense and the Department of the Air Force.
win the war in air, space and cyberspace is a fundamental         The Air Force is headed by the Secretary of the
principle of the Air Force. As the United States and our          Air Force (SECAF), with the Chief of Staff reporting to
allies adapt and evolve to defend against an ever-changing        the Secretary. Immediately subordinate to the departmental
enemy, the Air Force must maintain a comprehensive set            headquarters are the Major Air Commands (MAJCOMs),
of capabilities, organizations, personnel, and equipment--        Field Operating Agencies (FOAs), Direct Reporting Units
available to national leaders and Joint Force Commanders.         (DRUs), and the Auxiliary.

2
                                                                 A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                     M ANAGEMENT D ISCUSSION               AND    A NALYSIS




Major Command Structure                                                              A Education and Training Command
                                                                                     Air
Most units of the Air Force are assigned to a specific major                         ((AETC)
command (MAJCOMs), led by a general officer. MAJCOMs                                  Mission: Develop America’s Airmen
                                                                                      M
have extensive functional responsibilities as will be shown                           today, for tomorrow. With a vision to
on the following pages. MAJCOMs may be subdivided into                                ddeliver unrivaled air and space education
Numbered Air Forces (NAF) with each responsible for one                                aand training, the command recruits
or more wings or independent groups.                               Airmen and provides
                                                                                provid basic military training, initial and
Wings are the primary units of the working Air Force and are       advanced technical training, flying training, medical
responsible for maintaining an Air Force base or carrying out      training, space and missile training, cyber training, and
a specific mission. Wings may be commanded by a general            professional military and degree-granting professional
officer or a colonel. There are different types of wings, based    education. The command also conducts joint, readiness and
on objective: operational, air base, or specialized mission.       Air Force security assistance training.

A wing may have several squadrons in more than one                 Responsibilities: Sustains the combat capability of the
dependent group. Wings typically contain an operations             operational Air Force with highly trained and motivated
group, a maintenance group, a support group and a medical          Airmen; recalls individual ready Reservists and manages
group.                                                             mobility and contingency tasking support for combatant
                                                                   commanders.
The majority of individual officers and Airmen are assigned
to a squadron, which may be composed of several flights.           Command Personnel: 73,724
Additionally, there are other types of organizations in the
Air Force structure such as centers, field operating agencies                        A Mobility Command (AMC)
                                                                                     Air
and direct reporting units.                                                          Mission: To provide global air mobility ...
                                                                                     M
                                                                                     rright effects, right place, right time.
                   A Combat Command (ACC)
                   Air
                   Mission: To fly, fight, and win…
                   M                                                                  R
                                                                                      Responsibilities: AMC Airmen — active
                   integrating capabilities across air, space,                        dduty, Air National Guard, Air Force
                   aand cyberspace to deliver precise,             Reserve and
                                                                   R           d civilians
                                                                                  i ili    — provide airlift and aerial refueling
                    ccoercive effects in defense of our nation     for all of America’s armed forces. They also provide
                     aand its global interests.                    aeromedical evacuation and Global Reach laydown. The
                                                                   command has many special duty and operational support
Responsibilities: ACC is the lead command for the combat           aircraft and plays a crucial role in providing humanitarian
Air Force. The command organizes, trains, equips and deploys       support at home and around the world.
combat-ready forces to support combatant commanders
around the globe. Additionally, ACC is the air component           Command Personnel: 129,844
to U.S. Northern, Southern and Central commands and
augments the in-place air components of U.S. European                                A Force Materiel Command (AFMC)
                                                                                     Air
and Pacific commands. ACC also provides air defense                                  Mission: Deliver war-winning
                                                                                     M
forces to North American Aerospace Defense Command.                                  technology, acquisition support,
To accomplish the objectives of the National Defense                                 ssustainment and expeditionary
Strategy, the command operates fighter; attack; bomber;                               ccapabilities to the warfighter.
intelligence, surveillance and reconnaissance; combat
search and rescue; battle-management; electronic-combat            R
                                                                   Responsibilities:
                                                                             ibili i CConducts research, development and
and unmanned aircraft system platforms. In addition, ACC           test and evaluation, and provides acquisition management
conducts information operations and provides command,              services and logistics support necessary to keep Air Force
control, communications and intelligence systems to theater        weapon systems ready for war.
commanders and combat forces.
                                                                   Command Personnel: 79,317
Command Personnel: 144,090
                      ,
                                                                                                                                3
                  A Force Reserve Command (AFRC)
                  Air                                                            A Force Space Command (AFSPC)
                                                                                 Air
                  Mission: To fly, fight and win...in air,
                  M                                                              Mission: Provide an integrated
                                                                                 M
                  sspace and cyberspace.                                         cconstellation of space and cyberspace
                                                                                  ccapabilities at the speed of need.
                   R
                   Responsibilities:   The AFRC provides
                   th
                    he Air Force with about 20 percent of its                       Responsibilities: Organizing,
                                                                                    R
capability
     bilit with
             ith only
                   l about 4 percent of the total Air Force     equipping training and maintaining mission-ready
                                                                equipping,
budget, while spanning a wide variety of missions. It’s the     space and cyberspace forces and capabilities for North
only Department of Defense unit that conducts fixed-wing        American Aerospace Defense Command, U.S. Strategic
aerial spray missions. It flies hurricane hunter missions       Command and other combatant commands around the
for the National Weather Service. It is administratively        world. AFSPC oversees Air Force network operations
responsible for the Air Force’s individual mobilization         to provide capabilities in, through, and from cyberspace;
augmentee program.                                              manages a global network of satellite command and
                                                                control and communications, and is responsible for space
Command Personnel: 68,872                                       system development and acquisition. It places high-value
                                                                satellites in space with a variety of expendable launch
                    A National Guard (ANG)
                    Air                                         systems and operates them to provide space capabilities
                    Mission: The Air National Guard has
                    M                                           to support combatant commanders around the clock. It
                    bboth a federal and state mission. The      provides navigation, communications, ballistic missile
                     dual mission, a provision of the U. S.     warning, weather and intelligence warfighting support.
                     Constitution, results in each guardsman    AFSPC operates sensors that provide direct attack
                     hholding membership in the National        warning and assessments to U.S. Strategic Command
Guard
G   d off hi
          his or hher state and in the National Guard of the    and North American Aerospace Defense Command.
United States.                                                  The command develops, acquires, fields and sustains the
                                                                Air Force Satellite Control Network, Upgraded Early
Federal Mission: Maintain well-trained, well-equipped           Warning Radar System, Defense Satellite Communications
units available for prompt utilization. Enforces federal        System, Wideband Global SATCOM Satellite, Defense
authority, suppresses insurrection and defends the nation       Support Program, Space Based Infrared Systems, Global
when called to federal service by the President, Congress       Positioning System, Milstar, Advanced Extremely High
or both. Units augment the Air Force in operations and          Frequency Satellite, Ground-Based Electro-Optical Deep
exercises worldwide by direction of the chief of the            Space Surveillance System, PAVE Phased Array Warning
National Guard Bureau, Air Staff, major commands, or            System radar, Delta IV and Atlas V.
joint or unified commands.
                                                                Command Personnel: 46,863
State Mission: Provide assistance during emergencies such
as natural disasters and civil disturbances when required                         Pacific Air Forces (PACAF)
by the governor. Under state law, provides protection of                          Mission: Provide Pacific Command
                                                                                  M
life and property, and preserves peace, order and public                          integrated expeditionary Air Force
safety and is commanded by the governors of the 50 states,                        capabilities to defend the homeland,
Puerto Rico, Guam, the Virgin Islands and the commanding                          ppromote stability, dissuade/deter
general of the District of Columbia. Each governor is                              aggression, and swiftly defeat enemies.
represented in the state or territory chain of command by an
adjutant general through a joint forces headquarters.           Responsibilities: Organizes, trains, equips and maintains
                                                                resources prepared to conduct a broad spectrum of air
Command Personnel: 109,066                                      operations —from humanitarian relief to decisive combat
                                                                employment — in the Department of Defense’s largest area
                                                                of responsibility. Conducts multinational exercises and
                                                                hosts international exchange events to foster partnerships

4
                                                               A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                    M ANAGEMENT D ISCUSSION                AND    A NALYSIS




for regional security and stability in an area covering 13                        A Force Global Strike Command
                                                                                  Air
time zones and 100 million square miles, with 60 percent of                       ((AFGSC)
the world’s population, one-third of the world’s economic                          Missions: Develop and provide combat-
                                                                                   M
activity and five of the six largest armed forces.                                 rready forces for nuclear deterrence and
                                                                                    gglobal strike operations... Safe, Secure,
Command Personnel: 43,500                                                            Credible, to support the President of the
                                                                                     C
                                                                  United
                                                                  U it d St
                                                                         States
                                                                            t and
                                                                                d combatant commanders.
                   U Air Forces in Europe (USAFE)
                   U.S.
                   Mission: Execute the U.S. European
                   M                                              Responsibilities: The activation of AFGSC is part
                   Command mission with forward-based             of a broader, comprehensive strategy the Air Force is
                   air power to provide forces for global         undertaking to ensure the Air Force has the proper focus
                   operations, ensure strategic access,           on its critical missions that provide nuclear deterrence and
                   assure allies, deter aggression and build      global strike forces for the combatant commander, the joint
                   partnerships.                                  team and allies.

Responsibilities: Build and maintain partnerships, promote        Command Personnel: 20,000
regional stability, provide forces for global operations,
support combatant command missions, develop and care              Direct Reporting Unit (DRU)
for Airmen and their families, sustain forward-based              A DRU is a subdivision of the Air Force that is directly
infrastructure, ensure strategic access to U.S. forces, assure    subordinate to Headquarters Air Force, separate from
allies and deter aggression.                                      any MAJCOM or FOA because of a unique mission,
                                                                  legal requirements, or other factors. DRUs have the same
Command Personnel: 36,591                                         administrative and organizational responsibilities as
                                                                  MAJCOMs. The DRUs are the Air Force Academy, Air
                  A Force Special Operations
                  Air                                             Force District of Washington, and Air Force Operational
                  Command (AFSOC)
                  C                                               Test and Evaluation Center.
                  Mission: America’s specialized air power
                  M
                  — a step ahead in a changing world,                               C
                                                                                    Civil   Air Patrol (CAP)
                  ddelivering special operations power                              Mission: Provide vital operational
                                                                                    M
                   aanytime, anywhere.                                              ccapabilities in support of aerial and
                                                                                     gground search and rescue, disaster relief,
Responsibilities: Responsible to U.S. Special Operations                              a nationwide communications network,
Command for the readiness of Air Force special operations                             aand counterdrug and homeland security
forces to conduct the war on terrorism and to disrupt, defeat                          missions.
and destroy terrorist networks that threaten the United States,
its citizens and interests worldwide. The command’s mission       Responsibilities: The Civil Air Patrol conducts 90 percent
areas include shaping and stability operations; battlefield air   of all inland search-and-rescue missions tasked by the Air
operations; information operations; intelligence, surveillance    Force Rescue Coordination Center at Tyndall AFB, Fla. It
and reconnaissance; specialized air and space mobility;           builds strong citizens for the future by providing leadership
precision engagement and agile combat support.                    training, technical education, scholarships and career
                                                                  education to young men and women, ages 12 to 21, in the
Command Personnel: 16,595                                         CAP Cadet Program. It promotes and supports aerospace
                                                                  education, both for its members and the general public,
                                                                  and conducts a national school enrichment program at the
                                                                  middle- and high-school levels.

                                                                  Personnel: 57,969


                                                                                                                                   5
      Field Operating Agency (FOA)                                                                                            People: Trained, motivated, and dedicated.
      A FOA is a subdivision of the Air Force that carries
      out field activities under the operational control of                                                                   The Air Force consists of over 690,000 military and
      a Headquarters U.S. Air Force functional manager.                                                                       civilian personnel. Aerospace power is a proven necessity
      FOAs have the same administrative and organizational                                                                    for victory on land, sea, air, space, and cyberspace. The
      responsibilities as MAJCOMs. Examples of FOAs                                                                           foundation for this is our people.
      include the Air Force Audit Agency, Air Force Center for
      Environmental Excellence, Air Force Financial Services                                                                  The reserve component (Air Force Reserve and Air
      Center, Air Force Services Agency, and Air Force Weather                                                                National Guard) has become more important than ever in
      Agency, among others.                                                                                                   sustaining worldwide operations. These warriors make
                                                                                                                              possible the successful accomplishment of Air Force
      Air Force Resources                                                                                                     missions.
      The three vital resources to successful accomplishment of
      the Air Force mission are:                                                                                              Systems: Modern weapons platforms that integrate air,
                                                                                                                              space, and cyber assets into an undefeatable force.
      Places: A network of bases that reflect the Air Force’s
      global competencies.                                                                                                    Air Force “systems” no longer mean only “manned
                                                                                                                              aircraft.” Systems also include space launch vehicles,
      The Air Force is a global force, spanning facilities both in                                                            satellites, intelligence, surveillance and reconnaissance
      the United States and around the world, as shown below:                                                                 assets, unmanned aerial systems, and the cohesive
           ➢ CONUS: 67                                                                                                        infrastructure to all Air Force systems. All Air Force
                                                                                                                              systems are essential assets for Air Force people to
             ➢ OCONUS: 16                                                                                                     accomplish the mission.

                                                        Major Active-Duty Air Force Installations - CONUS
                            McChord AFB AMC
                              WA                                                                                                               OCONUS
                         Fairchild AFB AMC              Malmstrom AFB AFSPC                        Minot AFB ACC
                                                                                                 ND                      Germany              Japan             Saudi Arabia               Turkey                        H ME
                                                                                                                                                                                                                        NH
                                                                  MT              Grand Forks AFB AMC                    Geilenkirchen AB     Kadena AB         US Mil Training Mission    Incirlik AB           VT
                                                                                                                         Ramstein AB          Misawa AB                                    Izmir AB
                       OR                                                                                                Spangdahlem AB       Yokota AB
                                                                                                                      M
                                                                                                                      MN                                        South Korea
                                             ID                                                 SD                                                              Kunsan AB                  UK                                         MA
                                      Mountain Home AFB ACC                             Ellsworth AFB ACC              Italy                WIPortugal          Osan AB                    RAF Lakenheath     NY                Hanscom AFB AFMC
                                                                                                                         Aviano AB            Lajes Field                                  RAF Mildenhall
                                                                      WY                                                                                            MI                     RAF Molesworth
                                                                                                                                                                                                                                 RI
           Beale AFB ACC
                                                                                                                                                                                                                                CT
                                                                     F.E. Warren AFB AFSPC                                                                                                               PA            McGuire AFB AMC
                                                                                                 NE                          IA
                                 NV                                                           Offutt AFB ACC                                                                                                          Dover AFB AMC
                                                                                                                                                                                                                                      NJ
              Travis AFB AMC                      Hill AFB AFMC                                                                                                IN             OH          Andrews AFB AMC
                                                                           Buckley AFB AFSPC                                                   IL           Wright-Patterson AFB AFMC                                               DE
                                                       UT            CO                                                                                                                                          Bolling AFB DRU
                    CA                  U.S. Air Force Academy DRU               Schriever AFB AFSPC        KS                                                                            WV                                    MD
                                                                                                                                  MO          Scott AFB AMC                                                 VA
                                                                  Peterson AFB AFSPC                                                                                                                              Langley AFB ACC
Vandenberg AFB AFSPC             Nellis AFB ACC                                                McConnell AFB AMC                                                      KY
                                                                                                                             Whiteman AFB ACC
                               Edwards AFB AFMC                                                                                                                                                                   Seymour Johnson AFB ACC
                                                                   NM                                       Vance AFB AETC                                        TN                                     NC
                                             Luke AFB AETC                                                                                                            Arnold AFB AFMC                            Pope AFB AMC
                                                                         Kirtland AFB AFMC             OK              Tinker AFB AFMC
       Los Angeles AFB AFMC                                   Cannon AFB ACC                                                         Little Rock AFB AETC                                    SC          Shaw AFB ACC
                                                   AZ                                                       Altus AFB AETC
                                                                                                                                              Columbus AFB AETC                                  Charleston AFB AMC
                                                              Holloman AFB ACC                                                    AR                                               GA
                                                                                                     Sheppard AFB AETC                                              AL               Robins AFB AFMC
                       Davis-Monthan AFB ACC                                                                                                   MS                       Maxwell AFB AETC
                                                                                                   Dyess AFB ACC                  Barksdale AFB ACC
                                                                                                                                                                                      Moody AFB ACC
                                                                                                                                  LA        Hurlburt AFB AFSOC
                                                                       Goodfellow AFB AETC        TX                                                                     Eglin AFB AFMC
                                                                                                    Randolph AFB AETC             Keesler AFB AETC                           Tyndall AFB AETC
 Hickam AFB PACAF                                                         Laughlin AFB AETC
                                                                                                                                                                                                          Patrick AFB AFSPC
                 HI                            Eielson AFB PACAF                       Lackland AFB AETC                                                                                         FL
                                                                                                                                                                                                MacDill AFB AMC

                                                     AK
                                        Elmendorf AFB PACAF




      6
                                                               A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                   M ANAGEMENT D ISCUSSION               AND    A NALYSIS




Air Force                                                        Internal Controls
Financial Management                                             The Air Force operates a robust Manager’s Internal Control
The Air Force Financial Management enterprise                    Program in compliance with OMB Circular A-123 to
encompasses the hardware, software, personnel, processes,        employ a comprehensive system of continuous evaluation
procedures, controls and data necessary to carry out its         of internal controls. This review system is fully integrated
financial management responsibilities. This section              with functional program control assessments used to help
focuses on the Air Force’s system of internal control and        ensure that the goals of the Department of the Air Force
emphasizes our compliance with federal laws such as the          are achieved each year. In strict adherence to The Office
Federal Managers’ Financial Integrity Act (FMFIA) and the        of the Under Secretary of Defense (Comptroller) guidance,
Federal Financial Management Improvement Act (FFMIA).            the Air Force reports a level of assurance over its internal
The following examples illustrate some of the ways the Air       controls in three distinct areas: Internal Control over
Force is improving financial compliance and efficiency.          Nonfinancial Operations (ICONO), Internal Control over
                                                                 Financial Reporting (ICOFR), and Internal Controls over
                                                                 Financial Systems (ICOFS).
Chief Financial Officer (CFO)
Compliance
                                                                 Internal Controls Over Financial
The passage of the CFO Act of 1990 required major
federal agencies to prepare auditable financial statements       Reporting (ICOFR)
for the first time. In 1994 the Government Management            As directed in the Under Secretary of Defense
Reform Act (GMRA) extended the CFO Act to include                (Comptroller) memo dated August 11, 2009, our review
agency-wide reports from all major executive branch              of ICOFR focused on the strategic prioritization of the
agencies, their components, and for the government as            Statement of Budgetary Resources and the existence and
a whole. The Government Performance and Results Act              completeness of mission critical assets. The Air Force
(GPRA) of 1993 required agencies to systematically               evaluated the effectiveness of internal controls over the key
report on plans and performance. The FFMIA of 1996,              business processes which significantly affect the financial
along with the Clinger-Cohen Act of 1996 (also known             information of those priority areas. This effort involved
as the Information Technology Management Reform                  documenting processes, developing swim-lane flowcharts,
Act), required that agencies install integrated systems that     performing risk analysis, and testing and analyzing existing
comply with federal accounting standards and produce             internal controls. Based on auditor recommendations
auditable financial statements in accordance with Office         the Air Force declared a new material weakness over the
of Management and Budget (OMB) Circular A-136,                   existence and completeness of Government Furnished
Financial Reporting Requirements. Additionally, agencies         Equipment. The Air Force also determined the material
must follow generally accepted accounting principles             weakness over Real Property Valuation was corrected and
(GAAP) promulgated by the Federal Accounting Standards           the material weakness over Military Equipment Valuation
Advisory Board (FASAB).                                          should be down-graded to a Reportable Condition based
                                                                 on the completed corrective action plans. The Air Force
The Air Force Financial Improvement Plan is a roadmap            will sustain Real Property Valuation and continue to
to accomplish those tasks and actions necessary to obtain        improve the condition of Military Equipment Valuation
an unqualified audit opinion on the Air Force General            with verification by auditors as it approaches final assertion
Fund and Working Capital Fund financial statements.              of audit readiness during their review of AF PP&E first
The Financial Improvement Plan is an Air Force-                  quarter FY11. We continue to track and report on nine
wide management tool meant to improve the quality                existing ICOFR material weaknesses that are included in
of information that is needed to make sound business             the Secretary’s Annual Statement of Assurance.
decisions. Quality information must be relevant and
reliable. The overarching goal of the CFO Act is to              Continuous Improvement
provide leaders and managers, on a routine basis, quality        This year the Air Force completed a significant
information with which to make decisions. An unqualified         transformation of its Financial Improvement Plan (FIP)
audit opinion attests to the reliability of the Air Force’s      to support the Under Secretary of Defense (Comptroller)
financial information.                                           priorities of assertion of the Statement of Budgetary

                                                                                                                              7
Resources and the existence and completeness of mission          personnel including regular pay, allowances, and bonuses.
critical assets. The FIP consolidates all the required           Additionally, this appropriation funds all Permanent
actions, establishes action offices, determines the status,      Change of Station (PCS) moves and supports a total force
and identifies resources required to produce accurate and        (active, reserve and guard) end strength of 511,991.
timely financial information. The purpose of this plan is
progress toward the goal of an unqualified opinion. The          Operations and Maintenance (O&M)
FIP operates under a robust governance structure created to      This appropriation funds key readiness programs critical to
oversee the implementation of the plan. The Secretary of         prepare forces for combat operations and other peacetime
the Air Force established an Executive Steering Committee        missions. These include day-to-day operating costs such
(ESC) composed of senior level Air Force leaders. This           as flying hours, depot maintenance, training, spare parts,
group’s charter states that it will meet at least quarterly to   and base operations. The FY 2010 appropriation supported
ensure the actions incorporated in the FIP are effectively       83 installations, produced over 1,200 pilots and funded
implemented. In addition to overseeing the FIP, the ESC          approximately 1.5 million flying hours while sustaining an
also provides oversight to the Accountability and Financial      aircraft fleet of over 5,550 aircraft.
Management Integrated Project Team (A&FM IPT). This
work group is responsible for resolving the issues and           Procurement
monitoring actions contained in the FIP.                         This appropriation provides for purchase of aircraft,
                                                                 missiles, vehicles, electronic and telecommunications
Progress Towards Auditability                                    equipment, satellite and launch equipment, base
The Under Secretary of Defense (Comptroller) has directed        maintenance and support equipment, and investment-type
the Air Force to apply its limited financial improvement         spares. The FY 2010 program supported the purchase of
resources on the prioritized objectives outlined in the          up to 92 aircraft including 28 Unmanned Aerial Vehicles
Financial Improvement and Audit Readiness Strategy               (UAVs) and 65 Manned Vehicles.
(FIAR) Strategy. The Air Force has asserted to the audit
readiness of Appropriations Received and Non-expenditure         Research, Development, Test and Evaluation
Transfers as a part of the overall Budget Authority              This appropriation provides funding for the research and
assertion. The Air Force’s Military Equipment line will          development of next generation weapons and platforms
be audit ready in the first quarter of FY 2011. In addition,     and for the testing and evaluation of current prototypes and
the Air Force will make incremental progress on important        upgrades. The Air Force’s top five acquisition priorities are
assessable units of Operating Material and Supplies              to:
(OM&S) (e.g., missile motors, cruise missiles, and drones)            ➢ Execute the successful KC-X source selection
during FY 2011.                                                           and award.
                                                                     ➢ Execute the Joint Strike Fighter System
Air Force General Fund                                                 Development and Demonstration (SDD) restructure
The General Fund is the fund into which most receipts of               and assess production reset.
the United States Government are deposited. Exceptions
include receipts from specific sources required by law to            ➢ Complete the Fall Program Reviews to develop
be deposited into other designated funds and receipts from             efficiency initiatives and document efficiency
appropriations made by Congress to carry on the general                actions.
and ordinary operations of the Government. The Notes                 ➢ Improve cost effectiveness of Advanced Extremely
to the Principal Statements provide more detail on the                 High Frequency (AEHF) Military Satellite
appropriations. The major appropriations in the Air Force              Communications (MILSATCOM) satellites
General Fund and their uses are:                                       (AEHF), Space-Based Infrared Systems (SBIRS)
                                                                       and Family of Advanced Beyond Line-of-Sight
Military Personnel (MILPERS)                                           Terminals (FAB-T) programs.
This appropriation provides funding for the care and
feeding of our Airmen. It includes all direct military               ➢ Develop should cost of Evolved Expendable
compensation for active duty, reserve, guard, and retired              Launch Vehicle (EELV) with transition of should
                                                                       cost team into deep
                                                                                         p dive on cost structure.
8
                                                              A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                  M ANAGEMENT D ISCUSSION               AND    A NALYSIS




Military Construction (MILCON)                                  in 2007. Spiral 2 deployed in May 2010, expanding the
This appropriation includes any construction, development,      General Accounting functionality to those same units along
conversion, or extension of any kind carried out                with the DFAS servicing center at Limestone, Maine.
with respect to a military installation. Typically this         Spiral 3 will expand DEAMS capability to the remaining
appropriation applies to any projects that exceed $1.5          AMC bases, Surface Deployment and Distribution
million but can be applicable to projects exceeding a $750      Command (SDDC) and Military Sealift Command (MSC).
thousand threshold.                                             Spiral 4 will take DEAMS to most of the remaining
                                                                Air Force major commands, saving Air Force Materiel
A sub-element of this appropriation provides funding            Command and Air Force Space Command for Spiral 5
for family housing construction programs. The FY 2010           to complete DEAMS deployment. When fully fielded,
appropriation supported 151 projects in total.                  DEAMS will transform financial management and set a
                                                                new standard for effective and efficient stewardship of our
Base Realignment and Closure (BRAC)                             Nation’s Defense resources.
The law authorizes the BRAC accounts to fund one-time,
nonrecurring costs that are a direct result of BRAC-            Air Force
directed base closure or realignment actions. Some costs
do not qualify for BRAC funding as costs resulting from
                                                                Working Capital Fund
                                                                The Air Force Working Capital Fund (AFWCF)
closure or realignment. The FY 2010 BRAC program was
                                                                conducts business in two primary areas: the Consolidated
approximately $500 million.
                                                                Sustainment Activity Group (CSAG) and the Supply
                                                                Management Activity Group-Retail (SMAG-R). Air Force
Current and Future Financial                                    Materiel Command (AFMC) manages more than 90 percent
Systems - Defense Enterprise                                    of the AFWCF business activity for Supply Management
Accounting and Management System                                and Depot Maintenance activities. These functions provide
(DEAMS)                                                         goods and services to the Air Force and DoD customers, as
Our systems enable us to maintain stewardship over              well as customers outside the DoD (e.g., local and foreign
the resources entrusted to us. DEAMS is key to our              governments). Supply Management provides expedited
current and future ability to manage the Air Force’s            repair, replenishment and inventory control for spare parts
resources. DEAMS was launched in August 2003 as a               and associated logistics support services to fulfill Air Force
joint initiative between the Air Force, U.S. Transportation     needs during war and peacetime. Depot Maintenance
Command (USTRANSCOM) and the Defense Finance                    provides economical and responsive repair, overhaul and
and Accounting Service under what became the Defense            modification of aircraft, missiles, engines, other major end
Department’s Business Transformation Agency. The                items and associated components.
DEAMS mission is to support the Nation’s warfighters
with timely, accurate, and reliable financial information,      In FY 1998 the Air Force was appointed the Executive
enabling more efficient and effective decision making           Agent for Transportation Working Capital Fund (TWCF)
by DoD managers. DEAMS is reengineering financial               cash. Even though AFWCF manages TWCF’s cash, daily
management activities with a unified enterprise                 operations are managed by the United States Transportation
architecture, standardized business rules and processes,        Command. As a result, TWCF’s financial statements are
and the first implementation of the new Standard Financial      reported with other Defense Agencies.
Information Structure.
                                                                The AFWCF allows the Air Force to accomplish the
The Air Force is implementing DEAMS through an                  following: ensure readiness through reduced support costs,
incremental development approach in five spirals.               stabilized rates and responsive customer service; flexibility
Spiral 1 was a technology demonstration at Scott AFB,           to respond to customer support needs in real-world
Illinois, involving USTRANSCOM; Headquarters, Air               situations; focus management attention on net operating
Mobility Command; and Air Force active duty, Air                results, including cost and performance; identify the total
National Guard and Air Force Reserve tenant organizations       cost of providing support products and services; and,
on or associated with that base. Spiral 1 successfully          establish strong customer/provider relationships.
demonstrated an initial commitment accounting capability
                                                                                                                            9
Consolidated Sustainment                                      The CSAG Supply Division is primarily responsible
Activity Group (CSAG)                                         for Air Force-managed, depot-level reparable spares and
The Consolidated Sustainment Activity Group (CSAG)            consumable spares unique to the Air Force. Spares are an
is an AFWCF business activity chartered for operation in      individual part, subassembly, or assembly supplied for
FY 2009. The CSAG consolidates the Depot Maintenance          the maintenance or repair of systems or equipment. In
Activity Group (DMAG) and the Material Support Division       addition to management of these inventories, the Supply
(MSD) from the Supply Management Activity Group into          Division provides a wide range of logistics support services
a single business enterprise. This consolidation eliminates   including requirements forecasting, item introduction,
internal transactions between MSD and DMAG, resulting         cataloging, provisioning, procurement, repair, technical
in a more efficient business enterprise and customer          support, data management, item disposal, distribution
support improvements. The mission of CSAG is supply           management and transportation.
management of reparable and consumable items as well as
maintenance services. Under CSAG, business operations         Contract Depot Maintenance
formerly known as DMAG are now characterized as the           The transition of contract depot maintenance from the
Maintenance Division and business operations formerly         working capital fund was completed in FY 2008. The
known as MSD are now designated the Supply Division.          activity ceased accepting new orders at the end of FY 2008
                                                              and is expected to close out all accounting records by the
The CSAG Maintenance Division repairs systems and             end of FY 2011. This change brings the user and provider
spare parts to ensure readiness in peacetime and to provide   of contract depot maintenance services closer together and
sustainment for combat forces in wartime. This division       removes the WCF from its current role as the “middleman.”
operates on the funds received from its customers through
sales of its services. In peacetime, the Air Force enhances   Supply Management Activity Group–
readiness by efficiently and economically repairing,          Retail
overhauling and modifying aircraft, engines, missiles,        The Air Force Supply Management Activity Group–Retail
components and software to meet customer demands. The         (SMAG-R) is comprised of three divisions: General
Maintenance Division’s depots have unique skills and          Support, Medical-Dental, and the United States Air Force
equipment required to support and overhaul both new,          Academy.
complex components as well as aging weapon systems.
During wartime or contingencies, the depots can surge         The Air Force SMAG-R provides a wide range of logistics
repair operations and realign capacity to support the war     support services including requirements forecasting, item
fighter’s immediate needs.                                    introduction, cataloging, provisioning, procurement,
                                                              repair, technical support, data management, item disposal,
CSAG Maintenance Division is managed by AFMC and              distribution management and transportation. Inventories
employs over 23,000 personnel supporting four industrial      are an integral part of SMAG-R and are maintained by each
locations.                                                    of the divisions in support of customer requirements. The
                                                              SMAG-R objective is to replenish inventories and provide
CSAG Maintenance sites include:                               supplies to customers in a timely manner within customer
   ➢ Ogden Air Logistics Center (OO-ALC)                      funding constraints, while maintaining fund solvency. The
     Ogden, UT                                                Air Force (SMAG-R) manages weapon system spare parts,
     ➢ Oklahoma City Air Logistics Center (OC-ALC)            medical-dental supplies and equipment, and other supply
       Oklahoma City, OK                                      items used in non-weapon system applications.

     ➢ Warner Robins Air Logistics Center (WR-ALC)            The General Support Division (GSD) manages nearly 1.1
       Warner Robins, GA                                      million items, which are procured from Defense Logistics
     ➢ Aerospace Maintenance and Regeneration Group           Agency (DLA) and General Services Administration
       (AMARG), Tucson, AZ                                    (GSA). GSD customers use the majority of these items to
                                                              support field and depot maintenance of aircraft, ground and


10
                                                                                                                                                      A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                                                                                                    M ANAGEMENT D ISCUSSION                                                                       AND      A NALYSIS




airborne communication and electronic systems, as well as                                                                                                     Cash generated from operations is the primary means
other sophisticated systems and equipment. The General                                                                                                        of maintaining adequate cash levels. Effective cash
Support Division also manages many items related to                                                                                                           management is directly dependent on the availability of
installation, maintenance, and administrative functions.                                                                                                      accurate and timely data on cash levels and operational
                                                                                                                                                              results. Cash levels should be maintained to cover 7 to 10
The Medical-Dental Division (MDD) manages nearly                                                                                                              days of operational costs as well as cash adequate to meet
9,000 different items for 74 Medical Treatment Facilities                                                                                                     6 months of capital disbursements.
(MTF) worldwide. All supply and equipment requirements
generated by Air Force treatment facilities are procured                                                                                                      Financing the Fight
through this division. The Medical-Dental Division also                                                                                                       This nation continues to face an enemy unlike any seen
maintains the War Readiness Materiel (WRM) requirement.                                                                                                       throughout history. It is an elusive, well equipped, and
WRM provides initial war fighting capability until re-                                                                                                        well organized unit, capable of strategically attacking our
supply lines can sustain wartime demands for medical and                                                                                                      country. As our Joint Coalition teams continue to battle,
dental supplies and equipment.                                                                                                                                Air Force financial managers provide sound stewardship
                                                                                                                                                              and acquisition excellence to help position our Airmen to
The Air Force Academy Division finances the purchase                                                                                                          succeed. Through strong financial reinvention our teams
of uniforms and uniform accessories for sale to cadets in                                                                                                     help to manage the development and delivery of superior
accordance with regulations of the Air Force Academy                                                                                                          air and space systems.
and related statutes. The customer base consists of
approximately 4,500 cadets who receive distinctive                                                                                                            The U.S. Air Force is also a well equipped, and well
uniforms procured from various manufacturing contractors.                                                                                                     organized unit, and it is through the efforts of the FM
                                                                                                                                                              community that we are able to continue our duty in
Air Force Working Capital Fund                                                                                                                                “financing the fight”.
Customers
AFWCF provides support to a variety of customers: Air
Force Major Commands (including the Air National Guard
& Air Force Reserves), the Army, the Navy, other WCF’s,
other government agencies and foreign countries.

Air Force Working Capital Fund
Financial Performance Measures
AFWCF assesses financial performance using the Net
Operating Result (NOR) of an activity. The NOR is the
difference between revenue and expenses, i.e., a bottom-
line profit and loss indicator. The NOR objective of an
activity group is to break even over a two year period.
Prices are established to achieve this objective by
recovering or returning prior year losses or gains. DoD
cash management policy is to maintain the minimum cash
balance necessary to meet both operational requirements
and disbursements in support of the capital program.


Resources:
“The Book 2010,” Airman;; Offical magaizine
                                     g of the U.S. Air Force, Vol. LIV, Number 3, March 2010
Department of the Air Force. “2010 United States Air Force Posture Statement.” United States Air Force. February 2010
Department of the Air Force. “United States Air Force FY 2011 Budget Overview.” United States Air Force. January 2010
Secretary of the Air Force Michael Donley, “State of the Air Force - 2010” Remarks at the Air Force Association Conference and Technology Exposition, National Harbor Center at Oxon Hill, Md., Sept. 13, 2010. http://www.af.mil/information/speeches/speech.asp?id=610
                                                                                                                                                                                                                   p                           p        p p


                                                                                                                                                                                                                                                                                   11
     Limitations to the Financial Statements
     The principal financial statements have been prepared to report the financial position and results
     of operations of the entity, pursuant to the requirements of Title 31, United States Code, Section
     3515 (b). While the statements have been prepared from the books and records of the entity,
     in accordance with U.S. generally accepted accounting principles promulgated by the Federal
     Accounting Standards Advisory Board, and the formats prescribed by Office of Management
     and Budget, the statements are in addition to the financial reports used to monitor and control
     budgetary resources which are prepared from the same books and records. The statements
     should be read with the realization that they are for a component of the U.S. Government,
     a sovereign entity.




12
                                       A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10




General Fund
Principal Statements
Fiscal Year 2010
The FY 2010 Department of the Air Force General Fund Principal Statements and related
notes are presented in the format prescribed by the Department of Defense Financial
Management Regulation 7000.14-R, Volume 6B. The statements and related notes
summarize financial information for individual activity groups and activities within the
General Fund for the fiscal year ending September 30, 2010, and are presented on a
comparative basis with information previously reported for the fiscal year ending
September 30, 2009.
The following statements comprise the Department of the Air Force General Fund Principal
Statements:

Consolidated Balance Sheet
The Consolidated Balance Sheet presents as of September 30, 2010 and 2009 those
resources owned or managed by the Air Force which are available to provide future
economic benefits (assets); amounts owed by the Air Force that will require payments
from those resources or future resources (liabilities); and residual amounts retained by
the Air Force, comprising the difference (net position).

Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost presents the net cost of the Air Force’s operations
for the years ended September 30, 2010 and 2009. The Air Force’s net cost of operations
includes the gross costs incurred by the Air Force less any exchange revenue earned from
Air Force activities.

Consolidated Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position presents the change in the
Air Force’s net position resulting from the net cost of Air Force’s operations, budgetary
financing sources other than exchange revenues, and other financing sources for the
years ended September 30, 2010 and 2009.
Combined Statement of Budgetary Resources
The Combined Statement of Budgetary Resources presents the budgetary resources
available to the Air Force during FY 2010 and 2009, the status of these resources at
September 30, 2010 and 2009, and the outlay of budgetary resources for the years ended
September 30, 2010 and 2009.
The Principal Statements and related notes have been prepared to report financial position
pursuant to the requirements of the Chief Financial Officers Act of 1990, the Government
Management Reform Act of 1994, and the Office of Management and Budget’s Circular
A-136, “Financial Reporting Requirements.”




                                                                                              13
                  General Fund
                  Principal Statements

 Department of Defense
 Department of the Air Force
 CONSOLIDATED BALANCE SHEET
 As of September 30, 2010 and 2009
    ($ in Thousands)

                                                                                     2010 Consolidated               2009 Consolidated

     ASSETS (Note 2)
          Intragovernmental:
            Fund Balance with Treasury (Note 3)                                 $               107,566,991      $            103,310,367
            Investments (Note 4)                                                                        1,080                       1,079
            Accounts Receivable (Note 5)                                                             415,493                      298,953
            Other Assets (Note 6)                                                                     93,765                      212,245
            Total Intragovernmental Assets                                      $               108,077,329      $            103,822,644


          Cash and Other Monetary Assets (Note 7)                               $                    108,828     $                 98,939
          Accounts Receivable,Net (Note 5)                                                           459,788                      583,340
          Inventory and Related Property,Net (Note 9)                                             49,698,922                   47,588,282
          General Property, Plant and Equipment,Net (Note 10)                                   143,539,344                   149,759,237
          Other Assets (Note 6)                                                                   11,565,221                   11,716,176
     TOTAL ASSETS                                                               $               313,449,432      $            313,568,618
     STEWARDSHIP PROPERTY, PLANT & EQUIPMENT (Note 10)


     LIABILITIES (Note 11)
          Intragovernmental:
            Accounts Payable (Note 12)                                          $                  2,375,974     $              2,583,818
            Other Liabilities (Note 15 & 16)                                                       2,181,138                    2,016,078
            Total Intragovernmental Liabilities                                 $                  4,557,112     $              4,599,896


          Accounts Payable (Note 12)                                            $                  3,719,734     $              3,278,316
          Military Retirement and Other Federal                                                    1,109,363                    1,078,566
          Employment Benefits (Note 17)
          Environmental and Disposal Liabilities (Note 14)                                         8,839,352                    8,817,194
          Other Liabilities (Note 15 and Note 16)                                                  6,402,702                    6,201,694
     TOTAL LIABILITIES                                                          $                 24,628,263     $             23,975,666


     COMMITMENTS AND CONTINGENCIES (NOTE 16)
     NET POSITION
         Unexpended Appropriations - Other Funds                                                108,832,210                   105,252,117
         Cumulative Results of Operations - Earmarked Funds                                           18,568                       10,432
         Cumulative Results of Operations - Other Funds                                         179,970,391                   184,330,403
     TOTAL NET POSITION                                                         $               288,821,169      $            289,592,952


     TOTAL LIABILITIES AND NET POSITION                                         $               313,449,432      $            313,568,618




                                    The accompanying notes are an integral part of these financial statements.
14
                                                                 A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                                 General Fund
                                                                                                                 Principal Statements


Department of Defense
Department of the Air Force
CONSOLIDATED STATEMENT OF NET COST
For the periods ended September 30, 2010 and 2009
    ($ in Thousands)
                                                                                       2010 Consolidated             2009 Consolidated


 Program Costs
      Gross Costs                                                                  $            170,397,052      $           143,926,714
       Military Personnel                                                                        36,221,498                   33,781,926
       Operations, Readiness & Support                                                           56,229,398                   52,991,623
       Procurement                                                                               46,584,073                   28,276,737
       Research, Development, Test & Evaluation                                                  30,012,123                   29,495,285
       Family Housing & Military Construction                                                      1,349,960                    (618,857)


      (Less: Earned Revenue)                                                                      (5,913,669)                 (6,141,434)
      Net Cost before Losses/(Gains) from Actuarial Assumption Changes                          164,483,383                  137,785,280
      for Military Retirement Benefits
 Net Cost of Operations                                                            $            164,483,383      $           137,785,280




                                    The accompanying notes are an integral part of these financial statements.
                                                                                                                                         15
                     General Fund
                     Principal Statements


Department of Defense
Department of the Air Force
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2010 and 2009
    ($ in Thousands)
                                                             2010 Earmarked Funds              2010 All Other Funds                2010 Eliminations

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                       $                      10,432     $                184,330,402        $                       0
Prior Period Adjustments:
     Corrections of errors (+/-)                                                      0                                   0                            0
Beginning balances, as adjusted                                                 10,432                      184,330,402                                0
Budgetary Financing Sources:
     Appropriations used                                                              0                     157,921,032                                0
     Nonexchange revenue                                                         1,432                                    0                            0
     Donations and forfeitures of cash and cash equivalents                     10,757                                    0                            0
     Transfers-in/out without reimbursement                                           0                            297,535                             0
Other Financing Sources:
     Transfers-in/out without reimbursement (+/-)                                     0                            202,939                             0
     Imputed financing from costs absorbed by others                                  0                            857,824                             0
     Other (+/-)                                                                     (1)                           839,991                             0
Total Financing Sources                                                         12,188                      160,119,321                                0
Net Cost of Operations (+/-)                                                     4,052                      164,479,331                                0
Net Change                                                                       8,136                           (4,360,010)                           0
Cumulative Results of Operations                                                18,568                      179,970,392                                0
UNEXPENDED APPROPRIATIONS
Beginning Balances                                       $                            0    $                105,252,117        $                       0
Beginning balances, as adjusted                                                       0                     105,252,117                                0
Budgetary Financing Sources:
     Appropriations received                                                          0                     165,409,977                                0
     Appropriations transferred-in/out                                                0                           (210,801)                            0
     Other adjustments (rescissions, etc)                                             0                          (3,698,051)                           0
     Appropriations used                                                              0                    (157,921,032)                               0
Total Budgetary Financing Sources                                                     0                          3,580,093                             0
Unexpended Appropriations                                                             0                     108,832,210                                0
Net Position                                                                    18,568                      288,802,602                                0




                                    The accompanying notes are an integral part of these financial statements.
16
                                                                  A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                                      General Fund
                                                                                                                      Principal Statements




    2010 Consolidated        2009 Earmarked Funds        2009 All Other Funds               2009 Eliminations           2009 Consolidated



$            184,340,834 $                      5,355                 185,017,169     $                           0                185,022,524


                        0                           0                   (8,539,654)                               0                  (8,539,654)
             184,340,834                        5,355                 176,477,515                                 0                176,482,870


             157,921,032                            0                 147,746,152                                 0                147,746,152
                   1,432                          846                             0                               0                           846
                  10,757                        7,322                             0                               0                          7,322
                 297,535                            0                      130,180                                0                    130,180


                 202,939                            0                     (124,914)                               0                   (124,914)
                 857,824                            0                      725,513                                0                    725,513
                 839,990                            0                   (2,841,855)                               0                  (2,841,855)
             160,131,509                        8,168                 145,635,076                                 0                145,643,244
             164,483,383                        3,091                 137,782,189                                 0                137,785,280
              (4,351,874)                       5,077                    7,852,887                                0                  7,857,964
             179,988,960                      10,432                  184,330,402                                 0                184,340,834


$            105,252,117 $                          0                  92,171,366     $                           0                 92,171,366
             105,252,117                            0                  92,171,366                                 0                 92,171,366


             165,409,977                            0                 163,967,087                                 0                163,967,087
                (210,801)                           0                      693,628                                0                    693,628
              (3,698,051)                           0                   (3,833,812)                               0                  (3,833,812)
            (157,921,032)                           0                (147,746,152)                                0               (147,746,152)
               3,580,093                            0                  13,080,751                                 0                 13,080,751
             108,832,210                            0                 105,252,117                                 0                105,252,117
             288,821,170                      10,432                  289,582,519                                 0                289,592,951




                                     The accompanying notes are an integral part of these financial statements.
                                                                                                                                               17
                          General Fund
                          Principal Statements

 Department of Defense
 Department of the Air Force
 COMBINED STATEMENT OF BUDGETARY RESOURCES
 For the periods ended September 30, 2010 and 2009
     ($ in Thousands)

                                                                                                              2010 Combined                2009 Combined

 BUDGETARY FINANCING ACCOUNTS
 BUDGETARY RESOURCES
 Unobligated balance, brought forward, October 1                                                         $            29,211,348       $           26,676,890
 Recoveries of prior year unpaid obligations                                                                            4,573,888                   4,093,396
 Budget authority
     Appropriation                                                                                                    165,422,165                 163,975,253
     Spending authority from offsetting collections
         Earned
              Collected                                                                                               10,302,406                    9,302,479
              Change in receivables from Federal sources                                                                    219,051                  324,746
         Change in unfilled customer orders
              Advance received                                                                                                9,782                  147,616
              Without advance from Federal sources                                                                          292,336                    80,913
     Subtotal                                                                                                         176,245,740                 173,831,007
 Nonexpenditure transfers, net, anticipated and actual                                                                       86,734                  823,808
 Permanently not available                                                                                             (3,698,050)                 (3,833,813)
 Total Budgetary Resources                                                                               $            206,419,660      $          201,591,288
 Status of Budgetary Resources:
 Obligations incurred:
     Direct                                                                                              $            159,256,720      $          162,319,819
     Reimbursable                                                                                                     11,072,669                   10,060,121
     Subtotal                                                                                                         170,329,389                 172,379,940
 Unobligated balance:
     Apportioned                                                                                                      32,529,681                   26,091,928
     Exempt from apportionment                                                                                               13,729                     4,480
     Subtotal                                                                                                         32,543,410                   26,096,408
 Unobligated balance not available                                                                                      3,546,861                   3,114,940
 Total status of budgetary resources                                                                     $            206,419,660      $          201,591,288
 Change in Obligated Balance:
 Obligated balance, net
     Unpaid obligations, brought forward, October 1                                                      $            76,097,415       $           67,813,258
     Less: Uncollected customer payments                                                                               (2,457,299)                 (2,051,639)
     from Federal sources, brought forward, October 1
     Total unpaid obligated balance                                                                                   73,640,116                   65,761,619
 Obligations incurred net (+/-)                                                                                       170,329,389                 172,379,940
 Less: Gross outlays                                                                                                 (167,845,279)               (160,002,387)
 Obligated balance transferred, net
     Actual transfers, uncollected customer                                                                                      (2)                        0
      payments from Federal sources (+/-)
     Total Unpaid obligated balance transferred, net                                                                             (2)                        0
 Less: Recoveries of prior year unpaid obligations, actual                                                             (4,573,888)                 (4,093,396)
 Change in uncollected customer                                                                                          (511,385)                   (405,660)
      payments from Federal sources (+/-)
 Obligated balance, net, end of period
     Unpaid obligations                                                                                               74,007,637                   76,097,415
     Less: Uncollected customer payments                                                                               (2,968,686)                 (2,457,299)
              from Federal sources (-)
     Total, unpaid obligated balance, net, end of period                                                              71,038,951                   73,640,116
 Net Outlays
 Net Outlays:
     Gross outlays                                                                                                    167,845,279                 160,002,387
     Less: Offsetting collections                                                                                     (10,312,190)                 (9,450,094)
     Less: Distributed Offsetting receipts                                                                               (250,035)                   (104,099)
     Net Outlays                                                                                         $            157,283,054      $          150,448,194

                                               The accompanying notes are an integral part of these financial statements.
18
                                        A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10




General Fund
Fiscal Year 2010
Notes to the Principal Statements
Notes to the financial statements communicate information essential for fair
presentation of the financial statements that is not displayed on the face of the
financial statements.




                                                                                               19
                 General Fund
                 Notes to the Principal Statements


 Note 1.          Significant Accounting Policies

1.A. Basis of Presentation

These financial statements have been prepared to report the financial position and results of operations of the Air Force, as
required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of 1994, and
other appropriate legislation. The financial statements have been prepared from the books and records of the Air Force in
accordance with, and to the extent possible, U.S. generally accepted accounting principles (USGAAP) promulgated by the
Federal Accounting Standards Advisory Board; the Office of Management and Budget (OMB) Circular No. A-136, Financial
Reporting Requirements; and the Department of Defense (DoD), Financial Management Regulation (FMR).
The accompanying financial statements account for all resources for which the Air Force is responsible unless otherwise
noted.

Information relative to classified assets, programs, and operations is excluded from the statements or otherwise aggregated
and reported in such a manner that it is not discernible.

The Air Force is unable to implement fully all elements of USGAAP and the OMB Circular No. A-136, due to limitations of
financial and nonfinancial management processes and systems that support the financial statements. The Air Force derives
reported values and information for major asset and liability categories largely from nonfinancial systems, such as inventory
and logistic systems. These systems were designed to support reporting requirements for maintaining accountability over
assets and reporting the status of federal appropriations rather than preparing financial statements in accordance with
USGAAP. The Air Force continues to implement process and system improvements addressing these limitations.

The DoD currently has 13 auditor identified material weaknesses. Of these the Air Force has the following: (1) Financial
Management Systems; (2) Fund Balance with Treasury; (3) Accounts Receivable; (4) Operating Materials and Supplies; (5)
General Property, Plant, and Equipment; (6) Government-Furnished Material and Contractor-Acquired Material; (7) Accounts
Payable; (8) Environmental Liabilities; (9) Statement of Net Cost; (10) Intragovernmental Eliminations; (11) Other Accounting
Entries; and (12) Reconciliation of Net Cost of Operations to Budget.

1.B. Mission of the Reporting Entity

The United States Air Force was created on September 18, 1947, by the National Security Act of 1947 and operates under
the direction, authority, and control of the Secretary of the Air Force. The Air Force’s overall mission is to deliver sovereign
options for the Defense of the United States of America and its global interests to "Aim High…Fly, Fight, Win" in air, space,
and cyberspace. The Air Force carries out its mission by adhering to a strategic framework of Core Values consisting of
Integrity First, Service Before Self, and Excellence in All We Do. In addition, the Air Force is committed to provide Global
Vigilance, Global Reach, and Global Power, while defending and protecting the United States.

1.C. Appropriations and Funds

The Air Force receives appropriations and funds as general, working capital (revolving), trust, special, and deposit funds.
The Air Force uses these appropriations and funds to execute its missions and subsequently report on resource usage.

     x   General funds are used for financial transactions funded by congressional appropriations, including personnel,
         operation and maintenance, research and development, procurement, and military construction.

         These general funds also include supplemental funds enacted by the American Recovery and Reinvestment Act
         (Recovery Act) of 2009. Details relating to Recovery Act appropriated funds are available on-line at
         http://www.defenselink.mil/recovery.

     x   Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
         purposes or programs in accordance with the terms of the donor, trust agreement, or statute. Special fund accounts
         are used to record government receipts reserved for a specific purpose. Certain trust and special funds may be
         designated as earmarked funds. Earmarked funds are financed by specifically identified revenues, required by
         statute to be used for designated activities, benefits or purposes, and remain available over time. The Air Force is
         required to account separately for and report on the receipt, use and retention of revenues and other financing

20
                                                               A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                             General Fund
                                                                                                 Notes to the Principal Statements



    x   Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity.
        They are not Air Force funds, and as such, are not available for Air Force’s operations. The Air Force is acting as an
        agent or a custodian for funds awaiting distribution.

The Air Force is a party to allocation transfers with other federal agencies as a receiving (child) entity. An allocation transfer
is an entity’s legal delegation of authority to obligate budget authority and outlay funds on its behalf. Generally, all financial
activity related to allocation transfers (e.g. budget authority, obligations, outlays) is reported in the financial statements of the
parent entity. Exceptions to this general rule apply to specific funds for which OMB has directed that all activity be reported
in the financial statements of the child entity. These exceptions include U.S. Treasury-Managed Trust Funds, Executive
Office of the President (EOP), and all other funds specifically designated by OMB. Based on an agreement with OMB, funds
for Security Assistance programs are reported separately from Air Force financial statements and notes.

The Air Force receives allocation transfers for EOP (Foreign Military Sales – Military Assistance Program) meeting the OMB
exception.

The accounts used to prepare the financial statements are categorized as either entity or nonentity. The Air Force accounts
consist of resources that are available for use in the operations of the entity. The Air Force is authorized to decide how to
use resources in entity accounts or may be legally obligated to use these resources to meet entity obligations. Nonentity
accounts, on the other hand, consist of assets that are held by an entity but that are not available for use in the operations of
the entity. The following is a list of the major Air Force account numbers and titles (all accounts are entity accounts unless
otherwise noted):


Air Force Account Number              Title
57 * 0704                             Military Family Housing, Operations and Maintenance (O&M) and Construction,
                                      Air Force
57 * 0740                             Military Family Housing (Construction), Air Force
57 * 0743                             Military Family Housing (Construction), Air Force, Recovery Act
57 * 0745                             Military Family Housing, Operations and Maintenance (O&M), Air Force
57 * 0748                             Military Family Housing, Operations and Maintenance (O&M), Air Force, Recovery Act
57 * 0810                             Environmental Restoration, Air Force
57 * 1007                             Medicare Eligible Retiree Health Fund Contributions, Air Force
57 * 1008                             Medicare Eligible Retiree Health Fund Contributions, Air Force Reserve
57 * 1009                             Medicare Eligible Retiree Health Fund Contributions, Air National Guard
57 * 3010                             Aircraft Procurement, Air Force
57 * 3011                             Procurement of Ammunition, Air Force
57 * 3020                             Missile Procurement, Air Force
57 * 3080                             Other Procurement, Air Force
57 * 3300                             Military Construction, Air Force
57 * 3307                             Military Construction, Air Force, Recovery Act
57 * 3400                             Operations and Maintenance (O&M), Air Force
57 * 3404                             Operations and Maintenance (O&M), Air Force, Recovery Act
57 * 3500                             Military Personnel, Air Force




                                                                                                                                     21
                 General Fund
                 Notes to the Principal Statements


57 * 3600                             Research, Development, Testing, and Evaluation (RDT&E), Air Force
57 * 3605                             Research, Development, Testing, and Evaluation (RDT&E), Air Force, Recovery Act
57 * 3700                             Personnel, Air Force Reserve
57 * 3730                             Military Construction, Air Force Reserve
57 * 3740                             Operations and Maintenance (O&M), Air Force Reserve
57 * 3744                             Operations and Maintenance (O&M), Air Force Reserve, Recovery Act
57 * 3830                             Military Construction, Air National Guard
57 * 3834                             Military Construction, Air National Guard, Recovery Act
57 * 3840                             Operations and Maintenance (O&M), Air National Guard
57 * 3844                             Operations and Maintenance (O&M), Air National Guard, Recovery Act
57 * 3850                             Personnel, Air National Guard
57 X 5095                             Wildlife Conservation, etc., Military Reservations, Air Force
57 X 8418                             Air Force Cadet Fund
57 X 8928                             Air Force General Gift Fund
57 * 3XXX (Incl Nonentity)            Budget Clearing Accounts
57 * 6XXX (Nonentity)                 Deposit Fund Accounts
57   ****   (Nonentity)               Receipt Accounts

1.D. Basis of Accounting

The Air Force’s financial management systems are unable to meet all full accrual accounting requirements. Many of the
Air Force’s financial and nonfinancial feeder systems and processes were designed and implemented prior to the issuance
of USGAAP. These systems were not designed to collect and record financial information on the full accrual accounting
basis as required by USGAAP. Most of Air Force’s financial and nonfinancial legacy systems were designed to record
information on a budgetary basis.

The Air Force's financial statements and supporting trial balances are compiled from the underlying financial data and trial
balances of the Air Force's sub-entities. The underlying data is largely derived from budgetary transactions (obligations,
disbursements, and collections), from nonfinancial feeder systems, and accruals made for major items such as payroll
expenses, accounts payable, and environmental liabilities. Some of the sub-entity level trial balances may reflect known
abnormal balances resulting largely from business and system processes. At the consolidated Air Force level these
abnormal balances may not be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only
to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into
compliance with USGAAP. One such action is the current revision of accounting systems to record transactions based on
the U.S. Standard General Ledger (USSGL). Until all Air Force’s financial and nonfinancial feeder systems and processes
are updated to collect and report financial information as required by USGAAP, Air Force’s financial data will be derived
from budgetary transactions, data from nonfinancial feeder systems, and accruals.

1.E. Revenues and Other Financing Sources

The Air Force receives congressional appropriations as financing sources for general funds that expire annually, on a
multi-year basis, or do not expire. When authorized by legislation, these appropriations are supplemented by revenues
generated by sales of goods or services. The Air Force recognizes revenue as a result of costs incurred for goods and
services provided to other federal agencies and the public. Full-cost pricing is Air Force’s standard policy for services



22
                                                            A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                        General Fund
                                                                                            Notes to the Principal Statements


provided as required by OMB Circular A-25, User Charges. The Air Force recognizes revenue when earned within the
constraints of its current system capabilities. In some instances, revenue is recognized when bills are issued.

The Air Force does not include nonmonetary support provided by U.S. allies for common defense and mutual security in
amounts reported in the Statement of Net Cost and the Note 21, Reconciliation of Net Cost of Operations to Budget. The
U.S. has cost sharing agreements with countries having a mutual or reciprocal defense agreement, where U.S. troops are
stationed, or where the U.S. Fleet is in a port.

1.F. Recognition of Expenses

For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Current
financial and nonfinancial feeder systems were not designed to collect and record financial information on the full accrual
accounting basis. Estimates are made for major items such as payroll expenses, accounts payable, environmental
liabilities, and unbilled revenue. Some accounts such as civilian pay, military pay, and accounts payable are presented on
the accrual basis of accounting on the financial statements, as required by USGAAP.

In the case of Operating Materiel & Supplies (OM&S), operating expenses are generally recognized when the items are
purchased. Efforts are underway to transition to the consumption method for recognizing OM&S expenses. Under the
consumption method, OM&S would be expensed when consumed.

Due to system limitations, in some instances expenditures for capital and other long-term assets may be recognized as
operating expenses. The Air Force continues to implement process and system improvements to address these
limitations.

1.G. Accounting for Intragovernmental Activities

Accounting standards require that an entity eliminate intraentity activity and balances from consolidated financial
statements in order to prevent overstatement for business with itself. However, the Air Force cannot accurately identify
intragovernmental transactions by customer because Air Force’s systems do not track buyer and seller data at the
transaction level. Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts
receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side
records are adjusted to agree with DoD seller-side balances and are then eliminated. The DoD is implementing
replacement systems and a standard financial information structure that will incorporate the necessary elements that will
enable DoD to correctly report, reconcile, and eliminate intragovernmental balances.

The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide and Treasury Financial Manual Part
2 – Chapter 4700, Agency Reporting Requirements for the Financial Report of the United States Government, provide
guidance for reporting and reconciling intragovernmental balances. While Air Force is unable to reconcile fully
intragovernmental transactions with all federal agencies, Air Force is able to reconcile balances pertaining to investments
in federal securities, borrowings from the U.S. Treasury and the Federal Financing Bank, Federal Employees’
Compensation Act transactions with the Department of Labor, and benefit program transactions with the Office of
Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The
Federal Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements do
not report any public debt, interest, or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the
U.S. Treasury does not allocate such costs to DoD.

1.H. Transactions with Foreign Governments and International Organizations

Each year, Air Force sells defense articles and services to foreign governments and international organizations under the
provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell defense




                                                                                                                                23
                  General Fund
                  Notes to the Principal Statements


articles and services to foreign countries and international organizations generally at no profit or loss to the Federal
Government. Payment in U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury

The Air Force’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of Defense Finance
and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE), and the
Department of State’s financial service centers process the majority of the Air Force’s cash collections, disbursements, and
adjustments worldwide. Each disbursing station prepares monthly reports to the U.S. Treasury on checks issued,
electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable
Fund Balance with Treasury (FBWT) account. On a monthly basis, Air Force’s FBWT is adjusted to agree with the U.S.
Treasury accounts.

1.J. Foreign Currency

Cash is the total of cash resources under the control of DoD which includes coin, paper currency, negotiable instruments,
and amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar
equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts. Foreign
currency is valued using the U.S. Treasury prevailing rate of exchange.

The majority of cash and all foreign currency is classified as “nonentity” and is restricted. Amounts reported consist
primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting, and foreign currency
accommodation exchange missions.

The Air Force conducts a significant portion of operations overseas. Congress established a special account to handle the
gains and losses from foreign currency transactions for five general fund appropriations: (1) operations and maintenance;
(2) military personnel; (3) military construction; (4) family housing operation and maintenance; and (5) family housing
construction. The gains and losses are calculated as the variance between the exchange rate current at the date of
payment and a budget rate established at the beginning of each fiscal year. Foreign currency fluctuations related to other
appropriations require adjustments to the original obligation amount at the time of payment. The Air Force does not
separately identify currency fluctuation transactions.

1.K. Accounts Receivable

Accounts receivable from other federal entities or the public include: accounts receivable, claims receivable, and refunds
receivable. Allowances for uncollectible accounts due from the public are computed based on the average annual write off
over a five year period. The DoD does not recognize an allowance for estimated uncollectible amounts from other federal
agencies. Claims against other federal agencies are to be resolved between the agencies in accordance with dispute
resolution procedures defined in the Intragovernmental Business Rules published in the Treasury Financial Manual at
http://www.fms.treas.gov/tfm/vol1/07-03.pdf.

1.L. Direct Loans and Loan Guarantees

Not applicable.

1.M. Inventories and Related Property

The Air Force manages only military or government specific materiel under normal conditions. Materiel is a unique term
that relates to military force management, and includes items such as self-propelled weapons, aircraft, etc., and related
spares, repair parts, and support equipment. Items commonly used in and available from the commercial sector are not
managed in Air Force’s materiel management activities. Operational cycles are irregular and the military risks associated
with stock-out positions have no commercial parallel. The Air Force holds materiel based on military need and support for




24
                                                            A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                        General Fund
                                                                                            Notes to the Principal Statements


contingencies. The DoD is currently developing a methodology to be used to account for “inventory held for sale” and
“inventory held in reserve for future sale” with a completion date of year-end FY 2011 reporting.

Related property includes OM&S and stockpile materiel. The majority of OM&S, with the exception of munitions not held
for sale, are valued using the moving average cost method. Munitions not held for sale are valued at standard purchase
price. The Air Force uses both the consumption method and the purchase method of accounting for OM&S. Items that are
centrally managed and stored, such as ammunition and engines, are generally recorded using the consumption method
and are reported on the Balance Sheet as OM&S. When current systems cannot fully support the consumption method,
Air Force uses the purchase method. Under this method, materiel and supplies are expensed when purchased. During FY
2010 and FY 2009, Air Force expensed significant amounts using the purchase method because the systems could not
support the consumption method or management deemed that the item was in the hands of the end user. This is a
material weakness for the DoD and long-term system corrections are in process. Once the proper systems are in place,
these items will be accounted for under the consumption method of accounting.

The Air Force determined that the recurring high dollar-value of OM&S in need of repair is material to the financial
statements and requires a separate reporting category. Many high-dollar items, such as aircraft engines, are categorized
as OM&S rather than military equipment.

The Air Force recognizes excess, obsolete, and unserviceable OM&S at a net realizable value of $0 pending development
of an effective means of valuing such materiel.

1.N. Investments in U.S. Treasury Securities

The Air Force reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums
or discounts are amortized over the term of the investments using the effective interest rate method or another method
obtaining similar results. The Air Force’s intent is to hold investments to maturity, unless they are needed to finance claims
or otherwise sustain operations. Consequently, a provision is not made for unrealized gains or losses on these securities.

The Air Force invests in nonmarketable market-based U.S. Treasury securities, which are issued to federal agencies by
the U.S. Treasury’s Bureau of Public Debt. They are not traded on any securities exchange but mirror the prices of
particular U.S. Treasury securities traded in the government securities market.

1.O. General Property, Plant and Equipment

The Air Force uses the estimated historical cost for valuing military equipment. The DoD identified the universe of military
equipment by accumulating information relating to program funding and associated military equipment, equipment useful
life, program acquisitions, and disposals to establish a baseline. The military equipment baseline is updated using
expenditure, acquisition, and disposal information.

The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is $100 thousand except for real
property, which is $20 thousand. The Air Force has not fully implemented the threshold for real property; therefore, Air
Force is primarily using the capitalization threshold of $100 thousand for General PP&E, and most real property.

With the exception of USACE Civil Works and Working Capital Fund, General PP&E assets are capitalized at historical
acquisition cost when an asset has a useful life of two or more years and when the acquisition cost equals or exceeds the
DoD’s capitalization threshold. The DoD also requires the capitalization of improvements to existing General PP&E assets
if the improvements equal or exceed the capitalization threshold and extend the useful life or increase the size, efficiency,
or capacity of the asset. The DoD depreciates all General PP&E, other than land, on a straight-line basis.

When it is in the best interest of the government, the Air Force provides government property to contractors to complete
contract work. The Air Force either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured General PP&E meets or exceeds the DoD
capitalization threshold, federal accounting standards require that it be reported on Air Force’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished equipment that provides
appropriate General PP&E information for financial statement reporting. The DoD requires Air Force to maintain, in its



                                                                                                                                 25
                 General Fund
                 Notes to the Principal Statements


property systems, information on all property furnished to contractors. These actions are structured to capture and report
the information necessary for compliance with federal accounting standards. The Air Force has not fully implemented this
policy primarily due to system limitations.

1.P. Advances and Prepayments

When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances or
prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services
should be reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets
when the related goods and services are received. The Air Force has not fully implemented this policy primarily due to
system limitations.

1.Q. Leases

Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases.
When a lease is essentially equivalent to an installment purchase of property (a capital lease), and the value equals or
exceeds the current capitalization threshold, Air Force records the applicable asset as though purchased, with an offsetting
liability, and depreciates it. The Air Force records the asset and the liability at the lesser of the present value of the rental
and other lease payments during the lease term (excluding portions representing executory costs paid to the lessor) or the
asset’s fair market value. The discount rate for the present value calculation is either the lessor’s implicit interest rate or
the government’s incremental borrowing rate at the inception of the lease. The Air Force, as the lessee, receives the use
and possession of leased property, for example real estate or equipment, from a lessor in exchange for a payment of
funds. An operating lease does not substantially transfer all the benefits and risk of ownership. Payments for operating
leases are expensed over the lease term as they become payable.

Office space and leases entered into by Air Force are the largest component of operating leases and are based on costs
gathered from existing leases, General Services Administration (GSA) bills, and interservice support agreements. Future
year projections use the Consumer Price Index.

1.R. Other Assets

Other assets include those assets, such as military and civil service employee pay advances, travel advances, and certain
contract financing payments that are not reported elsewhere on Air Force’s Balance Sheet.

The Air Force conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, Air Force
may provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32,
as authorized disbursements to a contractor prior to acceptance of supplies or services by the Government. Contract
financing payments clauses are incorporated in the contract terms and conditions and may include advance payments,
performance-based payments, commercial advances and interim payments, progress payments based on cost, and interim
payments under certain cost-reimbursement contracts. It is DoD policy to record certain contract financing payments as
other assets. The Air Force has fully implemented this policy.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments,
or progress payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation
Supplement authorizes progress payments based on a percentage or stage of completion only for construction of real
property, shipbuilding, and ship conversion, alteration, or repair. Progress payments based on percentage or stage of
completion are reported as Construction in Progress.

1.S. Contingencies and Other Liabilities

The Statement of Federal Financial Accounting Standards (SFFAS) No. 5, Accounting for Liabilities of the Federal
Government, as amended by SFFAS No. 12, Recognition of Contingent Liabilities Arising from Litigation, defines a
contingency as an existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain or
loss. The uncertainty will be resolved when one or more future events occur or fail to occur. The Air Force recognizes




26
                                                               A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                            General Fund
                                                                                                Notes to the Principal Statements


contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the loss amount can
be reasonably estimated.
Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least
a reasonable possibility of incurring a loss or additional losses. The Air Force’s risk of loss and resultant contingent
liabilities arise from pending or threatened litigation or claims and assessments due to events such as aircraft and vehicle
accidents, medical malpractice, property or environmental damages, and contract disputes.

Other liabilities also arise as a result of anticipated disposal costs for Air Force assets. Consistent with SFFAS No. 6,
Accounting for Property, Plant, and Equipment, recognition of an anticipated environmental disposal liability begins when
the asset is placed into service. Based on DoD’s policy, which is consistent with SFFAS No. 5, Accounting for Liabilities of
the Federal Government, nonenvironmental disposal liabilities are recognized when management decides to dispose of an
asset. The DoD recognizes nonenvironmental disposal liabilities for military equipment nuclear-powered assets when
placed into service. These amounts are not easily distinguishable and are developed in conjunction with environmental
disposal costs. The Air Force does not recognize contingent liabilities associated with nonenvironmental disposals due to
immateriality.

1.T. Accrued Leave

The Air Force reports liabilities for military leave and accrued compensatory and annual leave for civilians. Sick leave for
civilians is expensed as taken. The liabilities are based on current pay rates.

1.U. Net Position

Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent the amounts of budget authority that are unobligated and have not been rescinded
or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have
not been incurred.

Cumulative Results of Operations represent the net difference between expenses and losses, and financing sources
(including appropriations, revenue, and gains), since inception. The cumulative results of operations also include
donations and transfers in and out of assets that were not reimbursed.

1.V. Treaties for Use of Foreign Bases

The DoD has the use of land, buildings, and other overseas facilities that are obtained through various international treaties
and agreements negotiated by the Department of State. The Air Force purchases capital assets overseas with
appropriated funds; however, the host country retains title to the land and capital improvements. Treaty terms generally
allow Air Force continued use of these properties until the treaties expire. In the event treaties or other agreements are
terminated, use of the foreign bases is prohibited and losses are recorded for the value of any nonretrievable capital
assets. The settlement due to the U.S. or host nation is negotiated and takes into account the value of capital investments
and may be offset by the cost of environmental cleanup.

1.W. Undistributed Disbursements and Collections

Undistributed disbursements and collections represent the difference between disbursements and collections matched at
the transaction level to specific obligations, payables, or receivables in the source systems and those reported by the U.S.
Treasury.

Supported disbursements and collections are evidenced by corroborating documentation. Unsupported disbursements and
collections do not have supporting documentation for the transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable.
Supported undistributed disbursements and collections are then applied to reduce accounts payable and receivable




                                                                                                                                      27
                General Fund
                Notes to the Principal Statements


accordingly. Unsupported undistributed disbursements are recorded as disbursements intransit and reduce nonfederal
accounts payable. Unsupported undistributed collections are recorded in nonfederal other liabilities.

1.X. Significant Events

None.

1.Y. Fiduciary Activities

Fiduciary cash and other assets are not assets of the Air Force and are not recognized on the balance sheet. Fiduciary
activities are reported on the financial statement note schedules.




28
                                                          A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                      General Fund
                                                                                          Notes to the Principal Statements


Note 2.        Nonentity Assets


As of September 30                                                2010                                  2009
(Amounts in thousands)

1. Intragovernmental Assets
   A. Fund Balance with Treasury                  $                             115,067   $                        125,030
   B. Accounts Receivable                                                             0                                  0
   C. Other Assets                                                                    0                                  0
   D. Total Intragovernmental Assets              $                             115,067   $                        125,030



2. Nonfederal Assets
   A. Cash and Other Monetary Assets              $                             108,828   $                         98,939

   B. Accounts Receivable                                                       299,716                            138,516

   C. Other Assets                                                              184,825                            186,225
   D. Total Nonfederal Assets                     $                             593,369   $                        423,680



3. Total Nonentity Assets                         $                             708,436   $                        548,710



4. Total Entity Assets                            $                         312,740,996   $                    313,019,908



5. Total Assets                                   $                         313,449,432   $                    313,568,618


Relevant Information for Comprehension

Nonentity assets are assets for which the Air Force maintains stewardship accountability and reporting responsibility but are
not available for the Air Force’s normal operations.

Intragovernmental Fund Balance with Treasury represents amounts in Air Force’s deposit fund and two suspense fund
accounts (Uniformed Services Thrift Savings Plan Suspense and Thrift Savings Plan Suspense) that are not available for
Air Force use.

Nonfederal Accounts Receivable includes interest receivable that upon collection are remitted to the U.S. Treasury as
miscellaneous receipts.

Nonfederal Cash and Other Monetary Assets represent disbursing officers’ cash and undeposited collections as reported on
the Statement of Accountability (Standard Form 1219). These assets are held by the Air Force disbursing officers as agents
of the U.S. Treasury. The nonfederal cash and other monetary assets represent a fiduciary capacity held by Air Force
disbursing officers as agents for U.S. Treasury and are not available for use in operations.

Nonfederal Other Assets consist of advances to contractors as part of the advance payment pool agreements with the
Massachusetts Institute of Technology and other nonprofit institutions. These agreements are used for the financing of
cost-type contracts with nonprofit educational research institutions for experimental research and development work when
several contracts or a series of contracts require financing by advance payments. These funds are not available for use in
Air Force operations.

                                                                                                                              29
                 General Fund
                 Notes to the Principal Statements


 Note 3.         Fund Balance with Treasury


 As of September 30                                                     2010                               2009
 (Amounts in thousands)


 1. Fund Balances
    A. Appropriated Funds                               $                        107,434,225   $                  103,175,823
    B. Revolving Funds                                                                     0                                0
    C. Trust Funds                                                                    15,728                            8,137
    D. Special Funds                                                                   1,971                            1,377
    E. Other Fund Types                                                              115,067                          125,030
    F. Total Fund Balances                              $                        107,566,991   $                  103,310,367



 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                        $                        109,262,653   $                  104,651,268
     B. Fund Balance per                                                    107,566,991                      103,310,367

 3. Reconciling Amount                                  $                          1,695,662   $                    1,340,901

Other Fund Types include balances in deposit accounts which consist of taxes, small escrow accounts and other federal
payroll withholding allotments.

The Air Force shows a reconciling amount of $ 1.7 billion with U.S. Treasury, which is comprised of the net value of the
following:

 $ 26.6 million in allocation transfer from Air Force to the Department of Transportation (DOT). These funds are reported in
the Fund Balance with Treasury (FBWT) by Air Force, but are not included in the U.S. Treasury FBWT. U.S. Treasury reports
these balances under DOT.

$ 0.5 million in allocation transfers from DOT to Air Force. The U.S. Treasury reports these funds as Air Force in the FBWT,
but Air Force does not include in its FBWT because DOT reports these balances in their financial statements.

$ 23.7 million in allocation transfer to Air Force from the Department of Agriculture and the Foreign Military Sales-Military
Assistance Program (MAP). The U.S. Treasury reported these funds as Air Force in FBWT, but Air Force did not include the
funds in its FBWT because the Department of Agriculture and MAP reported these balances in their financial statements.

$ 250.4 million in withdrawal of the FBWT for unavailable receipt accounts at September 30, 2010. These funds are included
in FBWT per Treasury but not included in FBWT per Air Force.

$ 1.4 billion in withdrawal of the FBWT for cancelling appropriations at September 30, 2010. These FBWT per Treasury but
not included in FBWT per Air Force.

$ 4.9 million of unavailable receipt accounts due to fiduciary activity consisting of the Saving Deposit Program (SDP). The
U.S Treasury reported these funds as Air Force in FBWT, but activity recorded within the SDP must be excluded from the Air
Force FBWT.




30
                                                          A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                       General Fund
                                                                                           Notes to the Principal Statements


Status of Fund Balance with Treasury


As of September 30                                               2010                                      2009
(Amounts in thousands)
1. Unobligated Balance
   A. Available                                 $                            32,543,409    $                        26,096,409
   B. Unavailable                                                             3,546,861                              3,114,938


2. Obligated Balance not yet Disbursed          $                            74,007,637    $                        76,097,415



3. Nonbudgetary FBWT                            $                               438,832    $                           459,967



4. NonFBWT Budgetary Accounts                   $                            (2,969,748)   $                        (2,458,362)


5. Total                                        $                           107,566,991    $                       103,310,367



The Status of FBWT reflects the budgetary resources to support the FBWT and is a reconciliation between budgetary and
proprietary accounts. It primarily consists of unobligated and obligated balances. The balances reflect the budgetary
authority remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
that has not been set side to cover outstanding obligations. The unavailable balance consists primarily of funds invested in
U.S. Treasury securities that are temporarily precluded from obligation by law. Certain unobligated balances are restricted
for future use and are not apportioned for current use. Unobligated balances for trust funds accounts are restricted for use
by the public law that established the funds.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and
those received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable receipt
accounts, clearing accounts and nonentity FBWT. The items reported as Nonbudgetary FBWT account comprises the
FBWT for suspense, deposit and receipt accounts.

NonFBWT Budgetary Accounts reduces the Status FBWT. The items that comprise the amount reported as NonFBWT
receipts are from investments and discounts in U.S. Treasury securities, and unfilled customer orders without advances.

Unobligated balances are segregated to show available and unavailable amounts in the note schedule. Certain unobligated
balances may be restricted to future use and are not apportioned for current use. The Unobligated Balance unavailable of
$3.5 billion is not available for new obligations since the period for new obligations established by law has expired.




                                                                                                                               31
                  General Fund
                  Notes to the Principal Statements


 Note 4.           Investments and Related Interest

 As of September 30                                                               2010
                                                              Amortizatio    Amortized                                           Market Value
                                          Cost                                                       Investments, Net
                                                               n Method (Premium) / Discount                                      Disclosure
(Amounts in thousands)
 1. Intragovernmental
    Securities
    A. Nonmarketable,
       Market-Based
       1. Military Retirement
       Fund                       $                      0               $                  0    $                       0   $                  0
       2. Medicare Eligible
       Retiree Health Care Fund                          0                                  0                            0                      0
       3. US Army Corps of
       Engineers                                          0                                  0                         0                     0
       4. Other Funds                                 1,079                                (6)                     1,073                 1,087
       5. Total Nonmarketable,
       Market-Based                                   1,079                              ( 6)                      1,073                 1,087

     B. Accrued Interest                                 7                                                               7                      7
     C. Total
        Intragovernmental
        Securities                $                   1,086              $               ( 6)    $                 1,080     $           1,094



 2. Other Investments
    A. Total Other
       Investments                $                      0               $                  0    $                      0                  N/A



 As of September 30                                                               2009
                                                              Amortizatio    Amortized                                           Market Value
                                          Cost                                                       Investments, Net
                                                               n Method (Premium) / Discount                                      Disclosure
 (Amounts in thousands)
 3. Intragovernmental
    Securities
    A. Nonmarketable,
       Market-Based
       1. Military Retirement
       Fund                       $                      0               $                  0    $                       0   $                  0
       2. Medicare Eligible
       Retiree Health Care Fund                          0                                  0                            0                      0
       3. US Army Corps of
       Engineers                                          0                                  0                         0                     0
       4. Other Funds                                 1,079                               (10)                     1,069                 1,093
       5. Total Nonmarketable,
       Market-Based                                   1,079                              ( 10)                     1,069                 1,093

     B. Accrued Interest                                10                                                              10                  10
     C. Total
        Intragovernmental
        Securities                $                   1,089              $               ( 10)   $                 1,079     $           1,103

 4. Other Investments
    A. Total Other
       Investments                $                      0               $                  0    $                      0                  N/A




32
                                                           A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                       General Fund
                                                                                           Notes to the Principal Statements


Relevant Information for Comprehension

The U.S. Treasury securities are issued to the earmarked funds as evidence of its receipt and are an asset to the Air Force
and a liability to the U.S. Treasury. The Federal Government does not set aside assets to pay future benefits or other
expenditures associated with earmarked funds. The cash generated from earmarked funds are deposited in the U.S.
Treasury, which uses the cash for general Government purposes. Since the Air Force and the U.S. Treasury are both part of
the Federal Government, these assets and liabilities offset each other from the standpoint of the Federal Government as a
whole. For this reason, they do not represent an asset or a liability in the U.S. Governmentwide financial statements.

The U.S. Treasury securities provide the Air Force with authority to draw upon the U.S. Treasury to make future benefit
payments or other expenditures. When the Air Force requires redemption of these securities to make expenditures, the
Government finances the securities out of accumulated cash balances, by raising taxes or other receipts, borrowing from the
public or repaying less debt, or curtailing other expenditures. The Federal Government used the same method to finance all
other expenditures.

Intragovernmental Securities (Other) primarily represents the Air Force Gift Fund investment in U.S. Treasury Securities.




                                                                                                                               33
               General Fund
               Notes to the Principal Statements


 Note 5.      Accounts Receivable


 As of September 30                                                          2010
                                                                   Allowance For Estimated
                                Gross Amount Due                                                   Accounts Receivable, Net
                                                                          Uncollectibles
ts in thousands)
  1. Intragovernmental
     Receivables          $                         415,493                             N/A    $                       415,493
  2. Nonfederal
     Receivables (From
     the Public)          $                         599,380    $                   (139,592)   $                       459,788

 3. Total Accounts
    Receivable            $                        1,014,873   $                   (139,592)   $                       875,281



 As of September 30                                                          2009
                                                                   Allowance For Estimated
                                Gross Amount Due                                                   Accounts Receivable, Net
                                                                          Uncollectibles
 (Amounts in
 thousands)
 1. Intragovernmental
    Receivables           $                         298,953                             N/A    $                       298,953
 2. Nonfederal
    Receivables (From
    the Public)           $                         666,917    $                    (83,577)   $                       583,340

 3. Total Accounts
    Receivable            $                         965,870    $                    (83,577)   $                       882,293



 Relevant Information for Comprehension

 The accounts receivable represent the Air Force’s claim for payment from other entities. The Air Force only recognizes
 an allowance for uncollectible amounts from the public. Claims with other federal agencies are resolved in accordance
 with the Intragovernmental Business Rules.




34
                                                          A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                      General Fund
                                                                                          Notes to the Principal Statements


 Note 6.        Other Assets



 As of September 30                                                           2010                        2009
 (Amounts in thousands)


 1. Intragovernmental Other Assets
    A. Advances and Prepayments                                  $                       93,765   $            212,245
    B. Other Assets                                                                           0                      0
    C. Total Intragovernmental Other Assets                      $                       93,765   $            212,245

 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments                   $                   11,288,053   $         11,446,790
    B. Advances and Prepayments                                                          92,343                 83,161
    C. Other Assets (With the Public)                                                   184,825                186,225
    D. Total Nonfederal Other Assets                             $                   11,565,221   $         11,716,176


 3. Total Other Assets                                           $                   11,658,986   $         11,928,421


Relevant Information for Comprehension

Nonfederal Other Assets (With the Public) is comprised exclusively of Advance Payment Pool Agreements with nonprofit
educational institutions. These agreements are funded under cost type contract procedures and are mainly for experimental
research and development requirements.

 Contract terms and conditions for certain types of contract financing payments convey certain rights to the Federal
Government that protect the contract work from state or local taxation, liens or attachment by the contractor's creditors,
transfer of property, or disposition in bankruptcy. However, these rights should not be misconstrued to mean that ownership
of the contractor’s work has transferred to the Federal Government. The Federal Government does not have the right to
take the work, except as provided in contract clauses related to termination or acceptance, and Air Force is not obligated to
make payment to the contractor until delivery and acceptance.

The balance of Outstanding Contract Financing Payments includes $11.2 billion in contract financing payments and an
additional $648.8 million in estimated future payments to contractors upon delivery and government acceptance of a
satisfactory product. See additional discussion in Note 15, Other Liabilities.




                                                                                                                              35
                  General Fund
                  Notes to the Principal Statements


 Note 7.          Cash and Other Monetary Assets


 As of September 30                                                    2010                                2009
 (Amounts in thousands)

 1. Cash                                                $                             95,365   $                      83,306
 2. Foreign Currency                                                                  13,463                          15,633
 3. Other Monetary Assets                                                                  0                               0

 4. Total Cash, Foreign Currency, & Other
    Monetary Assets                                     $                            108,828   $                      98,939


Relevant Information for Comprehension

The amount reported as cash and foreign currency consists primarily of cash held by Disbursing Officers. The foreign
currency amount reported is valued at U.S. Treasury’s prevailing exchange rate, which is the most favorable rate available to
the Government for foreign exchange transactions. Foreign currency is primarily used to make vendor disbursements and to
exchange U.S. dollars for military personnel.

Cash and foreign currency are nonentity assets and, as such, considered restricted assets that are held by the Air Force but
are not available for use in its operations. These assets are held by the Air Force’s Disbursing Officers as agents of U.S.
Treasury. The total balance of $108.8 million is restricted.




 Note 8.           Direct Loan and Loan Guarantees


 Not applicable




36
                                                          A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                      General Fund
                                                                                          Notes to the Principal Statements


 Note 9.        Inventory and Related Property


 As of September 30                                                 2010                                   2009
 (Amounts in thousands)

 1. Inventory, Net                                  $                                    0   $                              0
 2. Operating Materiel & Supplies, Net                                          49,698,922                         47,588,282
 3. Stockpile Materiel, Net                                                              0                                  0

 4. Total                                           $                           49,698,922   $                     47,588,282

General Composition of OM&S

The Operating Materiel and Supplies (OM&S) include weapon systems spares, ammunition, tactical missiles, aerial target
drones, uninstalled aircraft and cruise missile engines, and uninstalled intercontinental ballistic missile motors.

In addition to the account balances shown in Note 9, the federal accounting standard requires disclosure of the amount of
OM&S held for future use. Except for an immaterial amount of munitions, the Air Force is not holding any items for future use.

Restrictions on the Use of OM&S

The Air Force does not maintain any OM&S restricted assets.

Decision Criteria for Identifying the Category to Which OM&S Items Are Assigned

The category Held for Use includes all materiel available for issuance. OM&S classified as such is marked within each supply
or inventory system.

The category Held for Repair generally includes all economically reparable materiel as defined by the Military Standard
Transaction Reporting and Accounting Procedures Manual (DoD 4000.25-2-M).

The category Held as Excess, Obsolete, and Unserviceable includes all materiel that managers determine to be more costly
to repair than to replace. Items retained for management purposes which are beyond economic repair are coded
“condemned.” These items are held until proper disposal can be made. Excess, Obsolete, and Unserviceable are valued at
zero. This allowance results in a zero value to the Air Force. The category Held for Repair represents suspended,
unserviceable (but reparable) items recorded at Moving Average Cost (MAC) or standard price.

Changes in the Criteria for Identifying the Category to Which OM&S Items Are Assigned

Under current DoD policy, no allowance is made for serviceable, ready-to-issue, items (category Held for Use). An allowance
equal to 100% of MAC or standard price, however, is made for the category Excess, Obsolete, and Unserviceable. This
allowance results in a net book value of zero to the Air Force. Excess, Obsolete, and Unserviceable are valued at zero. This
allowance results in a zero value to the Air Force. The category Held for Repair represents suspended, unserviceable (but
reparable) items recorded at MAC or standard price.

Operating Materiel and Supplies (OM&S) Value

The OM&S data reported on the financial statements are derived from logistics systems designed for materiel management
purposes. Some of these systems do not maintain the historical cost data necessary to comply with the valuation
requirements of the Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for Inventory and
Related Property.”

In general, the Air Force uses the consumption method of accounting for OM&S, since OM&S is defined in SFFAS No. 3 as
materiel that has not yet been issued to the end user. Once issued, the materiel is expensed. According to federal accounting
standards, the consumption method of accounting should be used to account for OM&S unless: (1) the amount of OM&S is

                                                                                                                              37
                 General Fund
                 Notes to the Principal Statements


not significant, (2) OM&S are in the hands of the end user for use in normal operations, or (3) it is cost beneficial to expense
OM&S when purchased (purchase method).

Other Air Force Disclosures

In the past, the Air Force provided only minimal OM&S accounting data that can be used to prepare the financial statements
but has made considerable strides in improving the systems to provide actual transactions for completing the financial
statements. However, in some cases, the data provided still consists of only beginning and ending balances for each of the
asset accounts Held for Use; Excess, Obsolete, Unserviceable; and Held for Repair. Without the required additional data
(acquisitions, transfers in, amounts consumed, transfers out, trading partner data, etc.), DFAS can only report the net change
between prior period ending balances and the values reported as current period ending balances.


 Inventory, Net

Not Applicable

 Operating Materiel and Supplies, Net


 As of September 30                                                   2010
                                        OM&S
                                 Gross Value                Revaluation Allowance            OM&S, Net           Valuation Method

 (Amounts in thousands)

 1. OM&S Categories
   A. Held for Use               $             38,568,458   $                       0    $        38,568,458        SP, LAC, MAC
   B. Held for Repair                          11,130,464                           0             11,130,464        SP, LAC, MAC
   C. Excess, Obsolete, and
      Unserviceable                              628,175                     (628,175)                      0              NRV


     D. Total                    $             50,327,097   $                (628,175)   $        49,698,922



 As of September 30                                                 2009
                                       OM&S
                           Gross Value                      Revaluation Allowance            OM&S, Net           Valuation Method

 (Amounts in
    thousands)

 1. OM&S Categories
   A. Held for Use         $                   36,018,675   $                       0    $        36,018,675        SP, LAC, MAC
   B. Held for Repair                          11,569,607                           0             11,569,607        SP, LAC, MAC
   C. Excess, Obsolete,
      and Unserviceable                         1,698,500                  (1,698,500)                      0              NRV


     D. Total              $                   49,286,782   $              (1,698,500)   $        47,588,282

 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost                    NRV = Net Realizable Value                   MAC = Moving Average Cost
 SP = Standard Price                              LCM = Lower of Cost or Market
 AC = Actual Cost                                 O = Other


38
                                                                A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                                       General Fund
                                                                                                        Notes to the Principal Statements


 Stockpile Materiel, Net

Not Applicable

Note 10.            General PP&E, Net


 As of September 30
                                                                                     2010
                            Depreciation/
                                             Service         Acquisition              (Accumulated Depreciation/            Net Book
                            Amortization
                                              Life             Value                        Amortization)                    Value
                              Method
 (Amounts in thousands)



 1. Major Asset Classes
    A. Land                     N/A            N/A       $                 404,614                           N/A   $                     404,614
    B. Buildings,
       Structures, and
       Facilities               S/L         20 Or 40                  57,590,797      $             (30,869,458)                       26,721,339

   C.Leasehold
     Improvements               S/L         lease term                          0                              0                                0


   D.Software                   S/L         2-5 Or 10                      609,086                     (363,203)                         245,883


   E. General Equipment         S/L          5 or 10                  43,050,104                    (34,347,120)                        8,702,984


   F. Military Equipment        S/L          Various                297,763,495                    (195,041,419)                    102,722,076
   G. Shipbuilding
      (Construction-in-
      Progress)                 N/A            N/A                              0                              0                                0

   H.Assets Under
      Capital Lease             S/L         lease term                     393,002                     (341,086)                            51,916
   I. Construction-in-
      Progress (Excludes
      Military Equipment)
                                N/A            N/A                     4,690,532                             N/A                        4,690,532


   J. Other                                                                     0                              0                                0


   K. Total General PP&E                                 $          404,501,630       $            (260,962,286)   $                143,539,344




                                                                                                                                              39
                     General Fund
                     Notes to the Principal Statements


 As of September 30
                                                                                       2009
                              Depreciation/
                                               Service         Acquisition              (Accumulated Depreciation/       Net Book
                              Amortization
                                                Life             Value                        Amortization)               Value
                                Method
 (Amounts in thousands)



 1. Major Asset Classes
    A. Land                       N/A            N/A       $                 401,899                           N/A   $                401,899
    B. Buildings,
       Structures, and
       Facilities                 S/L          20 Or 40                54,172,092      $              (29,440,064)                  24,732,028

     C.Leasehold
       Improvements               S/L         lease term                          0                              0                          0


     D.Software                   S/L         2-5 Or 10                      543,013                     (308,150)                    234,863


     E. General Equipment         S/L           5 or 10                41,527,663                     (32,013,234)                   9,514,429


     F. Military Equipment        S/L          Various                300,284,138                    (189,897,273)              110,386,865
     G. Shipbuilding
        (Construction-in-
        Progress)                 N/A            N/A                              0                              0                          0

     H.Assets Under
        Capital Lease             S/L         lease term                     393,002                     (322,098)                     70,904
     I. Construction-in-
        Progress
            (Excludes
        Military Equipment)       N/A            N/A                     4,418,249                             N/A                   4,418,249


     J. Other                                                                     0                              0                          0


     K. Total General PP&E                                 $          401,740,056      $             (251,980,819)   $          149,759,237

 1 Note 15 for additional information on Capital Leases
 Legend for Valuation Methods:
 S/L = Straight Line       N/A = Not Applicable




40
                                                                          A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                                         General Fund
                                                                                                         Notes to the Principal Statements

Categories                                     Measure      Beginning Balance        Additions           Deletions           Ending Balance
                                               Quantity
Buildings and Structures                       Each                      10,250                     0                1,298               8,952
Archeological Sites                            Each                       1,848                   347                    0               2,195
Museum Collection Items (Objects, Not          Each                     122,201                  5,047               1,492             125,756
     Including Fine Art)
Museum Collection Items (Objects, Fine         Each                       1,283                    42                  64                1,261
     Art)

                                                          (Acres in Thousands)

Facility Code                 Facility Title                Beginning Balance        Additions           Deletions           Ending Balance

9110            Government Owned Land                                     1,501                   181                   0                1,682
9111            State Owned Land                                                 0                  0                   0                       0
9120            Withdrawn Public land                                     7,587                    20                   0                7,607
9130            Licensed and Permitted Land                                 138                    95                   0                     233
9140            Public Land                                                 191                     1                   0                     192
9210            Land Easement                                               109                    53                   0                     162
9220            In-leased Land                                               86                     6                   0                     92
9230            Foreign Land                                                290                    31                   0                     321
Grand Total                                                                                                                             10,289

TOTAL - All Other Lands                                                                                                                  2,490

TOTAL – Stewardship Lands                                                                                                                7,799




 Relevant Information for Comprehension

 General Property, Plant and Equipment (PP&E)

 There are restrictions on the Air Force’s ability to dispose of real property (land and buildings) located outside the
 continental United States.

 The Air Force estimates historical values for capitalized military equipment using departmental internal records.

 Other Air Force Disclosures

 The value of the Air Force’s General PP&E real property in the possession of contractors is included in the values reported
 for the major asset classes of Land and Buildings, Structures, and Facilities. The value of General PP&E personal property
 major asset class of Software and Equipment does not include all of the General PP&E above the DoD capitalization
 threshold in the possession of contractors. The Air Force does not report the value of equipment purchased directly by the
 contractor. The Inspector General, DoD, and the Air Force are developing new policies and a contractor reporting process
 to capture General PP&E information for future reporting purposes in compliance with generally accepted accounting
 principles.

 Heritage Assets and Stewardship Land

 The Air Force’s overall mission is to deliver sovereign options for the Defense of the United States of America and its global
 interests to fly, fight, and win in air, space, and cyberspace. As this mission has been executed, Air Force has become a
 large-scale owner of historic buildings, structures, archeological sites and artifacts, aircraft, other cultural resources, and
 stewardship land. The protection of the nation’s heritage assets and stewardship land is an important aspect of the Air
 Force’s mission.

 Heritage Assets are PP&E of historical, natural, cultural, educational or artistic significance (e.g. aesthetic); or with
 significant architectural characteristics. Heritage Assets and Stewardship Land are resources that protect, restore,
 enhance, modernize, preserve and sustain mission capability within the Air Force through effective planning and



                                                                                                                                                41
management of natural and cultural resources to guarantee access to air, land, and water. These assets are resources that
are managed to provide multiple use activities for the public benefit. This includes actions to comply with requirements such
as federal laws, Executive Orders, policies, final governing standards, and other binding agreements. Air Force policy is to
promote and preserve indefinitely the identifiable human, environmental or civic value of these assets.

Stewardship Land comprises land and land rights other than that acquired for or in connection with General PP&E, land
acquired via the public domain, or land acquired at no cost. Air Force policy is to promote and preserve indefinitely the
identifiable human, environmental or civic value of such land

The Air Force reported 7,607,000 acres of mission essential land under its administration at the end of FY 2009.
Stewardship Land decreased 20,000 acres during FY 2010 because of a change in category reporting. Specifically, certain
category codes are now reported as government owned land rather than withdrawn public land. Land purchased by the Air
Force with the intent to construct building or facilities is considered General PP&E and is reported on the balance sheet. All
Stewardship Land, as reported, is in acceptable condition based on designated use.

Heritage Assets within the Air Force consist of buildings and structures, archeological sites, museum collection items
(objects, not including fine art), and museum collection items (fine art). The Air Force’s accounting systems generally do
not capture information relative to heritage assets separately and distinctly from normal operations. Although the underlying
accounting and recordkeeping systems track the quantities of these assets, and, in some cases, their historical cost,
information regarding their fair market value is not readily available.

Buildings and Structures: Buildings and Structures that are listed on, or eligible for listing on the National Register of
Historic Places, including multi-use Heritage Assets. These buildings and structures are maintained by each base’s civil
engineering group as part of their overall responsibility. The Air Force reported 8,952 buildings and structures on Air Force
bases and sites to be heritage assets at the end of FY 2010. During FY 2010, 1, 298 building and structures were deleted
from the Air Force inventory because they are considered as Capehart –Wherry Era (CWE) houses. CWE houses are
subject to the 2008 nationwide Program Comment with the Advisory Council on Historic Preservation that allows the Air
Force to demolish the majority of the CWE houses from its inventory.

Archeological Sites: Sites that have been identified, evaluated, and determined to be eligible for or are listed on the
National Historical Places in accordance with Section 110 National Historical Preservation Act. The Air Force listed 2,195
archeological sites on or eligible for the National Register at the end of FY 2010.

Museum Collection Items, Objects Not Including Fine Art: This represents the number of objects which meet the
criteria for historical property as defined in Air Force Instruction 84-103 and that have been evaluated, accessioned, and
catalogued in the Air Force national historic collection. The National Museum of the United States Air Force (NMUSAF)
performs inherently governmental functions by fulfilling statutory requirements delegated by the Secretary of the Air Force
for management of the Air Force’s national historic collection. For the fiscal year ended September 30, 2010 there have
been 5,047 objects added to the collection. These additions are a result of private donations, transfers from other Air Force
and federal entities, curatorial administrative actions, and the continued documentation of previously unreported artifacts at
Air Force activities worldwide. New accessions include significant artifacts from the F-117 “Nighthawk” program as well as
the Robin Olds Collection. 1,492 objects were deaccessioned from the collection as having been determined not to meet
historic property criteria, were in poor condition, or were transferred to other federal historical activities. As part of the
NMUSAF’s active collection management process, the accession and deaccession of objects is continuous. The NMUSAF
is fully accredited by the American Association of Museums.

The overall condition of the historic collection, which is primarily located at the NMUSAF, is very good as a result of both the
professional care from trained conservators and ever improving exhibit/storage conditions. During FY 2010 restoration was
completed on the museum’s F-84E “Thunderjet” which is now a centerpiece exhibit in the newly completed Korean War
Gallery. Detailed restoration work has continued on the iconic Boeing B-17D “Swoose” and Boeing B-17F “Memphis Belle”.
Work has also commenced on a Sikorsky HH-3 “Jolly Green Giant” helicopter with a notable combat history as part of the
museum's upgrade of the War in Southeast Asia Gallery.

Museum Collection Items, Fine Art: The National Museum of the United States Air Force (NMUSAF) holds an art
collection containing original oils, drawings, sketches and sculptures that are in direct support of its exhibit requirements.
These are separate from the holdings of the Air Force Art Program. Since the last report the NMUSAF has added 42 items
and deleted 64 items which were determined not to meet fine art criteria and transferred to reference library holdings or
were transferred to other federal historical activities.

42
                                                  A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10



Assets Under Capital Lease

As of September 30
                                                              2010                         2009
(Amounts in thousands)




1. Entity as Lessee, Assets Under Capital Lease
   A. Land and Buildings                          $                     393,002 $                  393,002

   B. Equipment                                                               0                          0

   C. Accumulated Amortization                                         (341,086)                  (322,098)


   D. Total Capital Leases                        $                      51,916 $                   70,904




                                                                                                         43
                General Fund
                Notes to the Principal Statements


 Note 11.         Liabilities Not Covered by Budgetary Resources



 As of September 30                                                           2010                             2009
 (Amounts in thousands)

 1. Intragovernmental Liabilities
    A. Accounts Payable                                        $                               0    $                         0
    B. Debt                                                                                    0                              0
    C. Other                                                                             396,280                        337,063
    D. Total Intragovernmental Liabilities                     $                         396,280    $                   337,063

 2. Nonfederal Liabilities
    A. Accounts Payable                                        $                         732,645    $                   357,871
    B. Military Retirement and
       Other Federal Employment Benefits                                                1,101,150                      1,072,388
    C. Environmental Liabilities                                                        7,920,935                      7,955,740
    D. Other Liabilities                                                                2,695,267                      2,624,364
    E. Total Nonfederal Liabilities                            $                       12,449,997   $                 12,010,363

 3. Total Liabilities Not Covered by Budgetary
    Resources                                                  $                       12,846,277   $                 12,347,426


 4. Total Liabilities Covered by Budgetary Resources           $                       11,781,986   $                 11,628,240

 5. Total Liabilities                                          $                       24,628,263   $                 23,975,666


 Information Related to Liabilities Not Covered by Budgetary Resources

 Liabilities Not Covered by Budgetary Resources include liabilities for which congressional action is needed before budgetary
 resources can be provided.

 The material amounts and sensitive areas included in Total Liabilities Not Covered by Budgetary Resources are categorized
 as not covered because there is no current or immediate appropriation available for liquidation. These liabilities will require
 resources funded from future year appropriations. The Air Force fully expects to receive the necessary resources to cover
 these liabilities in future years.

 Other Intragovernmental Liabilities are primarily comprised of FECA liabilities to the Department of Labor and other unfunded
 employment related liabilities.

 Other Nonfederal Liabilities are primarily comprised of the amounts recorded for unpaid leave earned to which an employee
 is entitled upon separation and for contingent liabilities which are probable and measurable and will require resources funded
 from future years’ appropriations.

 Military Retirement and Other Federal Employment Benefits consists of various employee actuarial liabilities not due and
 payable during the current fiscal year. These liabilities primarily consist of the amount recorded by employer agencies for the
 actuarial present value of future FECA benefits provided to federal employees or their beneficiaries as a result of work
 related deaths, disability, or occupational disease. Refer to Note 17, Military Retirement and Other Federal Employment
 Benefits, for additional details and disclosures.




44
                                                     A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                  General Fund
                                                                                      Notes to the Principal Statements


Note 12.       Accounts Payable


As of September 30                                                    2010

                                                          Interest, Penalties, and
                             Accounts Payable                                                         Total
                                                            Administrative Fees

(Amounts in thousands)

1. Intragovernmental
     Payables            $               2,375,973    $                         N/A   $                           2,375,973
2. Nonfederal Payables
     (to the Public)                     3,719,716                               18                               3,719,734

3. Total                 $               6,095,689    $                          18   $                           6,095,707




                                                                                                                          45
                 General Fund
                 Notes to the Principal Statements



 As of September 30                                                              2009

                                                                     Interest, Penalties, and
                                    Accounts Payable                                                    Total
                                                                       Administrative Fees

 (Amounts in thousands)

 1. Intragovernmental
      Payables                $                      2,583,818   $                         N/A      $           2,583,818
 2. Nonfederal Payables
      (to the Public)                                3,278,316                                  0               3,278,316

 3. Total                     $                      5,862,134   $                              0   $           5,862,134



Relevant Information for Comprehension

Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by Air Force.
The Air Force’s systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side
accounts payable are adjusted to agree with intraagency seller-side accounts receivable. Accounts Payable was adjusted by
accruing additional accounts payable and expenses.



 Note 13.           Debt

Not applicable




46
                                                           A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                  General Fund
                                                                                      Notes to the Principal Statements


Note 14.                 Environmental Liabilities and Disposal Liabilities

As of September 30
                                                                 2010                                2009
(Amounts in thousands)




1. Environmental Liabilities--Nonfederal


A. Accrued Environmental Restoration Liabilities
 1. Active Installations—Installation Restoration
    Program (IRP) and Building Demolition and Debris
    Removal (BD/DR)                                    $                  3,122,970   $                        3,350,133
 2. Active Installations—Military Munitions Response
    Program (MMRP)                                                        1,891,588                            1,674,291

 3. Formerly Used Defense Sites—IRP and BD/DR                                    0                                        0

 4. Formerly Used Defense Sites--MMRP                                            0                                        0



B. Other Accrued Environmental Liabilities—Non-BRAC


 1. Environmental Corrective Action                                          14,772                              189,250

 2. Environmental Closure Requirements                                    1,253,417                            1,252,339

 3. Environmental Response at Operational Ranges                                 0                                        0

 4. Asbestos                                                                888,960                              888,960

 5. Non-Military Equipment                                                   34,175                               34,175

 6. Other                                                                        0                                        0



C. Base Realignment and Closure Installations


 1. Installation Restoration Program                                      1,583,186                            1,372,805

 2. Military Munitions Response Program                                       7,303                                 4,230
 3. Environmental Corrective Action / Closure
    Requirements                                                              6,579                               14,609

 4. Asbestos                                                                     0                                        0

 5. Non-Military Equipment                                                       0                                        0

 6. Other                                                                        0                                        0



D. Environmental Disposal for Military Equipment /
   Weapons Programs
                                                                                                                          47
                      General Fund
                      Notes to the Principal Statements


  As of September 30
                                                                   2010                                   2009
      1. Nuclear Powered Military Equipment / Spent
         Nuclear Fuel                                                                   0                                    0

      2. Non-Nuclear Powered Military Equipment                                   36,402                               36,402

      3. Other Weapons Systems                                                          0                                    0

     E. Chemical Weapons Disposal Program
      1. Chemical Demilitarization - Chemical Materials
         Agency (CMA)                                                                   0                                    0
      2. Chemical Demilitarization - Assembled Chemical
         Weapons Alternatives (ACWA)                                                    0                                    0

      3. Other                                                                          0                                    0


  2. Total Environmental Liabilities                      $                    8,839,352    $                       8,817,194


Other Information Related to Environmental Liabilities

An environmental liability is a probable and measurable future outflow or expenditure of resources that exists as of the
financial reporting date for environmental cleanup costs resulting from past transactions or events. The Air Force
acknowledges that liabilities can change for environmental cleanup costs to include (1) costs associated with environmental
restoration of sites funded under the Air Force portion of the Defense Environmental Restorations Program (DERP); (2)
corrective actions funded with other than DERP, Base Realignment and Closure (BRAC); and (3) environmental costs
associated with future closure or disposal of facilities, equipment, asbestos, and weapon systems. These costs include
researching and determining the existence of hazardous waste; removing, containing, and/or disposing of hazardous waste
from property; or material and property that consist of hazardous waste at the time of shutdown or disposal of the asset.
Cleanup costs may include, but are not limited to, decontamination, decommissioning, site restoration, site monitoring,
closure, and post closure costs related to Air Force operations that result in hazardous waste.

The unrecognized portion of the estimated total cleanup costs associated with general property, plant, and equipment is
$373.0 million.

Applicable Laws and Regulations for Cleanup Requirements

The Air Force is required to clean up contamination resulting from past waste disposal practices, leaks, spills and other past
activity, which has created a public human health or environmental risk. Air Force does this in coordination with regulatory
agencies, and if applicable, with other responsible parties. The Air Force is also required to recognize closure, post closure
and disposal costs for its Property, Plant and Equipment (PP&E) and environmental corrective action costs for current
operations. The Air Force is responsible for tracking and reporting all required environmental information related to
environmental restoration and corrective action, closure and disposal costs of PP&E, and environmental costs related to
BRAC actions that have taken place in prior years. Applicable laws and regulations for cleanup requirements are:

           a)    Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
           b)    Superfund Amendments and Reauthorization Act (SARA)
           c)    Clean Water Act
           d)    Safe Drinking Water Act
           e)    Clean Air Act
           f)    Resource Conservation and Recovery Act (RCRA)
           g)    Toxic Substances Control Act (TSCA)
           h)    Medical Waste Tracking Act
           i)    Atomic Energy Act
           j)    Nuclear Waste Policy Act
           k)    Low Level Radioactive Waste Policy Amendments Act
48
                                                              A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                            General Fund
                                                                                                Notes to the Principal Statements

Types of Environmental Liabilities Identified

The Air Force has environmental liabilities for cleanup requirements for active installations: Installation Restoration
Program, Building Demolition and Debris Removal, Military Munitions Response Program, and Environmental Corrective
Action. The Air Force also has environmental liabilities for cleanup requirements at BRAC installations. Finally, the Air
Force has identified environmental liabilities for closure and disposal of PP&E to include facilities, general equipment,
asbestos, and weapon systems. All cleanup is done in coordination with regulatory agencies, other responsible parties, and
current property owners.

Methods for Assigning Estimated Total Cleanup Costs to Current Operating Periods

The Air Force uses engineering estimates and independently validated models to estimate environmental cleanup costs.
The models are either developed within the Remedial Action Cost Engineering Requirements application, or a historic
comparable project, a specific bid, or an independent government cost estimate is referenced for the current project. The
Air Force validates the models in accordance with DoD Instruction 5000.61 and uses the models to estimate environmental
cleanup costs based on data received during a preliminary assessment and initial site investigation. The Air Force primarily
uses engineering estimates after obtaining data during the remedial investigation/feasibility phase of the environmental
project.

Once the environmental cleanup cost estimates are complete, Air Force will comply with accounting standards to assign
costs to current operating periods. The Air Force Accrued Environmental Restoration Liabilities is accounted for as a totally
self contained program. All direct and indirect costs of the program are captured and reported. The Air Force has already
expensed the costs for cleanup associated with General PP&E placed into service prior to October 1, 1997, unless the costs
are intended to be recovered through user charges. If the costs are recovered through user charges, the Air Force
expenses cleanup costs associated with that portion of the asset life that has passed since the General PP&E was placed
into service. The Air Force systematically recognizes the remaining cost over the life of the assets.

The accounting standards also require environmental liabilities recognized for closure and disposal requirements. Air Force
has closure requirements or disposal liabilities at active installations. Closure and disposal liabilities for facilities (including
landfills), asbestos, general equipment and weapon systems are estimated for the applicable inventory of real property,
general equipment and weapon systems. Air Force uses a set of historical disposal factors to estimate the environmental
disposal liability for each asset and the estimated closure and monitoring cost for landfills. The current liability for these
classes of assets is determined from the related disposal programs including the resources expected to be expended in the
next year from prior and future budgets.

For General PP&E placed into service after September 30, 1997, the Air Force expenses associated environmental costs
systematically over the life of the asset using two methods: physical capacity for operating landfills and life expectancy in
years for all other assets. The Air Force expenses the full cost to clean up contamination for Stewardship PP&E at the time
the asset is placed into service.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes Due to Inflation, Deflation,
Technology, or Applicable Laws and Regulations

The Air Force is not aware of any pending changes to reported values of Environmental Liabilities but recognizes that
changes may occur in the future due to changes in laws, regulations, changes in agreements with regulatory agencies, and
advances in technology.

Uncertainty Regarding the Accounting Estimates Used to Calculate the Reported Environmental Liabilities

The environmental liabilities for the Air Force are based on accounting estimates, which require certain judgments and
assumptions that are reasonable based upon information available at the time the estimates are calculated. The actual
results may materially vary from the accounting estimates if agreements with regulatory agencies require remediation to a
different degree than anticipated when calculating the estimates. Liabilities can be further affected if investigation of the
environmental sites reveals contamination levels that differ from the estimate parameters.

The Air Force has the potential to incur costs for restoration initiatives in conjunction with returning overseas Defense
facilities to host nations. The Air Force is unable to provide a reasonable estimate at this time because the extent of
required restoration is unknown.


                                                                                                                                       49
                 General Fund
                 Notes to the Principal Statements


 Note 15.           Other Liabilities

 As of September 30
                                                                                  2010
                                                 Current                   Noncurrent
                                                                                                  Total
                                                 Liability                  Liability
     (Amounts in thousands)


 1. Intragovernmental
    A. Advances from Others             $                    778,925   $                 0    $            778,925
    B. Deposit Funds and
       Suspense Account
       Liabilities                                           323,765                     0                 323,765

     C. Disbursing Officer Cash                              300,055                     0                 300,055

     D. Judgment Fund Liabilities                             43,850                     0                  43,850
     E. FECA Reimbursement to
        the Department of Labor                              131,294                168,437                299,731

     F. Custodial Liabilities                                     0                 293,314                293,314
     G. Employer Contribution and
        Payroll Taxes Payable                                 88,406                     0                  88,406

     H. Other Liabilities                                     53,092                     0                  53,092

    I. Total Intragovernmental
       Other Liabilities                $               1,719,387      $            461,751   $           2,181,138
    (Amounts in thousands)
 2. Nonfederal
    A. Accrued Funded Payroll
       and Benefits                     $               2,389,341      $                 0    $           2,389,341

     B. Advances from Others                                  32,344                     0                  32,344

     C. Deferred Credits                                          0                      0                       0
     D. Deposit Funds and
        Suspense Accounts                                    115,160                     0                 115,160
     E. Temporary Early
        Retirement Authority                                      0                      0                       0
     F. Nonenvironmental
        Disposal Liabilities
         (1) Military Equipment
         (Nonnuclear)                                             0                      0                       0
         (2) Excess/Obsolete
         Structures                                               0                      0                       0
         (3) Conventional
         Munitions Disposal                                       0                      0                       0
     G. Accrued Unfunded Annual
        Leave                                           2,572,254                        0                2,572,254

     H. Capital Lease Liability                                8,262                 59,992                 68,254


50
                                                      A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                               General Fund
                                                                                   Notes to the Principal Statements

    I. Contract Holdbacks                         128,311                      0                                128,311
   J. Employer Contribution and
       Payroll Taxes Payable                      263,907                      0                                263,907

   K. Contingent Liabilities                      648,851                117,558                                766,409

   L. Other Liabilities                            66,722                      0                                 66,722

   M. Total Nonfederal Other
      Liabilities                 $          6,225,152      $            177,550     $                        6,402,702

3. Total Other Liabilities        $          7,944,539      $            639,301     $                        8,583,840


As of September 30
                                                                       2009
                                      Current                   Noncurrent
                                                                                                    Total
                                      Liability                  Liability
(Amounts in thousands)


1. Intragovernmental
   A. Advances from Others        $               840,562   $                  0     $                          840,562
   B. Deposit Funds and
      Suspense Account
      Liabilities                                 334,937                      0                                334,937

   C. Disbursing Officer Cash                     287,368                      0                                287,368

   D. Judgment Fund Liabilities                        0                       0                                       0
   E. FECA Reimbursement to
      the Department of Labor                     130,959                171,766                                302,725

   F. Custodial Liabilities                            0                 140,886                                140,886
   G. Employer Contribution and
      Payroll Taxes Payable                        74,790                      0                                 74,790

      H. Other Liabilities                         34,810                      0                                 34,810

   I. Total Intragovernmental
      Other Liabilities           $          1,703,426      $            312,652     $                        2,016,078
(Amounts in thousands)
2. Nonfederal
   A. Accrued Funded Payroll
      and Benefits                $          2,326,474      $                  0     $                        2,326,474

   B. Advances from Others                         33,655                      0                                 33,655

   C. Deferred Credits                                 0                       0                                       0
   D. Deposit Funds and
      Suspense Accounts                           125,295                      0                                125,295
   E. Temporary Early
      Retirement Authority                             0                       0                                       0
   F. Nonenvironmental
      Disposal Liabilities


                                                                                                                       51
                 General Fund
                 Notes to the Principal Statements


       (1) Military Equipment
       (Nonnuclear)                                         0                            0                                   0
       (2) Excess/Obsolete
       Structures                                           0                            0                                   0
       (3) Conventional
       Munitions Disposal                                   0                            0                                   0
   G. Accrued Unfunded Annual
      Leave                                          2,459,699                           0                          2,459,699

   H. Capital Lease Liability                           7,358                      93,006                             100,364

   I. Contract Holdbacks                              111,281                            0                            111,281
   J. Employer Contribution and
      Payroll Taxes Payable                           236,706                            0                            236,706

      K. Contingent Liabilities                       577,272                     152,889                             730,161

   L. Other Liabilities                                78,059                            0                             78,059

   M. Total Nonfederal Other
      Liabilities                    $               5,955,799   $                245,895    $                      6,201,694

3. Total Other Liabilities           $               7,659,225   $                558,547    $                      8,217,772


Relevant Information for Comprehension

Intragovernmental Other Liabilities represent government contributions for employee benefits, and unemployment
compensation.

Nonfederal Other Liabilities reflects accrued moving allowance and miscellaneous expenses to contractors.

Contingent Liabilities includes $648.8 million related to contracts authorizing progress payments based on cost as defined in
the Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work vests
with the Federal Government when a specific type of contract financing payment is made. This action protects taxpayer funds
in the event of contract nonperformance. These rights should not be misconstrued as rights of ownership. The Air Force is
under no obligation to pay contractors for amounts greater than the amounts authorized in contracts until delivery and
government acceptance. Due to the probability the contractors will complete their efforts and deliver satisfactory products,
and because the amount of potential future payments are estimable, the Air Force has recognized a contingent liability for
estimated future payments which are conditional pending delivery and government acceptance.

 Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs
incurred to date by contractors and amounts authorized to be paid under progress payments based on cost provisions within
the FAR. Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated progress payments
based on cost by the contract-authorized progress payment rate. The balance of unliquidated progress payments based on
cost is deducted from the estimated total contractor-incurred costs to determine the contingency amount.

Estimation Methodology

The Air Force General Counsel, through legal determination, assesses and categorizes all contingent legal liability cases that
equal or exceed the materiality threshold set by Department of Defense Inspector General (DoDIG). For the remaining cases
falling below the dollar materiality threshold set by DoDIG, they are considered in aggregate, if the total amount of the cases
equal or exceed the established materiality threshold.

The Air Force General Counsel also solicits case data through quarterly data calls from the Air Force JAC (Judge Advocate
Civil Lawsuits and Litigation Directorate). Air Force financial management personnel use the solicited case data which
includes the current reporting year and each of the prior two years to estimate the amounts of probable and reasonably
possible contingent liabilities. See Note 16 for detailed disclosure of contingent liabilities.
52
                                                         A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                    General Fund
                                                                                        Notes to the Principal Statements


Air Force financial management personnel use a three year prior case analysis spreadsheet which was developed by the Air
Force Audit Agency to calculate and estimate the amount of contingent liabilities (probable and reasonably possible) for
reporting or disclosing in the quarterly financial statements. In cases where Air Force General Counsel discloses that a
judgment has been awarded against the Air Force, these amounts will be reported on the Balance Sheet and within this note.




                                                                                                                            53
                    General Fund
                    Notes to the Principal Statements


 Capital Lease Liability

 As of September 30
                                                                                2010
                                                                            Asset Category
                                          Land and
                                                                     Equipment               Other           Total
                                          Buildings
     (Amounts in thousands)
 1. Future Payments Due
   A. 2011                                              36,786                   0                   0                36,786
   B. 2012                                              13,088                   0                   0                13,088
   C. 2013                                               9,462                   0                   0                 9,462
   D. 2014                                               8,688                   0                   0                 8,688
   E. 2015                                               8,688                   0                   0                 8,688
   F. After 5 Years                                          0                   0                   0                     0

     G. Total Future Lease
        Payments Due               $                    76,712   $               0   $               0   $            76,712
     H. Less: Imputed
        Interest Executory
        Costs                                            8,458                   0                   0                 8,458

     I. Net Capital Lease
        Liability                  $                    68,254   $               0   $               0   $            68,254


 2. Capital Lease Liabilities Covered by Budgetary Resources                                             $            63,104


 3. Capital Lease Liabilities Not Covered by Budgetary Resources                                         $             5,150


 As of September 30
                                                                                2009
                                                                            Asset Category
                                          Land and
                                                                     Equipment               Other           Total
                                          Buildings
     (Amounts in thousands)
 1. Future Payments Due
   A. 2010                                              38,478                   0                   0                38,478
   B. 2011                                              36,786                   0                   0                36,786
   C. 2012                                              13,088                   0                   0                13,088
   D. 2013                                               9,462                   0                   0                 9,462
   E. 2014                                               8,688                   0                   0                 8,688
   F. After 5 Years                                      8,688                   0                   0                 8,688

     G. Total Future Lease
        Payments Due               $                115,190      $               0   $               0   $           115,190
     H. Less: Imputed
        Interest Executory
        Costs                                           14,825                   0                   0                14,825

     I. Net Capital Lease
        Liability                  $                100,365      $               0   $               0   $           100,365


 2. Capital Lease Liabilities Covered by Budgetary Resources                                             $            88,894


 3. Capital Lease Liabilities Not Covered by Budgetary Resources                                         $            11,471

54
                                                             A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                          General Fund
                                                                                              Notes to the Principal Statements


 Note 16.         Commitments and Contingencies

The Air Force is a party in various administrative proceedings and legal actions related to claims for environmental damage,
equal opportunity matters, and contractual bid protests.

The Air Force has accrued contingent liabilities for legal actions where the Secretary of the Air Force General Counsel
(SAF/GC) considers an adverse decision probable and the amount of loss measurable. In the event of an adverse judgment
against the Government, some of the liabilities may be payable from the U.S. Treasury Judgment Fund. The Air Force
records Judgment Fund liabilities in Note 12, Accounts Payable; and Note 15, Other Liabilities.

Claims and litigation from Civil Law having a reasonably possible liability are estimated at $2.7 billion. Neither past payments
nor the current contingent liability estimate provides a basis for accurately projecting the results of any individual lawsuit or
claim. Since monetary judgments paid to civil litigants come from a judgment fund administrated by U.S. Treasury, it is
uncertain that claims will become a liability to the Air Force.

The amounts disclosed for litigation claims and assessments are fully supportable and must agree with Air Force’s legal
representation letters and management summary schedule.

The amount of obligations related to cancelled appropriations for which the reporting entity has a contractual commitment for
payment is $712.8 million.

The Air Force is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments,
or dispute resolution, that may or may not result in a future outflow of expenditures. Currently, Air Force does not have a
systemic process by which it captures or assesses these potential contingent liabilities; therefore, the amounts reported may
not fairly present the Air Force’s contingent liabilities.

The estimated probable liability amount of $766.4 million was recognized in Note 15 as contingent liabilities.

The recognized contingent liability includes $648.8 million in estimated future contract financing payments that will be paid to
contractors upon delivery and government acceptance. See Note 15 for additional details.

In addition, Air Force recognized the total estimated probable liability for claims and litigation against the Air Force handled by
the Civil Law and Litigation Directorate, as of September 30, 2010, valued at $117.5 million, included in Nonfederal
Contingent Liabilities. As of September 30, 2010, the Air Force was party to 5,561 claims and litigation actions. This liability
dollar amount recorded in the financial statements is an estimate based on the weighted average payout rate for the previous
three years. There are only two types of cases where U.S. Treasury will seek reimbursements from the affected agency, the
Contract Dispute Act cases and select Federal Government personnel disciplinary matters.

The SAF/GC developed the estimating methodology for the contingent liabilities recognized in Note 15.

In cases where SAF/GC disclosed that a judgment has been awarded against the Air Force, these amounts were reported on
the Balance Sheet and within Note 15.




                                                                                                                                  55
                     General Fund
                     Notes to the Principal Statements


 Note 17.                 Military Retirement and Other Federal Employment Benefits


 As of September 30                                                                                  2010
                                                                                      (Less: Assets Available to Pay
                                                  Liabilities                                                                          Unfunded Liabilities
                                                                                                   Benefits)
 (Amounts in thousands)


 1. Pension and Health Benefits
     A. Military Retirement Pensions      $                              0        $                                    0       $                                     0
     B. Military Pre Medicare-Eligible
        Retiree Health Benefits                                          0                                             0                                             0
     C. Military Medicare-Eligible
        Retiree Health Benefits                                          0                                             0                                             0
     D. Total Pension and Health
        Benefits                          $                              0        $                                    0       $                                     0


 2. Other Benefits
     A. FECA                              $                       1,101,150       $                                    0       $                              1,101,150
     B. Voluntary Separation
        Incentive Programs                                               0                                             0                                             0
     C. DoD Education Benefits
        Fund                                                              0                                         0                                                 0
     D. Other                                                         8,213                                   (8,213)                                                 0
     E. Total Other Benefits              $                       1,109,363       $                           (8,213)          $                              1,101,150

 3. Total Military Retirement and
    Other Federal Employment
    Benefits:                             $                       1,109,363       $                           (8,213)          $                              1,101,150




     As of September 30                                                                               2009
                                                                                       (Less: Assets Available to Pay
                                                    Liabilities                                                                        Unfunded Liabilities
                                                                                                    Benefits)
     (Amounts in thousands)(Amounts
         in thousands)


     1. Pension and Health Benefits
      A. Military Retirement Pensions         $                               0       $                                    0       $                                 0
      B. Military Pre Medicare-Eligible
         Retiree Health Benefits                                              0                                            0                                         0
      C. Military Medicare-Eligible
         Retiree Health Benefits                                              0                                            0                                         0
      D. Total Pension and Health
         Benefits                             $                               0       $                                    0       $                                 0

     2. Other Benefits
      A. FECA                                 $                     1,072,389         $                                    0       $                          1,072,389
      B. Voluntary Separation
         Incentive Programs                                                   0                                            0                                         0
      C. DoD Education Benefits
         Fund                                                                 0                                            0                                         0
      D. Other                                                          6,177                                  (6,177)                                               0
      E. Total Other Benefits                 $                     1,078,566         $                        (6,177)             $                          1,072,389

     3. Total Military Retirement and
        Other Federal Employment
        Benefits:                             $                     1,078,566         $                        (6,177)             $                          1,072,389
56
                                                              A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                            General Fund
                                                                                                Notes to the Principal Statements


Relevant Information for Comprehension

Programs for which actuarial benefits are computed include the Federal Employees’ Compensation Act (FECA), the expected
liability for death, disability, medical, and miscellaneous costs for approved compensation cases, and a component for
incurred but not reported claims.

FECA liability is determined using a method that utilizes historical benefit payment patterns to predict
the ultimate payments. The projected annual benefit payments are then discounted to present value using
the Office of Management and Budget’s economic assumptions for 10-year U.S. Treasury notes and bonds.

Interest rate assumptions utilized for discounting were as follows:

                           Discount Rates

                           3.653% in Year 1
                           4.300% in Year 2
                           and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage inflation
factors [Cost of Living Adjustments (COLAs)] and medical inflation factors [Consumer Price Index Medical (CPIMs)] were
applied to the calculation of projected future benefits. The actual rates for these factors for the charge back year (CBY) 2010
were also used to adjust the methodology’s historical payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

                          CBY              COLA             CPIM

                          2010             N/A              N/A
                          2011             2.23%            3.45%
                          2012             1.13%            3.43%
                          2013             1.70%            3.64%
                          2014             1.90%            3.66%
                          2015             1.93%            3.73%
                          and thereafter

The model’s resulting projections were analyzed to ensure that the estimates were reliable. Analysis was based on four tests:
(1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in the liability
amount by agency to the percentage change in the actual incremental payments, (3) a comparison of the incremental paid
losses per case (a measure of case-severity) in CBY 2010 to the average pattern observed during the most current three
charge back years, and (4) a comparison of the estimated liability per case in FY 2010 projection to the average pattern for
the projections of the most recent three years.

The Air Force’s actuarial liability for workers’ compensation benefits is developed and provided by Department of Labor at the
end of each fiscal year. There is no change on a quarterly basis.

Other Federal Employment Benefits is comprised of additional post employment benefits due and payable to military
personnel.




                                                                                                                                    57
                General Fund
                Notes to the Principal Statements


 Note 18.              General Disclosures Related to the Statement of Net Cost


 Intragovernmental Costs and Exchange Revenue

 As of September 30                                                      2010                               2009
 (Amounts in thousands)


 1. Intragovernmental Costs                               $                         34,965,325   $                  33,832,898
 2. Public Costs                                                                  135,431,727                      110,093,815
 3. Total Costs                                           $                       170,397,052    $                 143,926,713



 4. Intragovernmental Earned Revenue                      $                        (4,693,598)   $                 (4,138,542)
 5. Public Earned Revenue                                                          (1,220,071)                     (2,002,892)
 6. Total Earned Revenue                                  $                        (5,913,669)   $                 (6,141,434)


 7. Net Cost of Operations                                $                       164,483,383    $                 137,785,279



 Relevant Information for Comprehension

 The $618.8 million Fiscal Year (FY) 2009 abnormal balance for the Family Housing and Military Construction program cost
 is driven by a larger than normal cost capitalization offset.

 Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal
 Government.

 The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government
 supported by appropriations or other means. The intent of SNC is to provide gross and net cost information related to the
 amount of output or outcome for a given program or organization administered by a responsible reporting entity. The DoD’s
 current processes and systems do not capture and report accumulated costs for major programs based upon the
 performance measures as required by the Government Performance and Results Act. The DoD is in the process of
 reviewing available data and developing a cost reporting methodology as required by the Statement of Federal Financial
 Accounting Standards (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government”,
 as amended by SFFAS No. 30, “Inter-entity Cost Implementation”.

 Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

 The Air Force’s systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side
 expenses are adjusted to agree with internal seller-side revenue. Expenses are generally adjusted by accruing additional
 accounts payable and expenses.

 The Air Force does not meet accounting standards and that information presented is based on budgetary obligations,
 disbursements, and collection transactions, as well as nonfinancial feeder systems adjusted to record known accruals for
 major items such as payroll expenses, accounts payable and environmental liabilities.

 The Air Force’s accounting systems generally do not capture information relative to heritage assets separately and distinctly
 from normal operations.




58
                                                         A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                     General Fund
                                                                                         Notes to the Principal Statements


Note 19.       Disclosures Related to the Statement of Changes in Net Position

Relevant Information for Comprehension

Other Financing sources, Other is comprised of unsupported adjustments to reconcile reported intragovernmental transfers,
the majority of which are recorded at the Air Force Component level, as the respective federal partners could not be
identified nor the transfers reconciled.

The Appropriations Received on the Statement of Changes in Net Position (SCNP) does not agree with Appropriations
Received on the Statement of Budgetary Resources (SBR) in the amount of $ 12 million. The difference is due to additional
resources included in the Appropriations Received on the SBR. Refer to Note 20 for additional details.

The eliminations column on SCNP will reflect zero dollars. In the SCNP, all offsetting balances (i.e. transfers-in and
transfers-out, revenues, and expenses) for intradepartmental activity between earmarked and other (nonearmarked) funds
are reported on the same lines. The eliminations column contains all appropriate elimination entries, which net to zero within
each respective line, except for intraentity imputed financing costs.




                                                                                                                             59
               General Fund
               Notes to the Principal Statements


 Note 20.        Disclosures Related to the Statement of Budgetary Resources


 As of September 30                                                            2010                            2009
 (Amounts in thousands)

 1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                  $                     76,521,166     $               79,201,453

 2. Available Borrowing and Contract Authority at the End of
    the Period                                                                                  0                             0

 Apportionment Categories

 Funds are apportioned by three categories: (1) Category A is apportioned quarterly, (2) Category B is apportioned by activity
 or project, and (3) Exempt are funds not subject to apportionment. The amounts of direct and reimbursable obligations
 incurred are stated in the table.

                                             Category A               Category B                Exempt
                Direct                       $93.9 billion            $65.2 billion             $1.7 million
                Reimbursable                  $6.9 billion             $4.1 billion             $0.1 million

 Intraentity Transactions

 The Statement of Budgetary Resources (SBR) includes intraentity transactions because the statements are presented as
 combined.

 Permanent Indefinite Appropriations

 Permanent indefinite appropriations are as follows (reference Note 23 for additional information):

 Department of the Air Force General Gift Fund [10 USC 2601(b)]

 Wildlife Conservation Fund [16 USC 670(a)]

 Air Force Cadet Fund [37 USC 725(s)]

 Legal limitations and time restrictions on the use of unobligated appropriation balances such as upward adjustments are
 provided under Public Law.

 Appropriations Received

 The Appropriations Received line item on the Statement of Changes in Net Position differs from that reported on SBR
 because Appropriations Received on the Statement of Changes in Net Position do not include dedicated appropriations and
 earmarked receipts. Dedicated appropriations and earmarked receipts are accounted for as either nonexchange revenue or
 donations and forfeitures of cash and cash equivalents. This resulted in a $12.2 million difference.




60
                                                             A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                          General Fund
                                                                                              Notes to the Principal Statements


 Note 21. Reconciliation of Net Cost of Operations to Budget




As of September 30
                                                                          2010                                  2009
(Amounts in thousands)

 Resources Used to Finance Activities:
Budgetary Resources Obligated:
1. Obligations incurred                                          $           170,329,389        $                       172,379,940
2. Less: Spending authority from offsetting                                  (15,397,463)                               (13,949,150)
   collections and recoveries (-)
3. Obligations net of offsetting collections                     $           154,931,926        $                       158,430,790
    and recoveries
4. Less: Offsetting receipts (-)                                               (250,035)                                  (104,099)
5. Net obligations                                               $           154,681,891        $                       158,326,691
Other Resources:
6. Donations and forfeitures of property                                               0                                           0
7. Transfers in/out without reimbursement (+/-)                                  202,939                                   (124,914)
8. Imputed financing from costs absorbed by others                               857,824                                     725,513
9. Other (+/-)                                                                   839,990                                 (2,841,855)
10. Net other resources used to finance activities               $             1,900,753        $                        (2,241,256)
11. Total resources used to finance activities                   $           156,582,644        $                       156,085,435
Resources Used to Finance Items not Part of the Net
     Cost of Operations:
12. Change in budgetary resources obligated for
     goods, services and benefits ordered but not yet
     provided:
     12a. Undelivered Orders (-)                                 $               2,680,287      $                        (8,606,530)
     12b. Unfilled Customer Orders                                                 302,117                                   228,532
13. Resources that fund expenses recognized in prior                               (59,848)                                (845,421)
     Periods (-)
14. Budgetary offsetting collections and receipts that                            250,035                                   104,099
      do not affect Net Cost of Operations
15. Resources that finance the acquisition of assets (-)                      (7,638,134)                               (29,521,992)
16. Other resources or adjustments to net obligated
     resources that do not affect Net Cost of
     Operations:
      16a. Less: Trust or Special Fund Receipts                                          0                                         0
            Related to exchange in the Entity’s Budget (-)
      16b. Other (+/-)                                                        (1,042,928)                                  2,966,770
17. Total resources used to finance items not part               $            (5,508,471)       $                       (35,674,542)
     of the Net Cost of Operations
18. Total resources used to finance the Net Cost                 $           151,074,173        $                       120,410,893
     of Operations




                                                                                                                                  61
                 General Fund
                 Notes to the Principal Statements




 As of September 30
                                                                       2010                             2009
 (Amounts in thousands)



Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current
    Period:


Components Requiring or Generating Resources in
    Future Period:
19. Increase in annual leave liability                     $                   112,556   $                          187,550
20. Increase in environmental and disposal liability                            22,158                              550,819
21. Upward/Downward reestimates of credit subsidy                                    0                                    0
    expense (+/-)
22. Increase in exchange revenue receivable from                                    0                                     0
    the public (-)
23. Other (+/-)                                                                487,268                              137,812
24. Total components of Net Cost of Operations that        $                   621,982   $                          876,181
    will Require or Generate Resources in future
    periods

Components not Requiring or Generating Resources:
25. Depreciation and amortization                          $               13,243,714    $                       18,297,128
26. Revaluation of assets or liabilities (+/-)                              2,776,078                             1,265,504
27. Other (+/-)
    27a. Trust Fund Exchange Revenue                                                 0                                     0
    27b. Cost of Goods Sold                                                          0                                     0
    27c. Operating Material and Supplies Used                               24,316,312                            25,371,357
    27d. Other                                                            (27,548,875)                          (28,435,783)
28. Total Components of Net Cost of Operations that        $                12,787,229   $                        16,498,206
    will not Require or Generate Resources


29. Total components of Net Cost of Operations             $               13,409,211    $                       17,374,387
    that will not Require or Generate Resources in
    the current period

30. Net Cost of Operations                                 $              164,483,384    $                      137,785,280



Relevant Information for Comprehension

Due to Air Force financial system limitations, budgetary data do not agree with proprietary expenses and capitalized assets.
The difference between budgetary and proprietary data is a previously identified deficiency. The amount of the adjustment to
the note schedule to bring it into balance with the Statement of Net Cost is $142.3 million in the Other Components Not
Requiring or Generating Resources category.

The following note schedule lines are presented as combined instead of consolidated due to intraagency budgetary
transactions not being eliminated:

     x   Obligations Incurred
     x   Less: Spending Authority from Offsetting Collections and Recoveries

62
                                                            A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                        General Fund
                                                                                            Notes to the Principal Statements

     x   Obligations Net of Offsetting Collections and Recoveries
     x   Less: Offsetting Receipts
     x   Net Obligations
     x   Undelivered Orders
     x   Unfilled Customer Orders

 Other Resources Used to Finance Activities consists of other gains to adjust intragovernmental transfers in.

 Other Resources Used to Finance Items Not Part of the Net Cost of Operations include adjustment to net obligated
 resources that do not affect the Net Cost of Operation such as net transfers in and out without reimbursement, and other
 gains and losses to adjust intragovernmental transfers in.

 Other Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period consist
 of expenses due to Air Force active military personnel.

 Other Components not Requiring or Generating Resources includes expenses for Operations and Maintenance,
 Procurement, Military Construction and Family Housing.



  Note 22.         Disclosures Related to Incidental Custodial Collections

The Air Force collected $46.2 million of incidental custodial revenues generated primarily from collection of accounts
receivable related to cancelled accounts. These funds are not available for use by Air Force. At the end of each fiscal year,
the accounts are closed and the balances rendered to the U.S. Treasury.




                                                                                                                                63
                     General Fund
                     Notes to the Principal Statements


 Note 23.                       Earmarked Funds



                                                                                  2010
 BALANCE SHEET
 As of September 30
                                     U.S. Army Corps of
 (Amounts in thousands)                  Engineers
                                                              Other Earmarked Funds           Eliminations           Total




 ASSETS
 Fund balance with
 Treasury                        $                        0   $                17,700     $                  0   $           17,700
 Investments                                              0                     1,080                        0                1,080
 Accounts and Interest
 Receivable                                               0                           0                      0                   0
 Other Assets                                             0                           5                      0                   5
 Total Assets                    $                        0   $                18,785     $                  0   $           18,785


 LIABILITIES and NET
 POSITION
 Military Retirement
 Benefits and Other
 Federal Employment
 Benefits                        $                        0   $                       0   $                  0   $               0
 Other Liabilities                                        0                       217                        0                 217
 Total Liabilities               $                        0   $                   217     $                  0   $             217


 Unexpended
 Appropriations                                           0                           0                      0                   0
 Cumulative Results of
 Operations                                               0                    18,568                        0               18,568

 Total Liabilities and Net
 Position                        $                        0   $                18,785     $                  0   $           18,785



 STATEMENT OF NET
 COST
 For the period ended
 September 30

 Program Costs                   $                        0   $                 4,106     $                  0   $            4,106
 Less Earned Revenue                                      0                         0                        0                    0
 Net Program Costs               $                        0   $                 4,106     $                  0   $            4,106
 Less Earned Revenues
 Not Attributable to
 Programs                                                 0                           0                      0                   0

 Net Cost of Operations          $                        0   $                 4,106     $                  0   $            4,106




64
                                                               A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                               General Fund
                                                                                                Notes to the Principal Statements


                                                                              2010
STATEMENT OF
CHANGES IN NET
POSITION
                                 U.S. Army Corps of
For the period ended                                      Other Earmarked Funds           Eliminations                  Total
                                     Engineers
September 30

Net Position Beginning of
the Period                   $                        0   $                10,432     $                    0    $                   10,432

Net Cost of Operations                                0                     4,052                          0                         4,052
Budgetary Financing
Sources                                               0                    12,188                          0                        12,188

Other Financing Sources                               0                           0                        0                               0

Change in Net Position       $                        0   $                 8,136     $                    0    $                    8,136


Net Position End of Period   $                        0   $                18,568     $                    0    $                   18,568



Earmarked Funds

Department of the Air Force General Gift Fund [10 USC 2601 (b)]

The Department of the Air Force General Gift Fund accepts, holds, and administers any gift, device, or bequest of real or
personal property, made on the condition that it is used for the benefit (or in connection with the establishment,
maintenance, or operation) of a school, hospital, library, museum, or cemetery under the Air Force’s jurisdiction. The fund
is available to such institutions or organizations subject to the terms of the gift, device, or bequest.

Conditional gifts are invested in U.S. Treasury securities, and any interest earned on these securities is accumulated in the
fund.

Wildlife Conservation Fund [16 USC 670 (a)]

The Wildlife Conservation Fund provides for (1) the conservation and rehabilitation of natural resources on military
installations, (2) the sustainable multipurpose use of the resources which include hunting, fishing, trapping, and
nonconsumptive uses, and (3) the public access to military installations to facilitate its use, subject to safety requirements
and military security. The fund is available to carry out these programs and other such expenses that may be necessary
for the purpose of the cited statute.

Consisting of both appropriated and nonappropriated funding, this fund gives installation commanders the authority to
collect fees from the sale of hunting and fishing permits.

Air Force Cadet Fund [37 USC 725 (s)]

The Air Force Cadet Fund is maintained for the benefit of Air Force Academy cadets. Disbursements are made for the
personal services of cadets such as laundry, arts, and athletics while collections are received from the same cadets at least
equal to any disbursements made.

The Air Force General Gift Fund and Wildlife Conservation Fund are trust funds. The Air Force Cadet Fund is classified as
a special fund. All three funds utilize receipt and expenditure accounts in accounting for and reporting the funds.




                                                                                                                                      65
                    General Fund
                    Notes to the Principal Statements



                                                                                2009

BALANCE SHEET
As of September 30
                                   U.S. Army Corps of
                                                            Other Earmarked Funds           Eliminations           Total
(Amounts in thousands)                 Engineers




ASSETS
Fund balance with
Treasury                       $                        0   $                 9,515     $                  0   $            9,515
Investments                                             0                     1,079                        0                1,079
Accounts and Interest
Receivable                                              0                           1                      0                   1
Other Assets                                            0                           5                      0                   5
Total Assets                   $                        0   $                10,600     $                  0   $           10,600


LIABILITIES and NET
POSITION
Military Retirement
Benefits and Other
Federal Employment
Benefits                       $                        0   $                       0   $                  0   $               0
Other Liabilities                                       0                       168                        0                 168
Total Liabilities              $                        0   $                   168     $                  0   $             168


Unexpended
Appropriations                                          0                           0                      0                   0
Cumulative Results of
Operations                                              0                    10,432                        0               10,432

Total Liabilities and Net
Position                       $                        0   $                10,600     $                  0   $           10,600



STATEMENT OF NET
COST
For the period ended
September 30

Program Costs                  $                        0   $                 3,721     $                  0   $            3,721
Less Earned Revenue                                     0                     (630)                        0               ( 630)
Net Program Costs              $                        0   $                 3,091     $                  0   $           3,091
Less Earned Revenues
Not Attributable to
Programs                                                0                           0                      0                   0

Net Cost of Operations         $                        0   $                 3,091     $                  0   $            3,091




66
                                                               A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                               General Fund
                                                                                                 Notes to the Principal Statements



                                                                              2009
STATEMENT OF
CHANGES IN NET
POSITION
                                 U.S. Army Corps of
For the period ended                                      Other Earmarked Funds           Eliminations                  Total
                                     Engineers
September 30

Net Position Beginning of
the Period                   $                        0   $                 5,355     $                    0    $                     5,355

Net Cost of Operations                                0                           0                        0                                0
Budgetary Financing
Sources                                               0                     8,168                          0                          8,168

Other Financing Sources                               0                           0                        0                                0

Change in Net Position       $                        0   $                 8,168     $                    0    $                     8,168


Net Position End of Period   $                        0   $                13,523     $                    0    $                    13,523




                                                                                                                                       67
                General Fund
                Notes to the Principal Statements


 Note 24.         Fiduciary Activities



 Schedule of Fiduciary Activity

 For the period ended September 30
                                                                       2010                                    2009
 (Amounts in thousands)

 1. Fiduciary net assets, beginning of year           $                               25,444   $                               17,561
 2. Fiduciary revenues                                                                     0                                        0
 3. Contributions                                                                     46,166                                   36,902
 4. Investment earnings                                                                2,701                                    2,124
 5. Gain (Loss) on disposition of investments, net                                         0                                        0
 6. Administrative and other expenses                                                      0                                        0
 7. Distributions to and on behalf of beneficiaries                                 (43,688)                                 (31,143)
 8. Increase/(Decrease) in fiduciary net assets       $                                5,179   $                                7,883

 9. Fiduciary net assets, end of period               $                               30,623   $                               25,444




 Schedule of Fiduciary Net Assets

 For the period ended September 30
                                                                      2010                                     2009
 (Amounts in thousands)
 FIDUCIARY ASSETS
 1. Cash and cash equivalents                         $                               30,624   $                               25,444
 2. Investments                                                                            0                                        0
 3. Other Assets                                                                           0                                        0

 FIDUCIARY LIABILITIES
 4. Less: LIABILITIES                                 $                                    0   $                                    0

 5. TOTAL FIDUCIARY NET ASSETS                        $                               30,624   $                               25,444


Relevant Information for Comprehension

A fiduciary relationship may exist anytime a Federal Government entity collects or receives, and holds or makes disposition of
assets in which a non-federal individual or entity has an ownership interest that the Federal Government must uphold.
The relationship is based on statute or other legal authority and the fiduciary activity must be in furtherance of that relationship.
The Air Force’s fiduciary activities primarily consist of the Savings Deposit Program (SDP). SDP was established to provide
members of the uniformed services serving in a designated combat zone the opportunity to build their financial savings.




68
                                                            A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                          General Fund
                                                                                            Notes to the Principal Statements


 Note 25.            Other Disclosures


                                                                           2010
 As of September 30
                                                                       Asset Category
                                Land and Buildings         Equipment                    Other                     Total
 (Amounts in thousands)

 1. ENTITY AS
    LESSEE-Operating
    Leases
  Future Payments Due
    Fiscal Year
        2011                                  46,129                       0                    101,634                    147,763
        2012                                  48,435                       0                    104,683                    153,118
        2013                                  50,856                       0                    107,823                    158,679
        2014                                  53,398                       0                    111,058                    164,456
        2015                                  56,068                       0                    114,390                    170,458
        After 5 Years                         58,871                       0                    117,822                    176,693

 Total Future Lease
   Payments Due             $                313,757   $                   0   $                657,410   $                971,167



Relevant Information for Comprehension

Leases in the land and buildings category include costs for operating leased housing facilities for the active Air Force in the
United States and overseas. Section 801 Family Housing Program leases are not included in this category.

Other leases consist of Air Force vehicle leases from the General Services Administration and commercial lessors located in
Europe, Southwest Asia, and the United States.




 Note 26.         Restatements


Not applicable.




                                                                                                                                  69
70
               A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10




General Fund
Fiscal Year 2010
Required Supplementary
Stewardship Information




                                                                      71
               General Fund
               Required Supplementary Stewardship Information




     STEWARDSHIP INVESTMENTS

     Stewardship investments are substantial investments made by DoD for the benefit of the nation,
     but are not physical assets owned by DoD. Stewardship investments include expenses incurred
     for federally financed, but not federally owned physical property (Nonfederal Physical Property)
     and federally financed research and development (Research and Development).

     NONFEDERAL PHYSICAL PROPERTY

     Nonfederal Physical Property investments are expenses included in calculating net cost incurred
     by the reporting entity for the purchase, construction or major renovation of physical property
     owned by state and local governments. The expenses include the costs identified for major
     additions, alterations and replacements, purchases of major equipment, and purchases or
     improvements of other nonfederal assets. In addition, Nonfederal Physical Property Investments
     include federally-owned physical property transferred to state and local governments.


                                 NONFEDERAL PHYSICAL PROPERTY
                               Yearly Investment in State and Local Governments
                                For the Current and Four Preceding Fiscal Years
                                                 ($ in millions)
      Categories                                  FY 2010       FY 2009    FY 2008     FY 2007 FY 2006
     1. Transferred Assets:
        National Defense Mission Related              0           0           0            0          0

     2. Funded Assets:
        National Defense Mission Related            $11.5        $19.6       $2.8        $8.5        $8.3
       Totals                                       $11.5        $19.6       $2.8        $8.5        $8.3


     The Air National Guard investments in Nonfederal Physical Property are strictly through the
     Military Construction Cooperative Agreements (MCCAs). These agreements involve the
     transfer of money only and allow joint participation with States, Counties, and Airport
     Authorities for construction or repair of airfield pavements and facilities required to support the
     flying mission assigned at these civilian airfields.

     Investment values included in this report are based on Nonfederal Physical Property outlays
     (expenditures). Outlays are used because current DoD systems are unable to capture and
     summarize costs in accordance with the Federal GAAP requirements.




72
                                                  A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                            General Fund
                                                                  Required Supplementary Stewardship Information




RESEARCH AND DEVELOPMENT

Research and Development investments are incurred in the search for new or refined knowledge
and ideas, for the application or use of such knowledge and ideas for the development of new or
improved products and processes with the expectation of maintaining or increasing national
economic productive capacity or yielding other future benefits.


                           INVESTMENTS IN RESEARCH AND DEVELOPMENT
                              Yearly Investment in Research and Development
                                For the Current and Four Preceding Fiscal Years
                                                    ($ in millions)
Categories                                            FY 2010 FY 2009 FY 2008 FY 2007 FY 2006
1. Basic Research                                          $449      $418       $389   $383  $374
2. Applied Research                                       1,074     $1,069   $1,051  $1,032 $1,034
3. Development:
 Advanced Technology Development                          658       $635       $611        $937         $970
   Advanced Component Development
      and Prototypes                                    1,858     $2,022     $2,423      $2,310     $2,185
   System Development and Demonstration                 3,101     $3,542     $3,654      $4,094     $4,572
   Research, Development, Test and Evaluation
      Management Support                                1,237     $1,296     $1,323      $1,286     $1,381
 Operational Systems Development                       15,380    $14,793    $12,459     $11,481    $11,579
4. Totals                                             $23,757    $23,775    $21,910     $21,523    $22,095

Basic Research is the systematic study to gain knowledge or understanding of the fundamental
aspects of phenomena and of observable facts without specific applications, processes, or
products in mind. Basic Research involves the gathering of a fuller knowledge or understanding
of the subject under study. Major outputs are scientific studies and research papers.

Applied Research is the systematic study to gain knowledge or understanding necessary for
determining the means by which a recognized and specific need may be met. It is the practical
application of such knowledge or understanding for the purpose of meeting a recognized need.
This research points toward specific military needs with a view toward developing and
evaluating the feasibility and practicality of proposed solutions and determining their parameters.
Major outputs are scientific studies, investigations, research papers, hardware components,
software codes, and limited construction of, or part of, a weapon system, to include nonsystem
specific development efforts.

Development takes what has been discovered or learned from basic and applied research and
uses it to establish technological feasibility, assessment of operability, and production capability.
Development is comprised of the following five stages:

    1. Advanced Technology Development is the systematic uses of the knowledge or
understanding gained from research directed towards proof of technological visibility and
assessment of operational and productivity rather than the development of hardware for service
use. Employs demonstration activities intended to prove or test a technology or method.
                                                                                                                   73
                 General Fund
                 Required Supplementary Stewardship Information




         2. Advanced Component Development and Prototypes evaluates integrated technologies in
     as realistic an operating environment as possible to assess the performance or cost reduction
     potential of advanced technology. Programs in this phase are generally system specific. Major
     outputs of Advanced Component Development and Prototypes are hardware and software
     components, or complete weapon systems, ready for operational and developmental testing and
     field use.

          3. System Development and Demonstration concludes the program or project and prepares
     it for production. It consists primarily of preproduction efforts, such as logistics and repair
     studies. Major outputs are weapon systems finalized for complete operational and
     developmental testing.

         4. Research, Development, Test and Evaluation Management Support is support for
     installations and operations for general research and development use. This category includes
     costs associated with test ranges, military construction maintenance support for laboratories,
     operations and maintenance of test aircraft and ships, and studies and analyses in support of the
     R&D program.

        5. Operational Systems Development is concerned with development projects in support of
     programs or upgrades still in engineering and manufacturing development, which have received
     approval for production, for which production funds have been budgeted in subsequent fiscal
     years.

     The following are representative program examples for each of the above major categories:

     Basic Research:

     The Air Force supported research on nanocomposite material called a thermopower wave, which
     may convert chemical energy to fuel cells for micro-machines, sensors, and emergency
     communication beacons. The promising technology is generating attention because it is 100%
     non-toxic, saves energy, and can create a significant amount of power in tiny batteries—up to ten
     times as much as commercial batteries.

     Basic research has demonstrated the world's smallest semiconductor laser which may have
     applications to the Air Force in communications, computing, and bio-hazard detection. The
     semiconductor, called a plasmon, can focus light the size of a single protein in a space that is
     smaller than half its wavelength while maintaining laser-like qualities that allow it to not
     dissipate over time. This important discovery has the potential to eliminate optical loss and
     make plasmonic-based technologies viable for a broad spectrum of applications. The next
     generation of plasmonic lasers, called nanolasers, is even expected to probe and manipulate
     molecules, which will advance ultra-sensitive bio-detection and nanoscale optics, benefiting
     optics-based telecommunications, optical computing, and healthcare.




74
                                                     A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                              General Fund
                                                                    Required Supplementary Stewardship Information




Applied Research:

In-house applied research scientists have made a breakthrough in crystal growth of bulk gallium
nitride (GaN). Employing ammonothermal crystal growth methods, they have grown low-
defect-density bulk GaN crystals that replicate the high quality of “seed” crystals from which
they were grown. GaN-based semiconductors are emerging as the materials of choice for next-
generation high-power RF and microwave transistors; for LEDs, lasers, and detectors for
ultraviolet through green wavelengths; and for white-light replacements for incandescent and
fluorescent lamps.

The Harsh Environment Fuze Technology (HEFTY) program developed the capability to model,
characterize, design, and test fuzes and fuze components in harsh environments based on
requirements for current and future munitions. This program improved the definition of the
mechanical environment that exists in penetrating weapons to enable an improvement in fuze
reliability. It also provides the foundation for future higher velocity penetrators for increased
capabilities.

Advanced Technology Development:

The Air Force’s X-51A Scramjet Engine Demonstrator-Waverider successfully completed the
longest supersonic combustion ramjet- (scramjet-) powered hypersonic flight on May 26, 2010,
on the Pt Mugu Test Range, California. The demonstrator vehicle's scramjet engine lit and
sustained combustion on JP-7 jet fuel for 143 seconds, breaking the previous record of 13
seconds set by NASA's X-43A Hyper-X in 2004 by 11 times, and quadrupling the total amount
of in-flight scramjet engine time out of all US hypersonic air breathing flights. The main
objective of the X-51A program is to flight test the Air Force hypersonic technology (HyTech)
scramjet engine, developed in the late 90s and early 2000s, to accelerate a vehicle from boost
(approximately Mach 4.5) to Mach 6+. Additional objectives included collecting flight data on
scramjet operation, proving the viability of a hydrocarbon fuel-cooled scramjet, and
demonstrating the vehicle produced greater thrust than drag.

Geodesic Dome Phased Array Antenna (GDPAA) Technology Transition: The GDPAA
Advanced Technology Demonstration (ATD) is part of a multi-phase activity to upgrade the Air
Force Satellite Control Network (AFSCN). By replacing large dish antennas with advanced
phased array antennas, GDPAA will greatly improve satellite communication links for the
AFSCN. The phased-array technology will provide more flexible and reliable satellite telemetry,
tracking and commanding capabilities for the Air Force.

As part of efforts to reduce the U.S. military's reliance on foreign energy sources, the Air Force
continued certification of the alternative jet fuel blend of JP-8 with up to 50% synthetic kerosene
produced by the Fischer-Tropsch (FT) process. The FT process can use coal, natural gas,
biomass or a combination of them to produce liquid fuel, and will provide potential sources for
jet fuel in addition to petroleum. The FT certification effort is part of the Pentagon’s Assured
Fuel Initiative, in which the Air Force plans to certify all of its systems which use jet fuel to be
able to use the FT blend by early 2011. USAF-certified aircraft now include C-5, C-130, C/KC-

                                                                                                                     75
                 General Fund
                 Required Supplementary Stewardship Information




     135, E-3, F-4, F-15, F-16, F-22, H-60, T-6, in addition to the F-15, F-22, B-52, C-17 and B-1
     reported certified last year. In addition, the B-2, H-1, and E-8 certification is imminent. Field
     service evaluations to identify longer term effects of the blended, fuel were successfully
     completed on a representative example of USAF’s fueling infrastructure with no negative effects
     found. Additional longer term use evaluations are being planned for both the F-16 and the C-
     130. The Air Force collaborated with the FAA and Industry in the development and final
     approval by ASTM International of a new commercial specification for aviation fuel allowing up
     to 50% FT synthetic kerosene in commercial Jet A and Jet A-1 fuels (ASTM D-7566, "Aviation
     Turbine Fuel Containing Synthesized Hydrocarbons"- December 1, 2009). Consistent with this
     change and the USAF effort to harmonize the commercial and JP-8 jet fuel specifications, a
     change to the JP-8 specification (MIL-DTL-83133G) was implemented on Apr 30, 2010,
     authorizing up to 50% of USAF fuel identified as “JP-8” to contain up to 50% FT synthetic
     kerosene. Based on these approved standards, the Air Force completed certification of all of its
     Commercial Derivative Aircraft (CDAs) without requiring any additional dedicated testing. In
     addition, the Air Force has initiated certification activities for another near-term potential non-
     petroleum fuel blend; its blend stocks are derived from biological fats and oils. This class of fuel
     blend stocks is termed Hydroprocessed Renewable Jet (HRJ) fuel, which, when blended up to
     50% with JP-8, will provide the Air Force with sustainable options for reducing the use of
     petroleum fuels. Thus far, the F110 and F100 engines have successfully completed testing of
     representatives of this fuel class in the test cells at Arnold Engineering Development Center.
     Also, these fuels have successfully powered flights by A-10 and C-17 aircraft at Eglin AFB and
     Edwards AFB respectively. The fuel has, thus far, functioned just like JP-8, as expected; and
     fleet certification is on track for mid FY12.

     Demonstration and Validation (Advanced Component Development and Prototypes):

     The Air Force’s Advanced Component Development and Prototypes programs are comprised of
     system specific advanced technology integration efforts accomplished in an operational
     environment to help expedite transition from the effort. In FY 2004, the Air Force successfully
     demonstrated Fighter Aircraft Command and Control Enhancement (FACE). FACE provides an
     improved, beyond-line-of-sight (BLOS) command and control link with fighter aircraft by
     integrating Iridium telephone communications equipment with existing aircraft communications
     equipment. BLOS capability has traditionally been provided by low-density, high-demand
     airborne platforms acting as communications relays. FACE provides relief for these overworked
     assets, while allowing combatant commanders to maintain positive control of the battle space.
     FACE has been approved for deployment to Afghanistan through the Air Force's Rapid
     Response Process, and has the potential for extensive use in virtually any area of responsibility,
     including Homeland Defense.

     In FY 2005, the Air Force restructured and refocused the Space Radar (SR) program (formerly
     Space Based Radar) to address congressional concerns with technical risk, affordability, and
     DoD-IC integration. In January 2005 the Secretary of Defense and the Director of Central
     Intelligence signed a joint memo designating the SR program as the single space radar capability
     for the nation. In May 2007, the Deputy Secretary of Defense and the Principal Deputy Director
     of National Intelligence signed the Joint Radar Enterprise Memorandum, agreeing to a joint


76
                                                          A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                 General Fund
                                                                       Required Supplementary Stewardship Information




funding arrangement, acquisition strategy, and management structure. The details of this
arrangement are being captured in the Joint Radar Enterprise Management Plan. The SR Initial
Capabilities Document (ICD) was approved by the IC Mission Requirements Board (MRB) in
December 2005 and the DoD Joint Requirements Oversight Council (JROC) in January 2006.
The Capability Development Document is being prepared in parallel with the SR system concept
of operations (CONOPS); both are on track for MRB and JROC approval in 1st Quarter,
FY 2009. The SR program implemented a demonstration framework approach to system
development. This approach will further technology maturity risk reduction and CONOPS
experimentation through a mix of space, air, and land-based demonstration activities that will
maximize existing assets. The SR program continues to make significant advancement towards
the System Requirements Review milestone. The SR program will provide day/night, all-
weather global surface moving target indications (MTI), SAR, and high-resolution terrain
information (HRTI) capabilities from a space-based platform. Initial launch capability is
planned for 4th Quarter, FY 2016.

System Development and Demonstration:

The F-35 Joint Strike Fighter (JSF) program is developing a family of strike fighter aircraft for
the Air Force, Navy, Marine Corps and our allies, with maximum commonality among the
variants to minimize life cycle costs. The Air Force Conventional Takeoff and Landing (CTOL)
variant will be a multi-role, primary air-to-ground aircraft to replace the F-16 and A-10, and
complement the F-22. While the F-22 will establish air dominance, the F-35 with its
combination of stealth, large internal payloads and multi-spectral avionics will provide persistent
stealth and precision engagement to future battle space. The F-35 is in the 9th year of a 15-year
Engineering and Manufacturing Development (EMD) effort. President’s Budget, FY 2011,
significantly restructured the F-35 program, decreasing procurement by 122 aircraft across the
FYDP and extending EMD to March 2016. A subsequent Critical Nunn-McCurdy breach has
driven a further, still on-going, examination of the program which will likely drive additional
changes. Significant program accomplishments in FY 2010 include:

                x   19 of 20 flight and ground test aircraft produced
                x   7 flight test aircraft ferried: 4 STOVLs, 2 CTOLs, 1 CTOL at China Lake; 7
                    flight test aircraft still to ferry
                x   370 of 333 planned flight test sorties and 4910 of 4570 planned test points as
                    of 31 Aug 2010
                x   Low Rate Initial Production (LRIP) Lot 3 contracts for 7 AF CTOLs & 7
                    Navy STOVLs awarded to Lockheed on 2 Jun 09 and P&W on 22 Jul 09


The Transformational Satellite Communications (TSAT) system will provide the essential
capabilities required to enable the DoD’s vision for 21st century military operations. TSAT,
which consists of a five-satellite geosynchronous satellite constellation, network operations

                                                                                                                        77
                 General Fund
                 Required Supplementary Stewardship Information




     centers, and associated ground architecture, will establish global internet-like connectivity that is
     essential for U.S. and allied personnel to communicate as a joint networked force. It will also
     extend assured, protected communications connectivity to mobile forces in theater and vastly
     increase the overall capacity of our military satellite infrastructure.

     FY 2007 has proven to be a milestone year for TSAT. The program made excellent progress in
     demonstrating the maturity of its critical technology elements by successfully completing the
     third of three demonstrations at MIT Lincoln Laboratory (MIT/LL), testing each competing
     contractor’s proposed Laser Communications (or ‘lasercom’) and next-generation satellite
     processor/router (NGPR) equipment. The program also completed a successful four-week
     system design review (SDR), where the government assessed the viability of the architecture
     designs for each competing contractor on the satellite segment and on the TSAT Mission
     Operations System (TMOS) ground segment, whose contract was awarded in January 2006.

     Based upon the extent and success of risk reduction efforts accomplished thus far on this
     program, TSAT is prepared to meet a Key Decision Point-B (KDP-B) milestone in order to gain
     Milestone Decision Authority (MDA) acceptance to proceed into the Preliminary Design Phase
     of the program’s acquisition cycle. In preparation for the KDP-B decision, several in-depth
     reviews were performed this summer on TSAT, including an Independent Program Assessment,
     an Independent Cost Evaluation, and a Technical Readiness Assessment. The underlying result
     of these detailed reviews was that the program structure, budgeting, and technical development
     are well defined, properly managed and mature enough to support the initiation of preliminary
     design activities. Additionally, in June 2007, the TSAT program released a Request for
     Proposals (RFP) on the space segment development contract. The Air Force is reviewing bids
     from multiple contractors.

     TSAT is extending its risk reduction efforts with a revised goal of a KDP-B review in
     October 2008. TSAT awarded the space segment contract in FY 2009, starting its satellite
     design work and continuing the development of the TMOS segment. The launch of the first
     TSAT is targeted for 3rd Quarter, FY 2018.


     Research, Development, Test and Evaluation Management Support:

      The Air Force’s Research, Development, Test and Evaluation (RDT&E) Management Support
     efforts include projects directed toward support of installations and operations required for
     testing at the Air Force Major Range and Test Facility Base (MRTFB) Activities. The projects
     include test ranges, maintenance support of laboratories, operation and maintenance of test
     aircraft, and studies and analyses in support of the research and development program.

     An example of Air Force RDT&E management support is the Major Test and Evaluation
     Investment program, which funds the planning, improvements and modernization for three
     MRTFB Activities that are national test assets with unique test facilities/capabilities operated and
     maintained by the Air Force for the DoD test and evaluation missions, and is available to others
     having a requirement for their unique capabilities. Many efforts are contained within the Air
     Force Major Test and Evaluation Investment program. An example of a project accomplished in

78
                                                   A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                            General Fund
                                                                  Required Supplementary Stewardship Information




this program is the Armament/Munitions Digital Modeling and Simulation project. The
objectives of the AMDMS project were to develop, verify, and validate a set of reusable
models/simulations to support future air armament T&E through the systematic selection of
models developed by Laboratories, Air Armament Center (AAC) components, and contractors.
It accomplished this by improving existing digital modeling and simulation (DMS) tools, and
developing new DMS capabilities that were interoperable, integrateable, portable; and with a full
range of resolution and response time to meet the needs of the T&E customer.

Major accomplishments of the AMDMS project spanned the five thrust areas of Endgame,
Survivability/Effectiveness, Aircraft Compatibility, Directed Energy, and Hypersonics. Perhaps
the premier product of the project was the development of an engineering-level M&S software
framework called Endgame Framework (EF), providing an advanced pre-test prediction and
post-test analysis capability unlike any other. The EF manages the ever-increasing complexity of
smart weapon system lethality/target vulnerability analysis by allowing interoperable and
extensible endgame simulations. Legacy, previously stand-alone methodologies such as
Modular Effectiveness Vulnerability Assessment (MEVA), Point-burst Damage Assessment
Model (PDAM), Fast Air Target Encounter Penetration (FATEPEN), and Uncontained Engine
Debris Damage Assessment Model (UEDDAM) are just a few of the methodologies that were
upgraded during the AMDMS project and integrated within the EF, providing a unique
lethality/vulnerability analytical capability. Other analytical endgame methodologies, such as
Laser Effects Weapon Analysis Tool (LEWAT) and Radio Frequency Propagation,
Transmission, and Effects Code (RFPROTEC), supporting non-traditional damage effects such
as those found in the directed energy area, were also upgraded and integrated within the EF
environment. Some of the lethality/vulnerability methodologies supporting joint warfighter
weaponeering requirements, such as the Joint Munition Effectiveness Model (JMEM) and Joint
RF Effects Model (JREM), also reaped benefits indirectly from the improvement and
modernization efforts of the AMDMS project. Other accomplishments as part of the Aircraft
Compatibility thrust area, supporting both T&E, and an added benefit to warfighter requirements
was the improvements made to the SEEK EAGLE capabilities. Significant upgrades were made
to the six degree-of-freedom simulation to support store separation analysis and flight
certification, as well as improvements to the Computational Fluid Dynamics (CFD) simulation
capability and automation of the computerized physical fit (CPF) methodology. Additional
SEEK EAGLE capability upgrades included the development of a computational Electro-
Magnetics Effects (EME) tool for counter-electronic weapons analysis and a finite element radar
cross section tool for high powered microwave engagement analysis (TEMPUS). Under the
Survivability/Effectiveness thrust area, major improvements to the integrated threat missile and
radar system as part of the Joint Gulf Range Threat Integration (JGRTI) environment were
completed. These improvements provide a live/virtual/constructive distributed simulation
capability that supports Blue aircraft susceptibility and survivability analysis in the munitions
development T&E, as well as joint training exercise environments. Finally, in support of the
Hypersonics thrust area managed by the AMDMS partner at AEDC, improvements to test
instrumentation and hypersonics engineering methodologies were completed. These addressed
known deficiencies in wind-tunnel capabilities to satisfy new T&E requirements to support
hypersonic munitions development.



                                                                                                                   79
                 General Fund
                 Required Supplementary Stewardship Information




     Another example of Air Force RDT&E management support is the Threat Simulator
     Development program, which funds planning, improvements, and modernization of Electronic
     Warfare (EW) T&E capabilities. It supports EW ground test resources and Electronic Combat
     Intel. The Installed Test Integration Program (ITIP) is an accomplishment for this program. The
     412th Test Wing, EW Group, located at the Air Force Flight Test Center, Edwards AFB,
     California, has developed an integrated, virtual battlespace essential for testing advanced state of
     the art systems. The Installed Test Integration Program (ITIP) provides the Avionics Test &
     Integration Complex (ATIC) with capabilities that are essential for successful testing of
     electronic combat systems and software intensive and highly integrated avionics platforms. The
     ATIC includes an anechoic chamber (Benefield Anechoic Facility [BAF]) along with equipment
     and laboratories that are capable of testing avionics systems installed on their host platforms. The
     BAF is host to a multitude of EW test and evaluation (T&E) resources, to include threat signal
     generation, communication, navigation, and identification, as well as capabilities and
     instrumentation to monitor, measure, and control the test environment. The ITIP integrates and
     enhances existing ATIC EW T&E resources to create a “realistic” electromagnetic test
     environment with correlated time and space effects in the RF spectrum. This virtual and
     constructive warfare T&E environment will be used in the development, test, and evaluation of
     highly advanced, integrated weapon systems.

     In FY10 the ITIP achieved the pinnacle of milestones – achieving operational status. The
     transition and turnover of the ITIP “system” to the using organization, 772d Test Squadron, was
     finalized in March 2010. This marked the end of a very successful improvement and
     modernization program within the EW Group. The ITIP not only provided a very much
     anticipated and needed test capability, but also upgraded several key elements of the BAF T&E
     infrastructure. First and foremost, the ITIP consolidated and upgraded the BAF test control room
     (TCR). Previous to the ITIP, test execution and control in the BAF was conducted from several
     sites. This was sufficient for small and simple test efforts. But as the complexity of the system
     under test (SUT) increased, so did the need for a greater ability to monitor, measure, analyze, and
     control the test environment. Under the ITIP, the BAF test operations center was expanded, a
     variety of equipment was collocated and replaced with state-of-the-art, and the new TCR became
     a reality. The TCR went operational in 2007. In concert with the upgrades to the TCR,
     improvements to the BAF capability to capture and process test data were also completed under
     the ITIP. Modifications to the data capture, processing, and analysis laboratory provided a
     number of improvements in operations efficiencies: 1) eliminating shared resources provided the
     ability to conduct real-time data capture and post-test data analysis simultaneously; 2)
     consolidating equipment racks freed up floor space to allow installation of additional work
     stations for data processing and analysis; 3) upgrades to computer hardware and software to
     permit faster and more integrated operations. The new data lab went operational in 2008.
     Overall, the ITIP has provided significant improvements in the way and means in which testing
     is conducted in the BAF. The major accomplishment of the ITIP was development of the ITIP
     architecture. The architecture was designed to meet the requirements of integrating a variety of
     stimulators, instrumentation and simulations that have been developed without the benefit of a
     unifying architecture dictating the individual designs. The overall objective of the ITIP
     architecture was to integrate and enhance the existing Electronic Combat Integrated Test (ECIT)



80
                                                   A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                            General Fund
                                                                  Required Supplementary Stewardship Information




Operational Systems Development:

The Air Force’s operational system efforts include projects in support of development
acquisition programs or upgrades. The F-22 Raptor program continued full rate production, and
will maintain its role as the key enabler of joint air dominance through an incremental
modernization program funded through Operational Systems Development activities. Through
FY 2010 167 aircraft have been delivered. Increment 2 is resident in delivered aircraft and
represents the first upgrade over initial operational capability. The modernization program will
enhance the air vehicle, engine, and training systems to improve F-22A weapons,
communications, and Intelligence Surveillance Reconnaissance (ISR) capabilities to further
enhance Global Strike capabilities. FY 2010 activities included development of the Increment 3
suite. DT is essentially finished and FOT&E 3 will begin early in CY 2011. A Capability
Requirements Review (CRR) for Increment 3.2 focused on dramatically improving the F-22A
Raptor’s Air-to-Air and Air-to-Ground attack capabilities with AIM-9X, AIM-120D, full, Small
Diameter Bomb capability, electronic protection updates.

The Advanced Medium Range Air-to-Air Missile (AMRAAM) Phase 3 (AIM-120C-7) was
approved for fielding in December 2007. Production for this variant began in 4th Quarter,
FY 2004, and was completed in 3rd Quarter, FY 2009. The AIM-120C-7 provides a major
upgrade over the AIM-120C-6 guidance section, particularly in the use of circular processor
cards over previously used rectangular cards. These cards provide significant space savings
within the missile for added capability, in addition to providing greater processing power.

AMRAAM Phase 4 (AIM-120D) builds on the AIM-120C-7 capability and is progressing. This
new AIM-120D missile will add a GPS/INU and a 2-way Data Link to enhance accuracy and
control, and thus, increase weapon effectiveness. In addition, the AIM-120D will have increased
range and third party targeting which expands the High Off-boresight launch envelope. The
SDD contract was awarded in December 2003. Captive flight testing is going-on on the F/A-
18C/D and F-15C/D. EMD was accomplished in September 2009 with the completion of the
Functional Configuration Audit (FCA). Proof-of-design units and proof-of-manufacturing units
are being used to support simulation/integration labs, production test equipment development,
and ground and flight tests. Production for AIM-120D started in 2nd Quarter, FY 2009 and will
continue through FY 2024. Operational testing began in Jan 10 with a combined DT/OT
program to mature missile and aircraft operational flight programs (OFP). Two of three DT/OT
shots were successfully accomplished – one a direct hit and the other a lethal fuze. The third
DT/OT shot and the Operational Test Readiness Review (OTRR) has been delayed until several
issues have been resolved and the program receives Program Executive Officer (PEO) approval
to proceed.

The Small Diameter Bomb II (SDB II) program is a joint Air Force/Navy interest program that
will use a tri-mode seeker and weapon data link to fill a critical capability gap by providing a
stand-off, target classification and in-weather capability against moving targets. The SDB II
weapon program will retain the SDB I legacy capability against fixed surface target, improved
GPS anti-jam capability and denied sanctuary of weather for adversary moving targets. The
42-month Risk Reduction competition between two contractors that commenced in May 2006 to


                                                                                                                   81
                 General Fund
                 Required Supplementary Stewardship Information




     mature critical technologies for an all-up-round design ended in October 2009. Following the
     Risk Reduction Phase, a single contractor was selected to complete an approximately 59 month
     EMD contract with production options. The Milestone B review occurred 27 Jul 2010, with
     Critical Design Review scheduled for the first half of FY11. Production for SDB II is scheduled
     to start FY 2014 and continue through FY2023. Required Assets Available on the F-15E is
     planned for FY2016.

     The SDB I Focused Lethality Munition (FLM), a variant of SDB I, is a Joint Capabilities
     Technology Development (JCTD) program that effectively demonstrates the military utility for
     prosecuting high-value targets by generating near-field blast effects in a high collateral risk
     environment. The SDB I FLM has a composite-cased warhead with a Multi-phase Blast
     Explosive to reduce fragmentation effects while increasing blast effects. This low collateral
     damage warhead was integrated into the SDB I weapon. The Military Utility Assessment was
     successfully completed in June 2008 with positive feedback in all areas. The FLM capability
     will increase combatant commanders’’ strike options, particularly in an urban environment,
     while decreasing collateral damage risk. This JCTD fully leverages the SDB I program to
     facilitate rapid acquisition, with delivery of 50 residual assets in February 2008. An additional
     100 residual assets were delivered in FY10, with the final 100 scheduled for delivery in FY11.

     Reaper (MQ-9) UAV Program

     The MQ-9 Reaper UAV program is continuing development of the capability to instantaneously
     derive and disseminate JDAM-quality coordinates from the aimpoint of its electro-optical/infra-
     red (EO/IR) full motion video sensor. Sensor improvements include development of a precise
     attitude reference system coupled with an off-the-shelf two color eye-safe laser
     rangefinder/designator plus development of an accurately timed metadata system. Aircraft will
     be modified with a new guidance system incorporating differential GPS. Fielding is scheduled
     to begin in FY13. Follow-on development will provide a capability for instantaneous JDAM-
     quality data for all pixels within the EO/IR image.

     Liberty Project Aircraft (MC-12W) program:

     In FY2010, the Air Force delivered 30 MC-12W aircraft to the warfighter for deployment to
     OEF/OIF. These aircraft are flown by three expeditionary reconnaissance squadrons and provide
     critical full motion video and signals intelligence information real-time to commanders and
     ground forces in Afghanistan and Iraq. The first aircraft was delivered seven months after
     contract award and deployed to OIF two months later. All 30 aircraft delivered to the theater
     within 13 months vastly increasing the amount of full motion video available and augmenting the
     U.S. Air Force’s unmanned aircraft. This delivery made the MC-12W the fastest weapon system
     delivered from concept to combat since World War II. As of 1 September 2010, the deployed
     Liberty aircraft have logged 6,877 combat sorties in direct support of CENTCOM.




82
                                                   A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                            General Fund
                                                                  Required Supplementary Stewardship Information




Global Hawk (RQ-4) Test program:

In FY2010 the Global Hawk flight test program moved sensor production acceptance criteria
flights to Beale AFB. This allowed the Combined Test Force to concentrate on development
flight testing at Edwards AFB. The first Block 40 aircraft completed initial envelope expansion
flight tests without the Radar Technology Insertion Program (RTIP) sensor in FY 2010. RTIP
sensor development flight testing on the Proteus aircraft will complete in the fall 2010. RTIP
sensor integration, ground checkout and acceptance testing on the Block 40 aircraft will follow.
In support of JUON 336, the Battle Field Airborne Communications Node (BACN) development
and flight testing was accelerated on two Block 20 aircraft in order to provide much needed
communications support to the warfighter. Those BACN aircraft are scheduled to deploy to
CENTCOM in the early fall.

Airborne Warning and Control System (AWACS)

The Airborne Warning and Control System (AWACS) aircraft continues to modernize its
mission capabilities to remain an effective airborne battle management and surveillance system
for command and control of combat forces. The Block 40/45 Upgrade improves the quality and
timeliness of sensor data for shooters, improves combat identification, supports a Single
Integrated Air Picture (SIAP) through multi-sensor integration, improves the AWACS
contribution to Time Critical Targeting via Data Link Infrastructure, improves electronic support
measures processing, and enables more effective, faster upgrades via an open system, Ethernet-
based architecture. Block 40/45 will begin modifying its first LRIP aircraft in Nov 2010. The
Next Generation Identification Friend or Foe (NGIFF) effort provides AWACS with a secure
Mode 5 capability. NGIFF continued software development for the Block 30/35 aircraft and
began development and operational testing. The Engineering and Manufacturing Development
(EMD) contract award for the Block 40/45 version of NGIFF is planned for Oct 2010. The
AWACS program completed technology development for the Diminishing Manufacturing
Sources (DMS) Replacement of Avionics for Global Operations and Navigation (DRAGON)
modification and plans to award an EMD contract in FY11. DRAGON’s EMD effort is a
cooperative development effort with the NATO AWACS program, which will provide aircraft
that satisfy international airspace and air traffic control mandates. The AWACS program is also
continuing risk reduction efforts on multiple fronts to satisfy the high bandwidth and Beyond
Line of Sight (BLOS) requirements of the battle space. These efforts will assure that AWACS
remains a relevant combat partner on the joint battlefield.




                                                                                                                   83
84
               A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10




General Fund
Fiscal Year 2010
Required Supplementary Information




                                                                      85
                          General Fund
                          Required Supplementary Information

Department of Defense
Department of the Air Force
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
For the periods ended September 30, 2010 and 2009           Research, Development,         Procurement                 Military Personnel
                                                               Test & Evaluation
($ in Thousands)

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

Unobligated balance, brought forward, October 1             $            3,712,166     $         20,879,564        $                353,862
Recoveries of prior year unpaid obligations                                601,152                  955,084                         203,541
Budget authority
   Appropriation                                                        28,325,046               41,983,395                      34,930,165
   Spending authority from offsetting collections
        Earned
            Collected                                                    3,512,846                  526,486                         396,411
            Change in receivables from Federal sources                     (26,791)                        375                      159,335
        Change in unfilled customer orders
            Advance received                                               (18,722)                      (7,933)                            0
            Without advance from Federal sources                           156,055                   (10,827)                         (3,726)
   Subtotal                                                             31,948,434               42,491,496                      35,482,185
Nonexpenditure transfers, net, anticipated and actual                     (216,994)                 (246,429)                       548,197
Permanently not available                                                 (623,881)               (1,571,613)                        (69,924)
Total Budgetary Resources                                   $           35,420,877     $         62,508,102        $             36,517,861

Status of Budgetary Resources:

Obligations incurred:
   Direct                                                   $           26,879,912     $         35,752,185        $             35,688,761
   Reimbursable                                                          3,715,291                  416,248                         481,016
   Subtotal                                                             30,595,203               36,168,433                      36,169,777
Unobligated balance:
   Apportioned                                                           4,451,289               25,261,775                         115,018
   Exempt from apportionment                                                      0                           0                             0
   Subtotal                                                              4,451,289               25,261,775                         115,018
Unobligated balance not available                                          374,385                 1,077,892                        233,066
Total status of budgetary resources                         $           35,420,877     $         62,508,100        $             36,517,861
Change in Obligated Balance:

Obligated balance, net
   Unpaid obligations, brought forward, October 1           $           11,145,820     $         32,496,279        $              2,507,076
   Less: Uncollected customer payments                                    (753,852)                  (90,785)                         86,560
   from Federal sources, brought forward, October 1
   Total unpaid obligated balance                                       10,391,968               32,405,494                       2,593,636
Obligations incurred net (+/-)                                          30,595,203               36,168,434                      36,169,777
Less: Gross outlays                                                    (29,709,162)              (38,889,186)                   (35,745,430)
Obligated balance transferred, net
   Actual transfers, uncollected customer                                         0                           0                             0
     payments from Federal sources (+/-)
   Total Unpaid obligated balance transferred, net                                0                           0                             0
Less: Recoveries of prior year unpaid obligations, actual                 (601,152)                (955,084)                       (203,541)
Change in uncollected customer                                            (129,264)                  10,452                        (155,609)
     payments from Federal sources (+/-)

Obligated balance, net, end of period
   Unpaid obligations                                                   11,430,709               28,820,443                       2,727,881
   Less: Uncollected customer payments (+/-)                              (883,116)                  (80,332)                        (69,049)
     from Federal sources (-)
   Total, unpaid obligated balance, net, end of period                  10,547,593               28,740,111                       2,658,832
Net Outlays

Net Outlays:
   Gross outlays                                                        29,709,162               38,889,186                      35,745,430
   Less: Offsetting collections                                          (3,494,123)                (518,553)                       (396,411)
   Less: Distributed Offsetting receipts                                          0                           0                             0
   Net Outlays                                              $           26,215,039     $         38,370,633        $             35,349,019


86
                                                       A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                                  General Fund
                                                                                   Required Supplementary Information



Family Housing & Military   Operations, Readiness &                   2010 Combined                         2009 Combined
      Construction                  Support




$              2,267,313    $             1,998,442               $          29,211,348                 $          26,676,890
                 110,274                  2,703,836                            4,573,888                             4,093,396


               2,881,112                 57,302,447                         165,422,165                           163,975,253




                    6,668                 5,859,999                          10,302,406                              9,302,479
                        0                    86,132                             219,051                               324,746


                  18,387                     18,051                                9,782                              147,616
                        0                   150,834                             292,336                                 80,913
               2,906,167                 63,417,463                         176,245,740                           173,831,007
                        0                     1,960                               86,734                              823,808
                (166,367)                (1,266,266)                          (3,698,050)                           (3,833,813)
$              5,117,387    $            66,855,435               $         206,419,660                 $         201,591,288




$              2,512,982    $            58,422,879               $         159,256,720                 $         162,319,819
                  16,473                  6,443,642                          11,072,669                            10,060,121
               2,529,455                 64,866,521                         170,329,389                           172,379,940


               2,505,309                    196,289                          32,529,681                            26,091,928
                        0                    13,729                               13,729                                 4,480
               2,505,309                    210,018                          32,543,410                            26,096,408
                  82,623                  1,778,895                            3,546,861                             3,114,940
$              5,117,387    $            66,855,434               $         206,419,660                 $         201,591,288




$              3,439,283    $            26,508,957               $          76,097,415                 $          67,813,258
                        0                (1,699,222)                          (2,457,299)                           (2,051,639)


               3,439,283                 24,809,735                          73,640,116                            65,761,619
               2,529,455                 64,866,521                         170,329,389                           172,379,940
              (2,180,579)               (61,320,922)                        (167,845,279)                         (160,002,387)


                        0                         0                                   (2)                                    0


                        0                         0                                   (2)                                    0
                (110,274)                (2,703,836)                          (4,573,888)                           (4,093,396)
                        0                  (236,966)                            (511,385)                             (405,660)




               3,677,885                 27,350,719                          74,007,637                            76,097,415
                        0                (1,936,188)                          (2,968,686)                           (2,457,299)


               3,677,885                 25,414,531                          71,038,951                            73,640,116




               2,180,579                 61,320,922                         167,845,279                           160,002,387
                 (25,055)                (5,878,049)                         (10,312,190)                           (9,450,094)
                        0                  (250,035)                            (250,035)                             (104,099)
$              2,155,524    $            55,192,838               $         157,283,054                 $         150,448,194


                                                                                                                            87
                  General Fund
                  Required Supplementary Information




     DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES

        x   The Air Force has performance measures based on missions and outputs.
            The Air Force is unable to accumulate costs for major programs based on those
            performance measures because its financial processes and systems were not designed
            to collect and report this type of cost information. Until the processes and systems are
            upgraded, the Air Force will break out programs by major appropriation groupings.

     STEWARDSHIP PLANT, PROPERTY, AND EQUIPMENT (PP&E)

                                        HERITAGE ASSETS
                             For Fiscal Year Ended September 30, 2010
               (a)                 (b)          (c)       (d)         (e)                (f)

          Heritage Asset       Measurement       As of                                  As of
            Categories          Quantity        9/30/09    Additions   Deletions       9/30/10
      Buildings and
      Structures                    Each         10,250        0         1,298          8,952
      Archaeological Sites
                                    Sites          1,848       347          0           2,195
      Museum Collection
      Items (Objects, Not
      Including Fine Art)          Each         122,201      5,047       1,492        125,756
      Museum Collection
      Items (Fine Art)             Each                        42           64          1,261
                                                1,283



     Heritage Assets are items of historical, natural, cultural, educational, or artistic significance
     (e.g., aesthetic), or items with significant architectural characteristics.

     1. Buildings and Structures

     As of September 30, 2010, the Air Force considers 8,952 buildings and structures as National
     Register of Historic Places (NRHP) listed and eligible “Heritage Assets.” Many of these are
     Capehart-Wherry Era (CWE) houses (3,886), which are subject to a 2008 nationwide Program
     Comment (with the Advisory Council on Historic Preservation) that allows the Air Force to
     demolish or otherwise remove all but three CWE houses from the Air Force Inventory.
     Demolition continues, with 1,298 CWE houses razed in FY 2010 (from the total 5,184
     reported at the end of FY 2009).

     The Air Force has 5,066 non-CWE buildings and structures considered Heritage Assets.
     Of these, 1,314 are listed on NRHP and 3,752 are eligible for listing on NRHP.


88
                                                    A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                              General Fund
                                                                               Required Supplementary Information




Beginning March 2007, Air Force successfully completed three service-wide data calls to
validate Heritage Asset information via populating the Automated Civil Engineer System-
Real Property (ACES-RP) database (i.e., Air Force’s Real Property Inventory). ACES-RP
now designates/classifies the historic status of heritage assets (~11,000 historic buildings,
structures, and districts) and appears to meet requirements. ACES-RP was initially designed
to identify only those heritage assets/historic properties that were nominated and formally
listed on the NRHP. Heritage assets now are considered listed and eligible buildings and
structures. ACES-RP contains validated heritage asset data for 12 Historic Status Codes
defined by the DoD.

Heritage Asset buildings and structures are maintained by each base civil engineering group
and are considered to be in good condition. These buildings and structures are subject to
National Historic Preservation Act, Section 106 review and consultation requirements
whenever Air Force undertakings might affect their historic characteristics. Section 106
reviews ensure State Historic Preservation Officers, tribal, and other party concerns are taken
into account when Air Force decides to adversely affect Heritage Asset buildings and
structures.

2. Archaeological Sites

As of September 30, 2010, the Air Force has 2,195 archaeological sites listed on or eligible
for listing on the NRHP. Eligible and listed sites (Heritage Assets) are protected from
vandalism and looting, and are maintained in good condition on Air Force installations.
Heritage Asset archaeological sites are subject to NRHP Section 106 review and consultation
when affected by Air Force undertakings. Section 106 reviews ensure State Historic
Preservation Officers, tribal, and other party concerns are taken into account when Air Force
decides to adversely affect Heritage Asset archaeological sites. All Heritage Asset and
unevaluated archaeological sites are managed to prevent significant losses due to erosion and
other natural causes.

The table shows 347 archaeological sites were added to the heritage asset list during FY 2010.

3. Museum Collection Items, Objects Not Including Fine Art

This represents the number of objects which meet the criteria for historical property as
defined in Air Force Instruction 84-103 and that have been evaluated, accessioned, and
catalogued in the Air Force national historic collection. The National Museum of the United
States Air Force (NMUSAF) performs inherently governmental functions by fulfilling
statutory requirements properly delegated by the Secretary of the Air Force for management
of the Air Force’s national historic collection. During FY 2010, 5,047 objects have been
added to the collection. These additions are a result of private donations, transfers from other
federal entities, curatorial administrative actions, and the documentation of previously
unreported artifacts at Air Force activities worldwide. New accessions include significant
artifacts from current operations in Iraq and Afghanistan. One-thousand, four-hundred and
ninety-two objects were deaccessioned from the collection as having been determined not to


                                                                                                                    89
                 General Fund
                 Required Supplementary Information




     meet historic property criteria, were in poor condition, or were transferred to other federal
     historical activities.

     The overall condition of the historic collection, which is primarily located at the NMUSAF, is
     very good as a result of both the professional care from trained conservators and constantly
     improving exhibit/storage conditions. During FY 2010 restoration were completed on the
     museum’s F-84E “Thunderjet” which is now a centerpiece exhibit in the newly completed
     Korean War Gallery. Detailed restoration work has continued on the iconic Boeing B-17D
     “Swoose” and Boeing B-17F “Memphis Belle.” Work has also commenced on a Sikorsky
     HH-3 “Jolly Green Giant” helicopter with a notable combat history as part of the museum’s
     upgrade of the War in Southeast Asia Gallery.

     4.   Museum Collection Items, Fine Art

     The art collection contains original oils, drawings, sketches and sculptures. Since the last
     report the Air Force Art Collection has received 42 newly donated paintings. Sixty-four items
     were determined not to meet fine art criteria and transferred to reference library holdings or
     were transferred to other federal historical activities.

     The collection is maintained and kept in good condition. Each year during the annual
     inventory, Air Force Art Program Office requests the condition of the paintings as well.
     Maintenance continues to be a constant.




90
                                                   A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                            General Fund
                                                                             Required Supplementary Information




Stewardship Land

                                   STEWARDSHIP LAND
                          For Fiscal Year Ended September 30, 2010
                                     (Acres in Thousands)

    (a)                  (b)                     (c)           (d)           (e)         (f)
  Facility                                      As of                                   As of
   Code              Facility Title            9/30/09      AdditionsDeletions         9/30/10
 9110        Government Owned Land                 1,501          181        0            1,682
 9111        State Owned Land                           0           0        0                 0
 9120        Withdrawn Public land                 7,587           20        0            7,607
 9130        Licensed and Permitted Land             138           95        0               233
 9140        Public Land                             191            1        0               192
 9210        Land Easement                           109           53        0               162
 9220        In-leased Land                            86           6        0                92
 9230        Foreign Land                            290           31        0               321
                                                                   Grand Total           10,289
                                                            TOTAL - All Lands             2,490
                                                     TOTAL – Stewardship Lands            7,799

Stewardship Land represents land rights owned by the Federal Government but not acquired
for, or in connection with, items of General Property, Plant, and Equipment (PP&E).
“Acquired for or in connection with” is defined as including land acquired with the intent to
construct general PP&E and land acquired in combination with general PP&E. Without
exception, all land provided to the Air Force from the public domain, or at no cost, shall be
classified as Stewardship Land, regardless of its use.

The Air Force has 7,799,000 acres of mission-essential Stewardship Land under its
administration. Land purchased by the Air Force with the intent to construct buildings or
facilities is considered PP&E and is reported on the balance sheet. All stewardship land,
as reported, is in acceptable condition, based on designated use.




                                                                                                                  91
              General Fund
              Required Supplementary Information




     REAL PROPERTY DEFERRED MAINTENANCE

                                         Real Property Deferred Maintenance
                                       For Fiscal Year Ended September 30, 2010
                                                 (In Millions of Dollars)
      Property Type                                           Current Fiscal Year (CFY)
                                      1. Plant Replacement      2. Required Work             3. Percentage
                                              Value           Deferred Maintenance)
      1. Category 1: Buildings,
      Structures, and Utilities
      (Enduring Facilities)                        $136,698                  $21,693             16%
      2. Category 2: Buildings,
      Structures, and Utilities
      (Excess Facilities or
      Planned for Replacement)
                                                     $1,547                     $768             50%
      3. Category 3: Buildings,
      Structures, and Utilities
      (Heritage Assets)                              $9,585                   $1,031             11%

     Use of Q-Rating versus Facilities Sustainment Model (FSM) to reflect Deferred Sustainment

     The use of Q-Rating as a basis for calculated deferred maintenance is not prudent. The Service’s
     Q-Rating database has not sufficiently matured compared with the FSM dataset.

     At this stage of Q-Rating planning and development, facility Q-Ratings cannot be readily tied to
     actual obligations nor do they provide a consistent service-wide metric based on commercial
     standards.

     Based on previous submissions, the use of FSM to benchmark facility requirements has proven
     itself in the Air Force Corporate Structure (AFCS) process by yielding data constancy and high
     fidelity. FSM can be linked to actual obligations, is consistent across the services, and uses
     commercial standards in its development, which provides the stability and credibility needed to
     defend program funding requirements in AFCS.

     The inclusion of the “A” factor to represent “acceptable operating condition” is not currently valid.
     At this time, there is no dataset which can be used to underpin target Q-Rating percentages or to
     identify acceptable operating conditions for specific Air Force facilities.

     At A=100%, the FY 2010 accumulated deferred sustainment based on Q-Ratings is $21.7 billion as
     noted above. Although a backlog of $21.7 billion obviously appears significant, this considerably
     large requirement adds little value to AFCS decision-making process. From our experience, AFCS
     will immediately question such a large backlog if used to defend our budget shortfalls. Variable
     "A" factors would need to be developed to make the proposed deferred maintenance concept
     feasible.
92
                                                 A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                                                                       General Fund
                                                                        Required Supplementary Information




                                 Military Equipment Deferred
                                         Maintenance
                                    For Fiscal Year Ended
                                      September 30, 2010
                                    (in Millions of Dollars)
Major                                                            OP30
Categories                                                       Amounts  Adjustments Total
1. Aircraft                                                        $1,189         $0 $1,189
2 Automotive
Equipment                                                               $19             $0       $19
3. Combat
Vehicles                                                                 $0             $0        $0
4. Construction
Equipment                                                                $0             $0        $0
5. Electronic and Communications Systems                                $66             $0       $66
6. Missiles                                                             $49             $0       $49
7.Ships                                                                  $0             $0        $0
8. Ordnance Weapons and
Munitions                                                               $20             $0    $20
9. General Purpose Equipment                                             $9             $0     $9
10. All Other Items Not Identified to Above Categories                   $7             $0     $7
Total                                                                $1,359             $0 $1,359

The figures presented are projected deferred maintenance amounts for FY 2010 as reported in the
FY 2012 Program Budget Review. FY 2010 Overseas Contingency Operations (OCO) supplemental
actual is not available, but projected OCO funding is used in calculating projected
unfunded/deferred. Adjustment totals include Deferred Funding for Contract Logistics Support
which may include more than just maintenance. These totals presently cannot be broken out by
major categories.




                                                                                                             93
94
                A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10




General Fund
Fiscal Year 2010
Audit Opinion




                                                                       95
     General Fund
     Audit Opinion




96
A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                    General Fund
                                        Audit Opinion




                                                        97
     General Fund
     Audit Opinion




98
A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                    General Fund
                                        Audit Opinion




                                                        99
      General Fund
      Audit Opinion




100
A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                    General Fund
                                        Audit Opinion




                                                        101
      General Fund
      Audit Opinion




102
A N N U A L F I N A N C I A L S TAT E M E N T 2 0 10
                                    General Fund
                                        Audit Opinion




                                                        103
      General Fund
      Audit Opinion




104
                                         A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0




Working Capital Fund
Principal Statements
Fiscal Year 2010
The FY 2010 Department of the Air Force Working Capital Fund Principal Statements
and related notes are presented in the format prescribed by the Department of Defense
Financial Management Regulation 7000.14-R, Volume 6B. The statements and related notes
summarize financial information for individual activity groups and activities within the
Working Capital Fund for the fiscal year ending September 30, 2010, and are presented on
a comparative basis with information previously reported for the fiscal year ending
September 30, 2009.

The following statements comprise the Department of the Air Force Working Capital Fund
Principal Statements:

Consolidated Balance Sheet
The Consolidated Balance Sheet presents as of September 30, 2010 and 2009 those
resources owned or managed by the Air Force which are available to provide future
economic benefits (assets); amounts owed by the Air Force that will require payments
from those resources or future resources (liabilities); and residual amounts retained by
the Air Force, comprising the difference (net position).

Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost presents the net cost of the Air Force’s operations
for the years ended September 30, 2010 and 2009. The Air Force’s net cost of operations
includes the gross costs incurred by the Air Force less any exchange revenue earned from
Air Force activities.

Consolidated Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position presents the change in the
Air Force’s net position resulting from the net cost of Air Force’s operations, budgetary
financing sources other than exchange revenues, and other financing sources for the years
ended September 30, 2010 and 2009.

Combined Statement of Budgetary Resources
The Combined Statement of Budgetary Resources presents the budgetary resources
available to the Air Force during FY 2010 and 2009, the status of these resources at
September 30, 2010 and 2009, and the outlay of budgetary resources for the years ended
September 30, 2010 and 2009.

The Principal Statements and related notes have been prepared to report financial position
pursuant to the requirements of the Chief Financial Officers Act of 1990, the Government
Management Reform Act of 1994, and the Office of Management and Budget’s Circular
A-136, “Financial Reporting Requirements.”

                                                                                                 105
                   Working Capital Fund
                   Principal Statements

 Department of Defense
 Air Force Working Capital Fund
 CONSOLIDATED BALANCE SHEET
 As of September 30, 2010 and 2009
     ($ in Thousands)

                                                                                      2010 Consolidated               2009 Consolidated

      ASSETS (Note 2)
           Intragovernmental:
             Fund Balance with Treasury (Note 3)                                 $                    311,557     $                697,367
             Accounts Receivable (Note 5)                                                             819,796                      718,662
             Other Assets (Note 6)                                                                           0                        420
             Total Intragovernmental Assets                                      $                  1,131,353     $              1,416,449


           Accounts Receivable,Net (Note 5)                                                            13,057                      152,109
           Inventory and Related Property,Net (Note 9)                                             28,294,357                   30,059,338
           General Property, Plant and Equipment,Net (Note 10)                                      1,353,836                    1,293,737
           Other Assets (Note 6)                                                                      525,087                      402,703
      TOTAL ASSETS                                                               $                 31,317,690     $             33,324,336
  STEWARDSHIP PROPERTY, PLANT & EQUIPMENT (Note 10)


      LIABILITIES (Note 11)
           Intragovernmental:
             Accounts Payable (Note 12)                                          $                    144,788     $                153,539
             Other Liabilities (Note 15 & 16)                                                          18,180                       13,531
             Total Intragovernmental Liabilities                                 $                    162,968     $                167,070


           Accounts Payable (Note 12)                                            $                    715,535     $                796,397
           Military Retirement and Other Federal                                                      198,905                      193,710
           Employment Benefits (Note 17)
           Other Liabilities (Note 15 and Note 16)                                                    429,769                      496,773
      TOTAL LIABILITIES                                                          $                  1,507,177     $              1,653,950


  COMMITMENTS AND CONTINGENCIES (NOTE 16)
      NET POSITION
         Unexpended Appropriations - Other Funds                                                       24,173                        1,016
         Cumulative Results of Operations - Other Funds                                            29,786,340                   31,669,370
      TOTAL NET POSITION                                                         $                 29,810,513     $             31,670,386


      TOTAL LIABILITIES AND NET POSITION                                         $                 31,317,690     $             33,324,336




                                     The accompanying notes are an integral part of these financial statements.
106
                                                                 A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                                      Working Capital Fund
                                                                                                                 Principal Statements


Department of Defense
Air Force Working Capital Fund
CONSOLIDATED STATEMENT OF NET COST
For the periods ended September 30, 2010 and 2009
    ($ in Thousands)
                                                                                       2010 Consolidated             2009 Consolidated


 Program Costs
      Gross Costs                                                                  $             11,822,543      $           10,534,391
       Operations, Readiness & Support                                                           11,822,543                  10,534,391


      (Less: Earned Revenue)                                                                    (10,328,350)                 (10,380,069)
      Net Cost before Losses/(Gains) from Actuarial Assumption Changes                            1,494,193                     154,322
      for Military Retirement Benefits
 Net Cost of Operations                                                            $              1,494,193      $              154,322




                                    The accompanying notes are an integral part of these financial statements.
                                                                                                                                         107
                   Working Capital Fund
                   Principal Statements


Department of Defense
Air Force Working Capital Fund
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the periods ended September 30, 2010 and 2009
    ($ in Thousands)

                                                         2010 Earmarked Funds              2010 All Other Funds               2010 Eliminations

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                   $                            0    $                 31,669,370       $                       0
Prior Period Adjustments:
  Corrections of errors (+/-)                                                     0                                  0                            0
Beginning balances, as adjusted                                                   0                      31,669,370                               0
Budgetary Financing Sources:
  Appropriations used                                                             0                            46,100                             0
  Transfers-in/out without reimbursement                                          0                           (297,535)                           0
Other Financing Sources:
  Transfers-in/out without reimbursement (+/-)                                    0                           (310,795)                           0
  Imputed financing from costs absorbed by others                                 0                           188,664                             0
  Other (+/-)                                                                     0                            (15,271)                           0
Total Financing Sources                                                           0                           (388,837)                           0
Net Cost of Operations (+/-)                                                      0                       1,494,193                               0
Net Change                                                                        0                      (1,883,030)                              0
Cumulative Results of Operations                                                  0                      29,786,340                               0
UNEXPENDED APPROPRIATIONS
Beginning Balances                                   $                            0    $                         1,016    $                       0
Beginning balances, as adjusted                                                   0                              1,016                            0
Budgetary Financing Sources:
  Appropriations received                                                         0                            69,443                             0
  Other adjustments (rescissions, etc)                                            0                               (186)                           0
  Appropriations used                                                             0                            (46,100)                           0
Total Budgetary Financing Sources                                                 0                            23,157                             0
Unexpended Appropriations                                                         0                            24,173                             0
Net Position                                                                      0                      29,810,513                               0




                                 The accompanying notes are an integral part of these financial statements.
108
                                                                  A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                                       Working Capital Fund
                                                                                                                      Principal Statements




    2010 Consolidated        2009 Earmarked Funds         2009 All Other Funds              2009 Eliminations             2009 Consolidated



$             31,669,370 $                         0 $                  35,253,245 $                              0 $                 35,253,245


                        0                          0                     (3,420,275)                              0                   (3,420,275)
              31,669,370                           0                    31,832,970                                0                   31,832,970


                  46,100                           0                         61,697                               0                          61,697
                (297,535)                          0                       (251,274)                              0                     (251,274)


                (310,795)                          0                        (64,772)                              0                      (64,772)
                 188,664                           0                        151,466                               0                      151,466
                 (15,271)                          0                         93,605                               0                          93,605
                (388,837)                          0                         (9,278)                              0                          (9,278)
               1,494,193                           0                        154,322                               0                      154,322
              (1,883,030)                          0                       (163,600)                              0                     (163,600)
              29,786,340                           0                    31,669,370                                0                   31,669,370


$                  1,016 $                         0 $                        1,248 $                             0 $                        1,248
                   1,016                           0                          1,248                               0                          1,248


                  69,443                           0                         61,465                               0                          61,465
                    (186)                          0                               0                              0                               0
                 (46,100)                          0                        (61,697)                              0                      (61,697)
                  23,157                           0                           (232)                              0                           (232)
                  24,173                           0                          1,016                               0                          1,016
              29,810,513                           0                    31,670,386                                0                   31,670,386




                                     The accompanying notes are an integral part of these financial statements.
                                                                                                                                              109
                       Working Capital Fund
                       Principal Statements

 Department of Defense
 Air Force Working Capital Fund
 COMBINED STATEMENT OF BUDGETARY RESOURCES
 For the periods ended September 30, 2010 and 2009
     ($ in Thousands)

                                                                                                       2010 Combined                  2009 Combined

 BUDGETARY FINANCING ACCOUNTS
 BUDGETARY RESOURCES
 Unobligated balance, brought forward, October 1                                                  $                373,638        $             343,595
 Recoveries of prior year unpaid obligations                                                                           33,765                     89,013
 Budget authority
      Appropriation                                                                                                    69,443                     61,465
      Contract authority                                                                                          7,757,396                    7,255,839
      Spending authority from offsetting collections
          Earned
             Collected                                                                                           11,598,599                   11,599,508
             Change in receivables from Federal sources                                                                (13,963)                  (62,179)
          Change in unfilled customer orders
             Advance received                                                                                          (11,153)                  (98,643)
             Without advance from Federal sources                                                                  206,018                      (247,280)
      Subtotal                                                                                                   19,606,340                   18,508,710
 Nonexpenditure transfers, net, anticipated and actual                                                             (297,535)                    (251,274)
 Permanently not available                                                                                       (7,103,433)                  (7,078,077)
 Total Budgetary Resources                                                                        $              12,612,775       $           11,611,967
 Status of Budgetary Resources:
 Obligations incurred:
      Reimbursable                                                                                               12,080,367                   11,238,329
      Subtotal                                                                                                   12,080,367                   11,238,329
 Unobligated balance:
      Exempt from apportionment                                                                                    532,408                      373,638
      Subtotal                                                                                                     532,408                      373,638
 Total status of budgetary resources                                                              $              12,612,775       $           11,611,967
 Change in Obligated Balance:
 Obligated balance, net
      Unpaid obligations, brought forward, October 1                                              $               7,522,917       $            7,946,887
      Less: Uncollected customer payments                                                                        (3,701,113)                  (4,010,572)
      from Federal sources, brought forward, October 1
      Total unpaid obligated balance                                                                              3,821,804                    3,936,315
 Obligations incurred net (+/-)                                                                                  12,080,367                   11,238,329
 Less: Gross outlays                                                                                            (11,744,979)                 (11,573,286)
 Less: Recoveries of prior year unpaid obligations, actual                                                             (33,765)                  (89,013)
 Change in uncollected customer                                                                                    (192,055)                    309,459
       payments from Federal sources (+/-)
 Obligated balance, net, end of period
      Unpaid obligations                                                                                          7,824,540                    7,522,917
      Less: Uncollected customer payments                                                                        (3,893,168)                  (3,701,113)
              from Federal sources (-)
      Total, unpaid obligated balance, net, end of period                                                         3,931,372                    3,821,804
 Net Outlays
 Net Outlays:
      Gross outlays                                                                                              11,744,979                   11,573,286
      Less: Offsetting collections                                                                              (11,587,446)                 (11,500,865)
      Net Outlays                                                                                 $                157,533        $               72,421



                                          The accompanying notes are an integral part of these financial statements.
110
                                       A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0




Working Capital Fund
Fiscal Year 2010
Notes to the Principal Statements
Notes to the financial statements communicate information essential for fair presentation
of the financial statements that is not displayed on the face of the financial statements.




                                                                                               111
  Note 1.          Significant Accounting Policies

  1.A. Basis of Presentation
  These financial statements have been prepared to report the financial position and results of operations of the Air Force Working
  Capital Fund (AFWCF), as required by the Chief Financial Officers Act of 1990, expanded by the Government Management
  Reform Act of 1994, and other appropriate legislation. The financial statements have been prepared from the books and records
  of the AFWCF in accordance with, and to the extent possible, U.S. generally accepted accounting principles (USGAAP)
  promulgated by the Federal Accounting Standards Advisory Board; the Office of Management and Budget (OMB) Circular
  No. A-136, Financial Reporting Requirements; and the Department of Defense (DoD), Financial Management Regulation (FMR).
  The accompanying financial statements account for all resources for which the AFWCF is responsible unless otherwise noted.

  The AFWCF is unable to fully implement all elements of USGAAP and the OMB Circular No.
  A-136, due to limitations of financial and nonfinancial management processes and systems that support the financial statements.
  The AFWCF derives reported values and information for major asset and liability categories largely from nonfinancial systems,
  such as inventory and logistic systems. These systems were designed to support reporting requirements for maintaining
  accountability over assets and reporting the status of federal appropriations rather than preparing financial statements in
  accordance with USGAAP. The AFWCF continues to implement process and system improvements addressing these limitations.

  The AFWCF currently has eight auditor identified financial statement material weaknesses: (1) financial and nonfinancial feeder
  systems do not contain an adequate audit trail for the proprietary and budgetary accounts, (2) AFWCF may have material
  amounts of account adjustments that are not adequately supported, (3) AFWCF cannot accurately identify all intragovernmental
  transactions by customer, which is required for eliminations when preparing consolidated financial statements, (4) the value of the
  AFWCF government furnished and contractor acquired materiel and equipment may not be accurately reported, (5) AFWCF
  General Property, Plant, and Equipment (PP&E) may not be accurately valued, (6) operating materiels and supplies (OM&S) are
  not reflected at historical cost, (7) cost of goods sold and work in progress are not recorded in accordance with the Statement of
  Federal Financial Accounting Standards (SFFAS)
  No. 3, Accounting for Inventory and Related Property, and (8) supply management systems do not provide sufficient audit trails to
  confirm and value the in transit inventory reported as part of inventory held for sale on the Consolidated Balance Sheet.

  1.B. Mission of the Reporting Entity
  The United States Air Force was created on September 18, 1947, by the National Security Act of 1947. The National Security Act
  Amendments of 1949 established the DoD and made the Air Force a department within DoD. The overall mission of the United
  States Air Force is to fly, fight and win...in air, space and cyberspace. Our priorities are:
  (1) continue to strengthen the nuclear enterprise, (2) partner with Joint and Coalition team to win today’s fight, (3) develop and
  care for Airmen and their families, (4) modernize our air and space inventories, organizations, and training, and (5) recapture
  acquisition excellence.

  The stock and industrial revolving fund accounts were created by the National Security Act of 1947, as amended in 1949 and
  codified in United States Code 10 Section 2208. The revolving funds were established as a means to more effectively control the
  cost of work performed by DoD. The DoD began operating under the revolving fund concept on July 1, 1951.

  Effective FY 2009, AFWCF operations consist of two major activity groups: Consolidated Sustainment Activity Group (CSAG) and
  the Supply Management Activity Group – Retail (SMAG-R). All AFWCF CSAG and SMAG-R activities establish rates based on
  full cost recovery. If an operating loss or gain is incurred, the activity will make the appropriate adjustment in following years’
  prices to recoup the loss or return the gain to their customers.

  The mission of CSAG is supply management of reparable and consumable items, and maintenance activities. The CSAG
  combines the activities of the previous Material Support Division (MSD) of the Supply Management Activity Group and the Depot
  Maintenance Activity Group (DMAG). Under CSAG, business operations formerly known as DMAG are now related to the
  Maintenance Division. Likewise, business operations formerly known as MSD are now referred to as the Supply Division.

  Supply Division activities of CSAG are authorized to procure and manage reparable and consumable items for which the Air Force
  is the Inventory Control Point. The Supply Division manages more than 106 thousand items that are generally related to weapon
  systems and ground support, and include both depot level reparables and non-depot level reparables.




112
                                                             A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0



Maintenance Division activities of CSAG are authorized to perform: (a) overhaul, conversion, reclamation, progressive
maintenance, modernization, software development, storage, modification, and repair of aircraft, missiles, engines, accessories,
components, and equipment; (b) the manufacture of parts and assemblies required to support the foregoing; and (c) the furnishing
of other authorized services or products for the Air Force and other agencies of the DoD. As directed by the Air Force Materiel
Command or higher authority, the Maintenance Division may furnish the above mentioned products or services to agencies of
other departments or instrumentalities of the U.S. Government, and to private parties and other agencies, as authorized by law.

The SMAG-R consists of three business divisions: General Support Division (GSD), Medical-Dental Division, and Air Force
Academy Division. GSD procures and manages nearly 1.1 million consumable supply items related to maintenance, flying hour
program, and installation functions. The majority are used in support of field and depot maintenance of aircraft, ground and
airborne communication systems, and other support systems and equipment. The Medical-Dental Division procures and
manages nearly 9 thousand different medical supply items and equipment necessary to maintain an effective Air Force Health
Care system for the active military, retirees and their dependents. The Air Force Academy Division procures and manages a retail
inventory of uniforms, academic supplies and other recurring issue requirements for the Cadet Wing of the United States Air Force
Academy. Inventory procurement is only for mandatory items as determined by the Cadet Uniform Board.

1.C. Appropriations and Funds
The AFWCF receives appropriations and funds as general and working capital (revolving) funds. The AFWCF uses these
appropriations and funds to execute its missions and subsequently report on resource usage.

Working Capital Funds (WCF) received funding to establish an initial corpus through an appropriation or a transfer of resources
from existing appropriations or funds. The corpus finances operations and transactions that flow through the fund. The WCF
resources the goods and services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable receipts
fund future operations and generally are available in their entirety for use without further congressional action. At various times,
Congress provides additional appropriations to supplement WCF as an infusion of cash when revenues are inadequate to cover
costs within the corpus.

1.D. Basis of Accounting
The AFWCF financial management systems are unable to meet all full accrual accounting requirements. Many of the AFWCF
financial and nonfinancial feeder systems and processes were designed and implemented prior to the issuance of USGAAP.
These systems were not designed to collect and record financial information on the full accrual accounting basis as required by
USGAAP. Most of AFWCF’s financial and nonfinancial legacy systems were designed to record information on a budgetary basis.

The AFWCF financial statements and supporting trial balances are compiled from the underlying financial data and trial balances
of the AFWCF and their sub-entities. The underlying data is largely derived from budgetary transactions (obligations,
disbursements, and collections), from nonfinancial feeder systems, and accruals made for major items such as payroll expenses,
accounts payable, and environmental liabilities. Some of the sub-entity level trial balances may reflect known abnormal balances
resulting largely from business and system processes. At the consolidated Military Service and Defense Agency level these
abnormal balances may not be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only to the
extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into compliance
with USGAAP. One such action is the current revision of accounting systems to record transactions based on the U.S. Standard
General Ledger (USSGL). Until all AFWCF’s financial and nonfinancial feeder systems and processes are updated to collect and
report financial information as required by USGAAP, AFWCF’s financial data will be derived from budgetary transactions, data
from nonfinancial feeder systems, and accruals.

1.E. Revenues and Other Financing Sources
The CSAG Maintenance Division recognizes revenue according to the percentage of completion method. The CSAG Supply
Division and SMAG-R recognize revenue based on flying hours executed and the sale of inventory items.

1.F. Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Current
financial and nonfinancial feeder systems were not designed to collect and record financial information on the full accrual
accounting basis. Estimates are made for major items such as payroll expenses, accounts payable, and unbilled revenue.
In the case of Operating Materiel and Supplies (OM&S), the consumption method is used. Under the consumption method,




                                                                                                                                 113
                 Working Capital Fund
                 Notes to the Principal Statements


  OM&S would be expensed when consumed. Due to system limitations, in some instances expenditures for capital and other long-
  term assets may be recognized as operating expenses. The AFWCF continues to implement process and system improvements
  to address these limitations.

  1.G. Accounting for Intragovernmental Activities
  Accounting standards require that an entity eliminates intraentity activity and balances from consolidated financial statements in
  order to prevent overstatement for business with itself. However, the AFWCF cannot accurately identify intragovernmental
  transactions by customer because AFWCF’s systems do not track buyer and seller data at the transaction level. Generally, seller
  entities within the DoD provide summary seller-side balances for revenue, accounts receivable, and unearned revenue to the
  buyer-side internal DoD accounting offices. In most cases, the buyer-side records are adjusted to agree with DoD seller-side
  balances and are then eliminated. The DoD is implementing replacement systems and a standard financial information structure
  that will incorporate the necessary elements that will enable DoD to correctly report, reconcile, and eliminate intragovernmental
  balances.

  The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide and Treasury Financial Manual Part 2 –
  Chapter 4700, Agency Reporting Requirements for the Financial Report of the United States Government, provide guidance for
  reporting and reconciling intragovernmental balances. While AFWCF is unable to fully reconcile intragovernmental transactions
  with all federal agencies, AFWCF is able to reconcile balances pertaining to Federal Employees’ Compensation Act transactions
  with the Department of Labor, and benefit program transactions with the Office of Personnel Management.

  The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The Federal
  Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements do not report any
  public debt, interest or source of public financing, whether from issuance of debt or tax revenues.

  Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing ultimately
  may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S. Treasury
  does not allocate such costs to DoD.

  1.H. Transactions with Foreign Governments and International Organizations
  Each year, AFWCF sells defense articles and services to foreign governments and international organizations under the
  provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell defense articles and
  services to foreign countries and international organizations generally at no profit or loss to the Federal Government. Payment in
  U.S. dollars is required in advance.

  1.I. Funds with the U.S. Treasury
  The AFWCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of Defense Finance and
  Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE), and the Department of State’s
  financial service centers process the majority of the AFWCF’s cash collections, disbursements, and adjustments worldwide. Each
  disbursing station prepares monthly reports to the U.S. Treasury on checks issued, electronic fund transfers, interagency
  transfers, and deposits.

  In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency transfers,
  collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable Fund Balance
  with Treasury (FBWT) account. On a monthly basis, AFWCF’s FBWT is adjusted to agree with the U.S. Treasury accounts.

  1.J. Foreign Currency
  Not applicable.

  1.K. Accounts Receivable
  Accounts receivable from other federal entities or the public include: accounts receivable, claims receivable, and refunds
  receivable. Based upon analysis of past collection experience, AFWCF does not recognize allowances for uncollectible accounts
  due from the public. AFWCF policy is that all Nonfederal Receivables (From the Public) are collected. The DoD does not
  recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal agencies
  are to be resolved between the agencies in accordance with dispute resolution procedures defined in the Intragovernmental
  Business Rules published in the Treasury Financial Manual at http://www.fms.treas.gov/tfm/vol1/07-03.pdf.




114
                                                            A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                             Working Capital Fund
                                                                                              Notes to the Principal Statements


1.L. Direct Loans and Loan Guarantees
Not applicable.

1.M. Inventories and Related Property
The AFWCF values approximately 99% of its resale inventory using the moving average cost method and reports the remaining
1% of resale inventories at an approximation of historical cost using latest acquisition cost adjusted for holding gains and losses.
The latest acquisition cost method is used because legacy inventory systems were designed for materiel management rather than
accounting. Although these systems provide visibility and accountability over inventory items, they do not maintain historical cost
data necessary to comply with Statement of Federal Financial Accounting Standards (SFFAS) No. 3, Accounting for Inventory and
Related Property. Additionally, these systems cannot produce financial transactions using the USSGL, as required by the Federal
Financial Management Improvement Act of 1996 (PL 104-208). The AFWCF is continuing to transition the balance of the
inventories to the moving average cost method through the use of new inventory systems. Most transitioned balances, however,
were not baselined to auditable historical cost and remain noncompliant with SFFAS No. 3.

The AFWCF manages only military or government-specific materiel under normal conditions. Materiel is a unique term that
relates to military force management, and includes items such as ships, tanks, self-propelled weapons, aircraft, etc., and related
spares, repair parts, and support equipment. Items commonly used in and available from the commercial sector are not managed
in AFWCF’s materiel management activities. Operational cycles are irregular and the military risks associated with stock-out
positions have no commercial parallel. The AFWCF holds materiel based on military need and support for contingencies. The
DoD is currently developing a methodology to be used to account for “inventory held for sale” and “inventory held in reserve for
future sale” with a completion date of year-end FY 2011 reporting.

Related property includes OM&S which is valued at purchase price. The AFWCF uses the consumption method of accounting for
OM&S.

The AFWCF recognizes excess, obsolete, and unserviceable inventory and OM&S at a net realizable value of $0 pending
development of an effective means of valuing such materiel.

Inventory available and purchased for resale includes consumable spare and repair parts and repairable items owned and
managed by AFWCF. This inventory is retained to support military or national contingencies. Inventory held for repair is
damaged inventory that requires repair to make it suitable for sale. Often, it is more economical to repair these items rather than
to procure them. The AFWCF often relies on weapon systems and machinery no longer in production. As a result, AFWCF
supports a process that encourages the repair and rebuilding of certain items. This repair cycle is essential to maintaining a
ready, mobile, and armed military force. Work in process balances include (1) costs related to the production or servicing of
items, including direct material, labor, and applied overhead; (2) the value of finished products or completed services that are yet
to be placed in service; and (3) munitions in production and depot maintenance work with its associated costs incurred in the
delivery of maintenance services.

1.N. Investments in U.S. Treasury Securities
Not applicable.

1.O. General Property, Plant and Equipment
The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is $100 thousand except for real property,
which is $20 thousand. The AFWCF has not fully implemented the threshold for real property; and therefore DoD is primarily
using the capitalization threshold of $100 thousand for General PP&E, and most real property.

With the exception of USACE Civil Works and WCF, General PP&E assets are capitalized at historical acquisition cost when an
asset has a useful life of two or more years and when the acquisition cost equals or exceeds DoD’s capitalization threshold. The
DoD also requires the capitalization of improvements to existing General PP&E assets if the improvements equal or exceed the
capitalization threshold and extend the useful life or increase the size, efficiency, or capacity of the asset. The DoD depreciates
all General PP&E, other than land, on a straight-line basis.

The WCF capitalizes all PP&E used in the performance of its mission. These assets are capitalized as General PP&E, whether or
not they meet the definition of any other PP&E category.




                                                                                                                                  115
                 Working Capital Fund
                 Notes to the Principal Statements


  When it is in the best interest of the government, the AFWCF provides government property to contractors to complete contract
  work. The AFWCF either owns or leases such property, or it is purchased directly by the contractor for the government based on
  contract terms. When the value of contractor-procured General PP&E meets or exceeds the DoD capitalization threshold, federal
  accounting standards require that it be reported on AFWCF’s Balance Sheet.

  The DoD developed policy and a reporting process for contractors with government furnished equipment that provides appropriate
  General PP&E information for financial statement reporting. The DoD requires AFWCF to maintain, in their property systems,
  information on all property furnished to contractors. These actions are structured to capture and report the information necessary
  for compliance with federal accounting standards. The AFWCF has not fully implemented this policy primarily due to system
  limitations.

  1.P. Advances and Prepayments
  When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances or
  prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services should be
  reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the related
  goods and services are received. The AFWCF has implemented this policy.

  1.Q. Leases
  Not applicable.

  1.R. Other Assets
  Other assets includes those assets, such as military and civil service employee pay advances, travel advances, and certain
  contract financing payments that are not reported elsewhere on AFWCF’s Balance Sheet.

  The AFWCF conducts business with commercial contractors under two primary types of contracts: fixed price and cost
  reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, AFWCF may
  provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32, as
  authorized disbursements to a contractor prior to acceptance of supplies or services by the Government. Contract financing
  payments clauses are incorporated in the contract terms and conditions and may include advance payments, performance-based
  payments, commercial advances and interim payments, progress payments based on cost, and interim payments under certain
  cost-reimbursement contracts. It is DoD policy to record certain contract financing payments as other assets. The AFWCF has
  not fully implemented this policy primarily due to system limitations.

  Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments, or
  progress payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation Supplement
  authorizes progress payments based on a percentage or stage of completion only for construction of real property, shipbuilding,
  and ship conversion, alteration, or repair. Progress payments based on percentage or stage of completion are reported as
  Construction in Progress.

  1.S. Contingencies and Other Liabilities
  The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition of
  Contingent Liabilities Arising from Litigation, defines a contingency as an existing condition, situation, or set of circumstances that
  involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future events occur or fail
  to occur. The AFWCF recognizes contingent liabilities when past events or exchange transactions occur, a future loss is
  probable, and the loss amount can be reasonably estimated.

  Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least a
  reasonable possibility of incurring a loss or additional losses. The AFWCF’s risk of loss and resultant contingent liabilities arise
  from pending or threatened litigation or claims and assessments due to events such as aircraft, ship and vehicle accidents;
  medical malpractice; property or environmental damages; and contract disputes.

  1.T. Accrued Leave
  The AFWCF reports liabilities for military leave and accrued compensatory and annual leave for civilians. Sick leave for civilians
  is expensed as taken. The liabilities are based on current pay rates.




116
                                                            A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                            Working Capital Fund
                                                                                            Notes to the Principal Statements


1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent the amounts of budget authority that are unobligated and have not been rescinded or
withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not been
incurred.

Cumulative Results of Operations represent the net difference between expenses and losses, and financing sources (including
appropriations, revenue, and gains), since inception. The cumulative results of operations also include donations and transfers in
and out of assets that were not reimbursed.

1.V. Treaties for Use of Foreign Bases
Not applicable.

1.W. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the
transaction level to specific obligations, payables, or receivables in the source systems and those reported by the U.S. Treasury.

Supported disbursements and collections are evidenced by corroborating documentation. Unsupported disbursements and
collections do not have supporting documentation for the transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal categories
based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. Supported
undistributed disbursements and collections are then applied to reduce accounts payable and receivable accordingly.
Unsupported undistributed disbursements are recorded as disbursements intransit and reduce nonfederal accounts payable.
Unsupported undistributed collections are recorded in nonfederal other liabilities.

1.X. Significant Events
Not Applicable.

1.Y. Fiduciary Activities
Not Applicable.




                                                                                                                                117
                  Working Capital Fund
                  Notes to the Principal Statements



  Note 2.           Nonentity Assets


      As of September 30                                                2010                                     2009
      (Amounts in thousands)

      1. Intragovernmental Assets
         A. Fund Balance with Treasury                 $                                     0   $                                   0
         B. Accounts Receivable                                                              0                                       0
         C. Other Assets                                                                     0                                       0
         D. Total Intragovernmental Assets             $                                     0   $                                   0

      2. Nonfederal Assets
         A. Cash and Other Monetary Assets             $                                     0   $                                   0
         B. Accounts Receivable                                                            693                                     425
         C. Other Assets                                                                     0                                       0
         D. Total Nonfederal Assets                    $                                   693   $                                 425


      3. Total Nonentity Assets                        $                                   693   $                                 425


      4. Total Entity Assets                           $                            31,316,997   $                           33,323,911


      5. Total Assets                                  $                            31,317,690   $                           33,324,336


  Asset accounts are categorized as either entity or nonentity. Entity accounts consist of resources that are available for use in the
  operations of the entity.

  Nonentity assets are assets for which the AFWCF maintains stewardship accountability and reporting responsibility, but are not
  available for the AFWCF’s normal operations.

  These nonentity assets are interest, penalties and administrative fees that will be forwarded to the General Fund of the
  U.S. Treasury upon collection.




118
                                                         A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                        Working Capital Fund
                                                                                        Notes to the Principal Statements



Note 3.       Fund Balance with Treasury


As of September 30                                                  2010                                  2009
(Amounts in thousands)


1. Fund Balances
   A. Appropriated Funds                             $                                 0   $                                0
   B. Revolving Funds                                                            311,557                              697,367
   C. Trust Funds                                                                      0                                    0
   D. Special Funds                                                                    0                                    0
   E. Other Fund Types                                                                 0                                    0
   F. Total Fund Balances                            $                           311,557   $                          697,367



2. Fund Balances Per Treasury Versus Agency
   A. Fund Balance per Treasury                      $                           944,664   $                         1,409,119
   B. Fund Balance per AFWCF                                                     311,557                               697,367

3. Reconciling Amount                                $                           633,107   $                          711,752



The reconciling amount represents $633.1million for the United States Transportation Command (USTC), which is reported by the
U.S. Treasury as part of the AFWCF. However, for the purposes of Audited Financial Statements (AFS), USTC is included with
the Other Defense Organizations reporting which is separate from the AFWCF. Therefore, USTC funds are not included in the
AFWCF AFS.




                                                                                                                            119
                  Working Capital Fund
                  Notes to the Principal Statements



      Status of Fund Balance with Treasury

      As of September 30                                           2010                                    2009
      (Amounts in thousands)
      1. Unobligated Balance
         A. Available                                 $                          532,408    $                            373,638
         B. Unavailable                                                                0                                       0

      2. Obligated Balance not yet Disbursed          $                         7,824,540   $                           7,522,917

      3. Nonbudgetary FBWT                            $                                0    $                                     0


      4. NonFBWT Budgetary Accounts                   $                       (8,045,391)   $                         (7,199,188)

      5. Total                                        $                          311,557    $                            697,367

  The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT and is a reconciliation
  between budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances. The balances reflect
  the budgetary authority remaining for disbursement against current or future obligations.

  Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority that
  has not been set aside to cover outstanding obligations. The unavailable balance consists of funds temporarily precluded from
  obligation by law. Certain unobligated balances are restricted for future use and are not apportioned for current use. The AFWCF
  has no restrictions on unobligated balances.

  Obligated balance not yet disbursed represents funds that have been obligated for goods and services not received, and those
  received but not paid.

  Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable receipt accounts,
  clearing accounts, and nonentity FBWT. The AFWCF currently does not have a Nonbudgetary FBWT.

  NonFBWT Budgetary Accounts reduces the Status of FBWT. The amount reported as NonFBWT Budgetary Accounts is
  comprised of contract authority, unfilled orders without advance from customers, and accounts receivable.



      Note 4.       Investments and Related Interest

  AFWCF has no Investments and Related Interest.




120
                                                         A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                               Working Capital Fund
                                                                                               Notes to the Principal Statements



Note 5.       Accounts Receivable


As of September 30                                                         2010
                                                             Allowance For Estimated
                              Gross Amount Due                                                     Accounts Receivable, Net
                                                                    Uncollectibles
(Amounts in thousands)
 1. Intragovernmental
    Receivables          $                     819,796                            N/A      $                                  819,796
 2. Nonfederal
    Receivables (From
    the Public)          $                      13,057   $                             0   $                                   13,057

3. Total Accounts
   Receivable            $                     832,853   $                             0   $                                  832,853



As of September 30                                                         2009
                                                             Allowance For Estimated
                              Gross Amount Due                                                     Accounts Receivable, Net
                                                                    Uncollectibles
(Amounts in
thousands)
1. Intragovernmental
   Receivables           $                     718,662                            N/A      $                                  718,662
2. Nonfederal
   Receivables (From
   the Public)           $                     152,109   $                             0   $                                  152,109

3. Total Accounts
   Receivable            $                     870,771   $                             0   $                                  870,771



The accounts receivable represent the AFWCF’s claim for payment from other entities. Claims with other federal
agencies are resolved in accordance with the Intragovernmental Business Rules.




                                                                                                                                   121
                  Working Capital Fund
                  Notes to the Principal Statements



  Note 6.           Other Assets


      As of September 30                                                         2010                             2009
      (Amounts in thousands)

      1. Intragovernmental Other Assets
         A. Advances and Prepayments                                $                            0   $                      420
         B. Other Assets                                                                         0                            0
         C. Total Intragovernmental Other Assets                    $                            0   $                      420

      2. Nonfederal Other Assets
         A. Outstanding Contract Financing Payments                 $                     194,341    $                   179,766
         B. Advances and Prepayments                                                      130,371                         78,619
         C. Other Assets (With the Public)                                                200,375                        144,318
         D. Total Nonfederal Other Assets                           $                     525,087    $                   402,703


      3. Total Other Assets                                         $                     525,087    $                   403,123

  Contract terms and conditions for certain types of contract financing payments convey certain rights to the
  Government that protect the contract work from state or local taxation, liens or attachment by the contractor's
  creditors, transfer of property, or disposition in bankruptcy. However, these rights should not be misconstrued to
  mean that ownership of the contractor’s work has transferred to the Federal Government. The Federal
  Government does not have the right to take the work, except as provided in contract clauses related to
  termination or acceptance, and AFWCF is not obligated to make payment to the contractor until delivery and
  acceptance.

  The balance in Outstanding Contract Financing Payments includes $166.9 million in contract financing payments
  and an additional $27.4 million in estimated future payments to contractors upon delivery and government
  acceptance of a satisfactory product.

  The $200.4 million balance in Nonfederal Other Assets – Other Assets (With the Public) is comprised of Supply
  Management Activity Group’s assets returned to vendors for which credit is pending. There will be no dollar
  payments received for this credit but vendor billings will be offset.

  Note 7.           Cash and Other Monetary Assets

  AFWCF has no Cash and Other Monetary Assets.

      Note 8.       Direct Loan and Loan Guarantees

  AFWCF has no Direct Loan and/or Loan Guarantee Programs.




122
                                                                 A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                                     Working Capital Fund
                                                                                                     Notes to the Principal Statements



Note 9.         Inventory and Related Property


As of September 30                                                       2010                                          2009
(Amounts in thousands)

1. Inventory, Net                                       $                               28,171,171    $                          29,915,921
2. Operating Materiel & Supplies, Net                                                      123,186                                  143,417
3. Stockpile Materiel, Net                                                                       0                                        0

4. Total                                                $                               28,294,357    $                          30,059,338



Inventory, Net


As of September 30                                                   2010
                                      Inventory,
                                                             Revaluation Allowance             Inventory, Net           Valuation Method
                                Gross Value
(Amounts in thousands)

1. Inventory Categories
   A. Available and
      Purchased for
      Resale                    $             17,703,154     $                    (14,657)                17,688,497          LAC,MAC
   B. Held for Repair                         14,754,093                       (4,298,962)                10,455,131          LAC,MAC
   C. Excess, Obsolete,
      and Unserviceable                            136,355                      (136,355)                         0            NRV
   D. Raw Materiel                                       0                              0                         0         MAC,SP,LAC
   E. Work in Process                               27,543                              0                    27,543             AC


   F. Total                     $             32,621,145     $                 (4,449,974)                28,171,171



As of September 30                                                   2009
                                      Inventory,
                                                             Revaluation Allowance             Inventory, Net           Valuation Method
                                Gross Value
(Amounts in thousands)

1. Inventory Categories
   A. Available and
      Purchased for
      Resale                    $             19,339,696     $                     (1,462)                19,338,234          LAC,MAC
   B. Held for Repair                         14,885,175                       (4,348,938)                10,536,237          LAC,MAC
   C. Excess, Obsolete,
      and Unserviceable                            186,549                      (186,549)                         0            NRV
   D. Raw Materiel                                       0                              0                         0         MAC,SP,LAC
   E. Work in Process                               41,450                              0                    41,450             AC


   F. Total                     $             34,452,870     $                 (4,536,949)                29,915,921

Legend for Valuation Methods:
LAC = Latest Acquisition Cost                  NRV = Net Realizable Value                       MAC = Moving Average Cost
SP = Standard Price                            LCM = Lower of Cost or Market
AC = Actual Cost                               O = Other

                                                                                                                                         123
                 Working Capital Fund
                 Notes to the Principal Statements


  Restrictions

  There are no restrictions on the use, sale, or disposition of inventory except for War Reserve Materiel and nuclear related spare
  parts.

  General Composition of Inventory

  Inventory includes weapon system consumable and reparable parts, base supply items, and medical-dental supplies. Inventory is
  tangible personal property that is held for sale or held for repair for eventual sale, in the process of production for sale, or to be
  consumed in the production of goods for sale or in the provision of services for a fee.

  Definitions

  Inventory Available and Purchased for Resale includes consumable and reparable parts owned and managed by AFWCF.

  Inventory Held for Repair is damaged inventory that requires repair to make it suitable for sale. Many of the inventory items are
  more economical to repair than to procure. In addition, because AFWCF often relies on weapon systems and machinery no
  longer in production, AFWCF supports a process that encourages the repair and rebuilding of certain items. This repair cycle is
  essential to maintaining a ready, mobile, and armed military force.

  Excess, Obsolete, and Unserviceable inventory consists of obsolete, excess to requirements, or items that cannot be
  economically repaired and are awaiting disposal.

  Work in Process balances include costs related to the production or servicing of items, including direct material, direct labor,
  applied overhead, and other direct costs. Work in Process also includes the value of finished products or completed services
  pending the submission of bills to the customer.




124
                                                               A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                           Working Capital Fund
                                                                                           Notes to the Principal Statements




 Operating Materiel and Supplies, Net


 As of September 30                                                2010
                                       OM&S
                                                         Revaluation Allowance         OM&S, Net             Valuation Method
                                 Gross Value
 (Amounts in thousands)

 1. OM&S Categories
   A. Held for Use               $             123,186   $                     0   $           123,186          SP, LAC, MAC
   B. Held for Repair                                0                         0                      0         SP, LAC, MAC
   C. Excess, Obsolete, and
      Unserviceable                                  0                         0                      0              NRV


   D. Total                      $             123,186   $                     0   $           123,186



 As of September 30                                              2009
                                      OM&S
                                                         Revaluation Allowance         OM&S, Net             Valuation Method
                           Gross Value
 (Amounts in
    thousands)

 1. OM&S Categories
   A. Held for Use         $                   143,417   $                     0   $           143,417          SP, LAC, MAC
   B. Held for Repair                                0                         0                     0          SP, LAC, MAC
   C. Excess, Obsolete,
      and Unserviceable                              0                         0                      0              NRV


   D. Total                $                   143,417   $                     0   $           143,417

 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost                 NRV = Net Realizable Value                MAC = Moving Average Cost
 SP = Standard Price                           LCM = Lower of Cost or Market
 AC = Actual Cost                              O = Other


General Composition of Operating Materiel and Supplies

Operating Materiel and Supplies (OM&S) includes consumable parts and supplies used to remanufacture spare
parts and repair weapons systems.

Restrictions

There are no restrictions on the use, sale, or disposition of OM&S.

Definition

Held for Use includes consumable parts and supplies.



 Stockpile Materiel, Net

AFWCF has no Stockpile Materiels.


                                                                                                                               125
                       Working Capital Fund
                       Notes to the Principal Statements




  Note 10.               General PP&E, Net


      As of September 30
                                                                                            2010
                                  Depreciation/
                                                    Service         Acquisition             (Accumulated Depreciation/       Net Book
                                  Amortization
                                                     Life             Value                       Amortization)               Value
                                    Method
      (Amounts in thousands)


      1. Major Asset Classes
         A. Land                       N/A            N/A       $                      0                           N/A   $                     0
         B. Buildings,
            Structures, and
            Facilities                 S/L         20 Or 40                   1,012,030     $                (691,103)                   320,927
         C. Leasehold
            Improvements               S/L         lease term                          0                             0                         0
        D. Software                    S/L         2-5 Or 10                  1,149,812                      (952,917)                   196,895
        E. General Equipment           S/L          5 or 10                   2,752,843                    (1,942,028)                   810,815
        F. Military Equipment          S/L          Various                            0                             0                         0
        G. Shipbuilding
           (Construction-in-
           Progress)                   N/A            N/A                              0                             0                         0
        H. Assets Under
           Capital Lease               S/L         lease term                          0                             0                         0
        I. Construction-in-
           Progress (Excludes
           Military Equipment)
                                       N/A            N/A                          25,199                          N/A                    25,199
        J. Other                                                                       0                             0                         0
        K. Total General PP&E                                   $             4,939,884     $              (3,586,048)   $              1,353,836


      As of September 30
                                                                                            2009
                                  Depreciation/
                                                    Service         Acquisition             (Accumulated Depreciation/       Net Book
                                  Amortization
                                                     Life             Value                       Amortization)               Value
                                    Method
      (Amounts in thousands)

      1. Major Asset Classes
         A. Land                       N/A            N/A       $                      0                           N/A   $                     0
         B. Buildings,
            Structures, and
            Facilities                 S/L          20 Or 40                      974,901   $                (671,482)                   303,419
         C. Leasehold
            Improvements               S/L         lease term                          0                             0                         0
        D. Software                    S/L         2-5 Or 10                  1,137,415                      (909,880)                   227,535
        E. General Equipment           S/L          5 or 10                   2,351,361                    (1,645,858)                   705,503
        F. Military Equipment          S/L          Various                            0                             0                         0
        G. Shipbuilding
           (Construction-in-
           Progress)                   N/A            N/A                              0                             0                         0
        H. Assets Under
           Capital Lease               S/L         lease term                          0                             0                         0
        I. Construction-in-
           Progress
               (Excludes
           Military Equipment)         N/A            N/A                          57,280                          N/A                    57,280
        J. Other                                                                       0                             0                         0
        K. Total General PP&E                                   $             4,520,957     $              (3,227,220)   $              1,293,737

      1 Note 15 for additional information on Capital Leases
      Legend for Valuation Methods:
      S/L = Straight Line       N/A = Not Applicable
126
                                                           A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                           Working Capital Fund
                                                                                           Notes to the Principal Statements



Assets Under Capital Lease

AFWCF has no Assets Under Capital Lease.



 Note 11.        Liabilities Not Covered by Budgetary Resources


 As of September 30                                                         2010                               2009
 (Amounts in thousands)

 1. Intragovernmental Liabilities
    A. Accounts Payable                                      $                                0   $                              0
    B. Debt                                                                                   0                                  0
    C. Other                                                                                  0                                  0
    D. Total Intragovernmental Liabilities                   $                                0   $                              0

 2. Nonfederal Liabilities
    A. Accounts Payable                                      $                                0   $                              0
    B. Military Retirement and
       Other Federal Employment Benefits                                               198,905                            193,709
    C. Environmental Liabilities                                                             0                                  0
    D. Other Liabilities                                                                     0                                  0
    E. Total Nonfederal Liabilities                          $                         198,905    $                       193,709

 3. Total Liabilities Not Covered by Budgetary
    Resources                                                $                         198,905    $                       193,709


 4. Total Liabilities Covered by Budgetary Resources         $                        1,308,272   $                     1,460,241

 5. Total Liabilities                                        $                        1,507,177   $                     1,653,950

Liabilities Not Covered by Budgetary Resources include liabilities for which congressional action is needed before budgetary
resources can be provided.

Military Retirement and Other Federal Employment Benefits consists of Federal Employee’s Compensation Act actuarial liabilities
not due and payable during the current fiscal year. Refer to Note 17, Military Retirement and Other Federal Employment Benefits,
for additional details and disclosures.




                                                                                                                               127
               Working Capital Fund
               Notes to the Principal Statements



  Note 12.        Accounts Payable


  As of September 30                                                           2010

                                                                 Interest, Penalties, and
                                  Accounts Payable                                                   Total
                                                                   Administrative Fees

  (Amounts in thousands)

  1. Intragovernmental
       Payables              $                     144,788   $                         N/A      $                  144,788
  2. Nonfederal Payables
       (to the Public)                             715,535                                  0                      715,535

  3. Total                   $                     860,323   $                              0   $                  860,323



  As of September 30                                                           2009

                                                                 Interest, Penalties, and
                                  Accounts Payable                                                   Total
                                                                   Administrative Fees

  (Amounts in thousands)

  1. Intragovernmental
       Payables              $                     153,539   $                         N/A      $                  153,539
  2. Nonfederal Payables
       (to the Public)                             796,397                                  0                      796,397

  3. Total                   $                     949,936   $                              0   $                  949,936

 Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by AFWCF. The
 AFWCF’s systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side accounts
 payable are adjusted to agree with intraagency seller-side accounts receivable. Accounts payable was adjusted by
 reclassifying amounts between federal and nonfederal accounts payable.

  Note 13.          Debt

 AFWCF has no Debt.

  Note 14.           Environmental Liabilities and Disposal Liabilities

 AFWCF has no Environmental Liabilities and Disposal Liabilities.




128
                                                      A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                     Working Capital Fund
                                                                                     Notes to the Principal Statements



Note 15.         Other Liabilities

As of September 30
                                                                         2010
                                      Current                   Noncurrent
                                                                                                      Total
                                      Liability                  Liability
   (Amounts in thousands)

1. Intragovernmental
   A. Advances from Others        $                  217    $                   0     $                                   217
   B. Deposit Funds and
      Suspense Account
      Liabilities                                      0                        0                                           0
   C. Disbursing Officer Cash                          0                        0                                           0
   D. Judgment Fund Liabilities                        0                        0                                           0
   E. FECA Reimbursement to
      the Department of Labor                          0                        0                                           0
   F. Custodial Liabilities                          693                        0                                         693
   G. Employer Contribution and
      Payroll Taxes Payable                        17,270                       0                                    17,270
   H. Other Liabilities                                0                        0                                           0

   I. Total Intragovernmental
       Other Liabilities          $                18,180   $                   0     $                              18,180
   (Amounts in thousands)
2. Nonfederal
   A. Accrued Funded Payroll
       and Benefits               $               198,884   $                   0     $                             198,884
   B. Advances from Others                         33,529                       0                                    33,529
   C. Deferred Credits                                 0                        0                                           0
   D. Deposit Funds and
       Suspense Accounts                               0                        0                                           0
   E. Temporary Early
       Retirement Authority                            0                        0                                           0
   F. Nonenvironmental
       Disposal Liabilities
        (1) Military Equipment
        (Nonnuclear)                                   0                        0                                           0
        (2) Excess/Obsolete
        Structures                                     0                        0                                           0
        (3) Conventional
        Munitions Disposal                             0                        0                                           0
   G. Accrued Unfunded Annual
       Leave                                           0                        0                                           0
   H. Capital Lease Liability                          0                        0                                           0
    I. Contract Holdbacks                           2,947                       0                                        2,947
   J. Employer Contribution and
       Payroll Taxes Payable                           0                        0                                           0
   K. Contingent Liabilities                           0                    27,437                                   27,437
   L. Other Liabilities                           166,972                       0                                   166,972

   M. Total Nonfederal Other
      Liabilities                 $               402,332   $               27,437    $                             429,769


3. Total Other Liabilities        $               420,512   $               27,437    $                             447,949


                                                                                                                          129
                Working Capital Fund
                Notes to the Principal Statements




  As of September 30
                                                                                  2009
                                               Current                   Noncurrent
                                                                                                  Total
                                               Liability                  Liability
  (Amounts in thousands)

  1. Intragovernmental
     A. Advances from Others          $                    (1,004)   $                   0    $           (1,004)
     B. Deposit Funds and
        Suspense Account
        Liabilities                                             0                        0                     0
     C. Disbursing Officer Cash                                 0                        0                     0
     D. Judgment Fund Liabilities                               0                        0                     0
     E. FECA Reimbursement to
        the Department of Labor                                 0                        0                     0
     F. Custodial Liabilities                                 425                        0                   425
     G. Employer Contribution and
        Payroll Taxes Payable                               14,110                       0                 14,110
         H. Other Liabilities                                   0                        0                     0

      I. Total Intragovernmental
         Other Liabilities            $                     13,531   $                   0    $            13,531
  (Amounts in thousands)
  2. Nonfederal
     A. Accrued Funded Payroll
        and Benefits                  $                    169,070   $                   0    $           169,070
     B. Advances from Others                                26,297                       0                 26,297
     C. Deferred Credits                                        0                        0                     0
     D. Deposit Funds and
        Suspense Accounts                                       0                        0                     0
     E. Temporary Early
        Retirement Authority                                    0                        0                     0
     F. Nonenvironmental
        Disposal Liabilities
         (1) Military Equipment
         (Nonnuclear)                                           0                        0                     0
         (2) Excess/Obsolete
         Structures                                             0                        0                     0
         (3) Conventional
         Munitions Disposal                                     0                        0                     0
     G. Accrued Unfunded Annual
        Leave                                                   0                        0                     0
     H. Capital Lease Liability                                 0                        0                     0
     I. Contract Holdbacks                                   3,352                       0                  3,352
     J. Employer Contribution and
        Payroll Taxes Payable                                   0                        0                     0
        K. Contingent Liabilities                               0                    24,176                24,176
     L. Other Liabilities                                  273,878                       0                273,878

      M. Total Nonfederal Other
         Liabilities                  $                    472,597   $               24,176   $           496,773


  3. Total Other Liabilities          $                    486,128   $               24,176   $           510,304




130
                                                            A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                             Working Capital Fund
                                                                                             Notes to the Principal Statements


 AFWCF reported an abnormal balance for Intragovernmental Advances from Others in the 4th Quarter FY 2009 in the
 amount of $1.0 million. An overliquidation of a previous progress billing caused the abnormal balance, which has since
 been resolved.

 The majority of the Nonfederal Other Liabilities balance is comprised of $126.2 million for Contract Depot Maintenance
 Activity Group’s accrued material and labor liabilities and $27.9 million in accrued liabilities established in the
 Consolidated Sustainment Activity Group (CSAG) Supply as an offset to the asset established when foreign government
 provide funds to buy their respective share of inventory that is owned and managed by the Air Force under a Cooperative
 Logistics Supply Support Agreement (CLSSA).

 Contingent liabilities include $27.4 million related to contracts authorizing progress payments based on cost as defined in
 the Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work
 vests with the Federal Government when a specific type of contract financing payment is made. This action protects
 taxpayer funds in the event of contract nonperformance. These rights should not be misconstrued as the rights of
 ownership. The AFWCF is under no obligation to pay contractors for amounts greater than the amounts authorized in
 contracts until delivery and government acceptance. Due to the probability the contractors will complete their efforts and
 deliver satisfactory products, and because the amount of potential future payments are estimable, the AFWCF has
 recognized a contingent liability for estimated future payments which are conditional pending delivery and government
 acceptance.

 Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs
 incurred to date by contractors and amounts authorized to be paid under progress payments based on cost provisions
 within the FAR. Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated progress
 payments based on cost by the contract-authorized progress payment rate. The balance of unliquidated progress
 payments based on cost is deducted from the estimated total contractor-incurred costs to determine the contingency
 amount.

 Capital Lease Liability
AFWCF has no Environmental Liabilities and Disposal Liabilities.

Note 16.         Commitments and Contingencies

The AFWCF is a party in various administrative proceedings and legal actions, related to claims for environmental damage, equal
opportunity matters, and contractual bid protests. The AFWCF’s Office of the General Counsel considers the possibility of the
AFWCF sustaining any losses on these legal actions to be remote.

The AFWCF is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments, or
dispute resolution, that may result in a future outflow of expenditures. Currently, AFWCF has limited automated system processes
by which it captures or assesses these potential contingent liabilities; therefore no associated liabilities are recognized or
disclosed.

Contingencies that are considered both measurable and probable have been recognized as liabilities. Refer to note 15 for further
details.




                                                                                                                                 131
                      Working Capital Fund
                      Notes to the Principal Statements



   Note 17.                Military Retirement and Other Federal Employment Benefits


      As of September 30                                                                       2010
                                                                             (Less: Assets Available to Pay
                                                 Liabilities                                                          Unfunded Liabilities
                                                                                          Benefits)
      (Amounts in thousands)


      1. Pension and Health Benefits
       A. Military Retirement Pensions     $                        0    $                                    0   $                               0
       B. Military Pre Medicare-Eligible
          Retiree Health Benefits                                   0                                         0                                   0
       C. Military Medicare-Eligible
          Retiree Health Benefits                                   0                                         0                                   0
       D. Total Pension and Health
          Benefits                         $                        0    $                                    0   $                               0


      2. Other Benefits
       A. FECA                             $                   198,905   $                                    0   $                          198,905
       B. Voluntary Separation
          Incentive Programs                                        0                                         0                                   0
       C. DoD Education Benefits
          Fund                                                       0                                        0                                    0
       D. Other                                                      0                                        0                                    0
       E. Total Other Benefits             $                   198,905   $                                    0   $                          198,905

      3. Total Military Retirement and
         Other Federal Employment
         Benefits:                         $                   198,905   $                                    0   $                          198,905



  Federal Employees Compensation Act (FECA)

  The AFWCF actuarial liability for workers’ compensation benefits is developed by the Department of Labor and is updated at the
  end of each fiscal year. The liability includes the expected liability for death, disability, medical, and miscellaneous costs for
  approved compensation cases, plus a component for incurred but not reported claims. The liability is determined using a method
  that utilizes historical benefit payment patterns related to a specific incurred period to predict the ultimate payments related to that
  period. Consistent with past practice, these projected annual benefit payments have been discounted to present value using the
  Office of Management and Budget’s (OMB’s) economic assumptions for 10-year Treasury notes and bonds. Interest rate
  assumptions utilized for discounting were as follows:

             2010
             3.653% in Year 1
             4.300% in Year 2
             and thereafter

  To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage inflation
  factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index medical or CPIMs) were applied
  to the calculation of projected future benefits. The actual rates for these factors for the charge back year (CBY) 2010 were also
  used to adjust the methodology’s historical payments to current year constant dollars.




132
                                                               A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                                    Working Capital Fund
                                                                                                    Notes to the Principal Statements


The compensation COLAs and CPIMs used in the projections for various CBY were as follows:

         CBY                 COLA         CPIM
         2010                N/A          N/A
         2011                2.23%        3.45%
         2012                1.13%        3.43%
         2013                1.70%        3.64%
         2014                1.90%        3.66%
         2015                1.93%        3.73%
         and thereafter

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on four tests:
(1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in the liability amount
by agency to the percentage change in the actual incremental payments, (3) a comparison of the incremental paid losses per case
(a measure of case-severity) in CBY 2010 to the average pattern observed during the most current three charge back years, and
(4) a comparison of the estimated liability per case in the 2010 projection to the average pattern for the projections of the most
recent three years.



 As of September 30                                                                 2009
                                                                   (Less: Assets Available to Pay
                                           Liabilities                                                        Unfunded Liabilities
                                                                                Benefits)
 (Amounts in thousands)(Amounts
     in thousands)


 1. Pension and Health Benefits
  A. Military Retirement Pensions     $                       0    $                            0   $                                     0
  B. Military Pre Medicare-Eligible
     Retiree Health Benefits                                  0                                 0                                         0
  C. Military Medicare-Eligible
     Retiree Health Benefits                                  0                                 0                                         0
  D. Total Pension and Health
     Benefits                         $                       0    $                            0   $                                     0

 2. Other Benefits
   A. FECA                            $                  193,710   $                            0   $                                193,710
   B. Voluntary Separation
      Incentive Programs                                      0                                 0                                         0
   C. DoD Education Benefits
      Fund                                                    0                                 0                                         0
  D. Other                                                    0                                 0                                         0
  E. Total Other Benefits             $                  193,710   $                            0   $                                193,710

 3. Total Military Retirement and
    Other Federal Employment
    Benefits:                         $                  193,710   $                            0   $                                193,710




                                                                                                                                         133
                  Working Capital Fund
                  Notes to the Principal Statements



      Note 18.             General Disclosures Related to the Statement of Net Cost


      Intragovernmental Costs and Exchange Revenue

      As of September 30                                                   2010                                 2009
      (Amounts in thousands)


      1. Intragovernmental Costs                            $                          1,579,885   $                       2,293,064
      2. Public Costs                                                                10,242,658                            8,241,327
      3. Total Costs                                        $                        11,822,543    $                     10,534,391



      4. Intragovernmental Earned Revenue                   $                       (10,196,806)   $                    (10,030,681)
      5. Public Earned Revenue                                                         (131,544)                           (349,388)
      6. Total Earned Revenue                               $                       (10,328,350)   $                    (10,380,069)


      7. Net Cost of Operations                             $                          1,494,193   $                        154,322

  Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal
  Government.

  The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government supported by
  appropriations or other means. The intent of SNC is to provide gross and net cost information related to the amount of output or
  outcome for a given program or organization administered by a responsible reporting entity. The DoD’s current processes and
  systems do not capture and report accumulated costs for major programs based upon the performance measures as required by
  the Government Performance and Results Act. The DoD is in the process of reviewing available data and developing a cost
  reporting methodology as required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial Cost
  Accounting Concepts and Standards for the Federal Government,” as amended by SFFAS No. 30, “Inter-entity Cost
  Implementation.”

  Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

  The AFWCF’s systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side expenses are
  adjusted to agree with internal seller-side revenues. Expenses are generally adjusted by reclassifying amounts between federal
  and nonfederal expenses.

  The AFWCF records transactions on an accrual basis. The AFWCF may not have all the actual costs and revenues input into the
  system in time for reporting. Accrual estimates based upon budget information and historical data are made as required by
  generally accepted accounting principles. These estimates reverse as actual costs or revenues are recorded.



      Note 19. Disclosures Related to the Statement of Changes in Net Position

  Other Financing Sources, Other consists primarily of other gains and losses due to the reclassification of intragovernmental
  transfers in or out without reimbursement for which Air Force could not determine the trading partners.




134
                                                          A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                          Working Capital Fund
                                                                                          Notes to the Principal Statements



Note 20.         Disclosures Related to the Statement of Budgetary Resources


 As of September 30                                                          2010                             2009
 (Amounts in thousands)

 1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                $                      6,758,887   $                    6,276,148

 2. Available Borrowing and Contract Authority at the End of
    the Period                                                                                0                                 0

The AFWCF reported reimbursable obligations of $7.8 billion in category B, and $4.3 billion in exempt from apportionment.

The Statement of Budgetary Resources (SBR) includes intraentity transactions because the statements are presented as
combined.




                                                                                                                              135
                  Working Capital Fund
                  Notes to the Principal Statements



  Note 21.            Reconciliation of Net Cost of Operations to Budget



      As of September 30
                                                                   2010                   2009
      (Amounts in thousands)

   Resources Used to Finance Activities:
  Budgetary Resources Obligated:
  1. Obligations incurred                                      $       12,080,367     $            11,238,329
  2. Less: Spending authority from offsetting                        (11,813,266)                (11,280,419)
     collections and recoveries (-)
  3. Obligations net of offsetting collections                 $           267,101    $              (42,090)
      and recoveries
  4. Less: Offsetting receipts (-)                                               0                          0
  5. Net obligations                                           $           267,101    $              (42,090)
  Other Resources:
  6. Donations and forfeitures of property                                        0                         0
  7. Transfers in/out without reimbursement (+/-)                         (310,795)                  (64,772)
  8. Imputed financing from costs absorbed by others                        188,664                  151,466
  9. Other (+/-)                                                           (15,271)                    93,605
  10. Net other resources used to finance activities           $          (137,402)   $              180,299
  11. Total resources used to finance activities               $            129,699   $              138,209
  Resources Used to Finance Items not Part of the Net Cost
       of Operations:
  12. Change in budgetary resources obligated for
      goods, services and benefits ordered but not yet
      provided:
      12a. Undelivered Orders (-)                              $          (482,739)   $              319,984
      12b. Unfilled Customer Orders                                         194,866                (345,924)
  13. Resources that fund expenses recognized in prior                            0                 (52,004)
       Periods (-)
  14. Budgetary offsetting collections and receipts that                         0                         0
       do not affect Net Cost of Operations
  15. Resources that finance the acquisition of assets (-)            (5,240,399)                 (5,012,188)
  16. Other resources or adjustments to net obligated
       resources that do not affect Net Cost of
       Operations:
       16a. Less: Trust or Special Fund Receipts                                 0                         0
              Related to exchange in the Entity’s Budget (-)
       16b. Other (+/-)                                                   326,066                    (28,833)
  17. Total resources used to finance items not part           $      (5,202,206)     $           (5,118,965)
       of the Net Cost of Operations
  18. Total resources used to finance the Net Cost             $      (5,072,507)     $           (4,980,756)
       of Operations




136
                                                            A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                                                                                               Working Capital Fund
                                                                                               Notes to the Principal Statements




  As of September 30
                                                                            2010                               2009
  (Amounts in thousands)



 Components of the Net Cost of Operations that will
 not Require or Generate Resources in the Current Period:

 Components Requiring or Generating Resources in Future
     Period:
 19. Increase in annual leave liability                          $                        0     $                                  0
 20. Increase in environmental and disposal liability                                     0                                        0
 21. Upward/Downward reestimates of credit subsidy                                        0                                        0
     expense (+/-)
 22. Increase in exchange revenue receivable from                                   (12,368)                                       0
     the public (-)
 23. Other (+/-)                                                                       5,195                                       0
 24. Total components of Net Cost of Operations that             $                   (7,173)    $                                  0
     will Require or Generate Resources in future
     periods

 Components not Requiring or Generating Resources:
 25. Depreciation and amortization                               $                   152,225    $                         161,990
 26. Revaluation of assets or liabilities (+/-)                                    1,851,847                              917,325
 27. Other (+/-)
     27a. Trust Fund Exchange Revenue                                                      0                                     0
     27b. Cost of Goods Sold                                                       8,871,549                             7,846,612
     27c. Operating Material and Supplies Used                                        29,515                                78,280
     27d. Other                                                                  (4,331,263)                           (3,869,129)
 28. Total Components of Net Cost of Operations that             $                 6,573,873    $                        5,135,078
     will not Require or Generate Resources

 29. Total components of Net Cost of Operations                  $                 6,566,700    $                       5,135,078
     that will not Require or Generate Resources in
     the current period

 30. Net Cost of Operations                                      $                 1,494,193    $                         154,322


Due to the AFWCF’s financial system limitations, budgetary data do no agree with proprietary expenses and capitalized assets.
The difference between budgetary and proprietary data is a previously identified deficiency.

A $27.3 million adjustment was made to the Resources That Finance the Acquisition of Assets in order to align the note
schedule with the amount reported on the Statement of Net Cost.

The following schedule lines are presented as combined instead of consolidated due to intraagency budgetary transactions not
being eliminated:

    •   Obligations Incurred
    •   Less: Spending Authority from Offsetting Collections and Recoveries
    •   Obligations Net of Offsetting Collections and Recoveries
    •   Less: Offsetting Receipts
    •   Net Obligations
    •   Undelivered Orders
    •   Unfilled Customer Orders




                                                                                                                                   137
                 Working Capital Fund
                 Notes to the Principal Statements


 Resources Used to Finance Activities, Other consists primarily of other gains and losses due to the reclassification of
 intragovernmental transfers in or out without reimbursement for which Air Force could not determine the trading partners.

 Resources Used to Finance Items not Part of the Net Cost of Operations, Other is comprised of:

 1. Other gains and losses totaling $11.7 million due to the reclassification of intragovernmental transfers in or out without
    reimbursement for which Air Force could not determine the trading partners.

 2. Property transfers to other DoD agencies totaling $310.8 million.

 Components Requiring or Generating Resources in Future Period, Other represents the change in the Federal Employees
 Compensation Act (FECA) actuarial liability.

 Components not Requiring or Generating Resources, Other is comprised of $4.3 billion for Consolidated Sustainment Activity
 Group - Maintenance Division work-in-process offsets.

  Note 22.       Disclosures Related to Incidental Custodial Collections

 The AFWCF collected $11.2 thousand of incidental custodial revenues generated primarily from nonentity interest, penalties
 and administrative fees collected for out-of-service debts. These funds are not available for use by AFWCF. At the end of
 each fiscal year, the accounts are closed and the balances rendered to the U.S. Treasury.

  Note 23. Earmarked Funds

 AFWCF has no Earmarked Funds.


  Note 24. Fiduciary Activities

 AFWCF has no Fiduciary Activities.

  Note 25. Other Disclosures

 AFWCF has no Other Disclosures.

  Note 26.        Restatements

 AFWCF has no Restatements.




138
               A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0




Working Capital Fund
Fiscal Year 2010
Required Supplementary Information




                                                                       139
                         Working Capital Fund
                         Required Supplementary Information

Department of Defense
Air Force Working Capital Fund
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
For the periods ended September 30, 2010 and 2009
($ in Thousands)
                                                              Operations, Readiness &        2010 Combined             2009 Combined
                                                                      Support

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

Unobligated balance, brought forward, October 1               $               373,638    $             373,638     $             343,595
Recoveries of prior year unpaid obligations                                    33,765                    33,765                    89,013
Budget authority
   Appropriation                                                               69,443                    69,443                    61,465
   Contract authority                                                       7,757,396                 7,757,396                 7,255,839
   Spending authority from offsetting collections
       Earned
           Collected                                                       11,598,599               11,598,599                11,599,508
           Change in receivables from Federal sources                         (13,963)                  (13,963)                  (62,179)
       Change in unfilled customer orders
           Advance received                                                   (11,153)                  (11,153)                  (98,643)
           Without advance from Federal sources                               206,018                  206,018                   (247,280)
   Subtotal                                                                19,606,340               19,606,340                18,508,710
Nonexpenditure transfers, net, anticipated and actual                        (297,535)                 (297,535)                (251,274)
Permanently not available                                                  (7,103,433)               (7,103,433)               (7,078,077)
Total Budgetary Resources                                     $            12,612,775    $          12,612,775     $          11,611,967

Status of Budgetary Resources:

Obligations incurred:
   Reimbursable                                                            12,080,367               12,080,367                11,238,329
   Subtotal                                                                12,080,367               12,080,367                11,238,329
Unobligated balance:
   Exempt from apportionment                                                  532,408                  532,408                   373,638
   Subtotal                                                                   532,408                  532,408                   373,638
Total status of budgetary resources                           $            12,612,775    $          12,612,775     $          11,611,967
Change in Obligated Balance:

Obligated balance, net
   Unpaid obligations, brought forward, October 1             $             7,522,917    $            7,522,917    $            7,946,887
   Less: Uncollected customer payments                                     (3,701,113)               (3,701,113)               (4,010,572)
   from Federal sources, brought forward, October 1
   Total unpaid obligated balance                                           3,821,804                 3,821,804                3,936,315
Obligations incurred net (+/-)                                             12,080,367               12,080,367                11,238,329
Less: Gross outlays                                                       (11,744,980)              (11,744,979)              (11,573,286)
Obligated balance transferred, net
    payments from Federal sources (+/-)
Less: Recoveries of prior year unpaid obligations, actual                     (33,765)                  (33,765)                  (89,013)
Change in uncollected customer                                               (192,055)                (192,055)                  309,459
    payments from Federal sources (+/-)
Obligated balance, net, end of period
   Unpaid obligations                                                       7,824,540                7,824,540                 7,522,917
   Less: Uncollected customer payments (+/-)                               (3,893,168)               (3,893,168)               (3,701,113)
    from Federal sources (-)
   Total, unpaid obligated balance, net, end of period                      3,931,372                3,931,372                 3,821,804
Net Outlays

Net Outlays:
   Gross outlays                                                           11,744,980               11,744,979                11,573,286
   Less: Offsetting collections                                           (11,587,446)              (11,587,446)              (11,500,865)
   Net Outlays                                                $               157,534    $             157,533     $               72,421

140
                A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0




Working Capital Fund
Fiscal Year 2010
Audit Opinion




                                                                        141
      Working Capital Fund
      Audit Opinion




142
A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                          Working Capital Fund
                                         Audit Opinion




                                                         143
      Working Capital Fund
      Audit Opinion




144
A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                          Working Capital Fund
                                         Audit Opinion




                                                         145
      Working Capital Fund
      Audit Opinion




146
A N N U A L F I N A N C I A L S TAT E M E N T 2 0 1 0
                          Working Capital Fund
                                         Audit Opinion




                                                         147
148
              For more information or to contact us:
Assistant Secretary of the Air Force for Financial Management and Comptroller
                       SAF/FMPAS (Financial Reporting)
                  1602 Brookley Avenue, Room 367, F Wing
                           Andrews AFB, MD, 20762
                              www.saffm.hq.af.mil
